<html>
<title> - OVERSIGHT OF THE TRANSPORTATION SECURITY ADMINISTRATION</title>
<body><pre>[Senate Hearing 111-1083]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 111-1083
 
                            OVERSIGHT OF THE 
                 TRANSPORTATION SECURITY ADMINISTRATION 
=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 17, 2010

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

70-643 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




















       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
                 Ann Begeman, Republican Staff Director
             Brian M. Hendricks, Republican General Counsel
                  Nick Rossi, Republican Chief Counsel



















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 17, 2010................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Hutchison...................................     3
Statement of Senator Dorgan......................................     4
Statement of Senator Lautenberg..................................     5
Statement of Senator Isakson.....................................     6
    Prepared statement submitted by Hon. Johnny Isakson from 
      Pamela Robinson, U.S. Army veteran, Atlanta, Georgia.......    25
Statement of Senator Klobuchar...................................     6
Statement of Senator McCaskill...................................     7
Statement of Senator Johanns.....................................    21
Statement of Senator LeMieux.....................................    31
Statement of Senator DeMint......................................    33

                               Witnesses

Hon. John S. Pistole, Administrator, Transportation Security 
  Administration, U.S. Department of Homeland Security...........     8
    Prepared statement...........................................    11

                                Appendix

Response to written questions submitted to Hon. John S. Pistole 
  by:............................................................
    Hon. John D. Rockefeller IV..................................    37
    Hon. Byron L. Dorgan.........................................    38
    Hon. Frank R. Lautenberg.....................................    40
    Hon. Mark Pryor..............................................    41
    Hon. Claire McCaskill........................................    44
    Hon. Tom Udall...............................................    45
    Hon. Mark Warner.............................................    47
    Hon. Mark Begich.............................................    48
    Hon. Kay Bailey Hutchison....................................    50
    Hon. John Ensign.............................................    53
    Hon. John Thune..............................................    55
    Hon. Johnny Isakson..........................................    56
    Hon. David Vitter............................................    61
    Hon. Mike Johanns............................................    62
Letter, dated October 29, 2009 to Kevin J. Janet, FOIA Officer, 
  TSA-20, from Grant H. Willis...................................    63
Letter, dated November 25, 2009 to Grant H. Willis, Jones Day, 
  from Kevin J. Janet, FOIA Officer, Freedom of Information Act 
  Office.........................................................    64
Letter, dated November 15, 2010 to the Honorable Janet 
  Napolitano, Secretary, Department of Homeland Security, from 
  Eric D. Miller.................................................    65
Letter, dated November 16, 2010 to Adam Duffy from Diana Sauder 
  of Durango, Colorado...........................................    66


                            OVERSIGHT OF THE
                 TRANSPORTATION SECURITY ADMINISTRATION

                              ----------                              


                      WEDNESDAY, NOVEMBER 17, 2010

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:35 a.m. in room 
SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. This hearing will come to order.
    My opening statement. And then, as I explained to the 
distinguished witness, I have to go rescue the healthcare bill 
in the Finance Committee, where it's going to be assaulted on 
all sides. And so, Byron Dorgan will take over, as he should.
    So, my statement: Turn on the TV, pick up the newspaper--in 
the past 48 hours, there have been a steady stream of stories 
about airport screening procedures--on pat-downs, full-body 
scanners, and comments from spouses in all directions.
    I appreciate peoples' concerns. I understand that there's a 
frustration. I realize some of these screening procedures 
appear invasive. Our witness and I had a terrific long session 
at the beginning of this week, and we went into a lot of this.
    The new pat-down procedures embody the enormously difficult 
task--unavoidably difficult task--impossible task--of balancing 
the need to protect the public and the need to maintain their 
privacy. How do you do that on a pat-down? Well, one of my 
first questions for you, Mr. Pistole--who--I think, you're 
doing a--Mr. Pistole, you're doing a great job--concerns these 
procedures and how you came to develop the new security 
regulations. I do recognize the threat that we face.
    I used to chair the Senate Intelligence Committee. I'm 
still a member. I can tell you that the threats are, as we 
indicated the other day in our conversation, extremely real and 
extremely ongoing. And it's evolving every day. And they only 
haven't--something hasn't happened because the intelligence has 
been so good. And that won't always be the case. So, we've had 
a kind of a lucky run, here. But, we can't expect that to last. 
We face a deadly and determined enemy who seeks to do us harm--
enemy from without, enemy from within. It's easy to put 
together a package, stick it in underwear, in shoes, whatever, 
and--you never know. But, the problem is, you always have to 
know. TSA always has to know.
    So, consider the events of this last year. A terrorist 
boarded a plane bound for America on Christmas Day. He carried 
a deadly explosive onboard. Should have gone off, didn't go 
off. Federal agents uncovered a plot to bomb multiple subway 
stations in Washington, D.C. The terrorist's goal: to kill as 
many people as possible. Again, good intelligence gathering 
prevented this from happening. It should have happened. It 
didn't happen. We were lucky. Good intelligence.
    Authorities recently disrupted a plot to blow up planes 
over the U.S. using bombs hidden in cargo. Again, excellent 
intelligence stopped this plot, which should have worked, from 
moving forward.
    But, we cannot be complacent, therefore. Our transportation 
system remains a prime terrorist target, not just air--
transportation, too, all forms. We must continue to bolster our 
defenses against a determined enemy, who will not relent, will 
not go away, and, in fact, will increase. And as terrorist 
methods evolve, therefore so must the TSA's.
    TSA has massive responsibilities and multiple missions. 
They move a half a billion people through the U.S. aviation 
system every year, screen billions of pounds of domestic and 
foreign cargo as best as they can, protect our ports and our 
diverse public transportation systems, all of this with the 
prospect of not enough money to do the job that they would like 
to do. I do not doubt the difficulty of their mandate, but the 
agency must remain, somehow, well-resourced. We're not talking 
theology or ideology here, we're talking about protecting the 
American people. Gets to be a very different deal, sort of like 
FISA. A lot of Democrats didn't like FISA. They said it invaded 
privacy too much. Well, maybe a whole lot of really bad things 
didn't happen because there is FISA. And so, we have to just go 
back and forth on these things.
    The agency must remain well-resourced, as I indicated, and 
they must remain nimble in their response to new and emerging 
threats. We must take appropriate action to close any security 
loopholes, while making sure our global transportation system 
continues to move people, freight, goods, faster and faster, 
and in an effective manner.
    I continue to have concerns about general aviation. We 
discussed that. General aviation has gotten off pretty easy. I 
don't like going out to Dulles Airport and just walking right 
onto an airplane. Not a pat-down. Forget it. They don't even 
look at me.
    So, clearly, the existing system of international cargo 
security needs a fresh look, which I know TSA and DHS have 
started to do.
    We must also incorporate new technology that will make it 
harder for terrorists to exploit our transportation systems.
    It's complicated, is it not, Senator Lautenberg?
    And, as I've already stated, but I think it's important 
enough to say again, the balance between security and privacy, 
it always faces you, haunts you, Director Pistole; it haunts 
you. It's a delicate one. I believe TSA is committed to 
achieving this balance, to the extent that it can. I would urge 
all of us to consider that these procedures are in place to 
protect us from a very real risk. They're not there just for 
the doing of it.
    In the coming weeks, I'll be working with my colleagues in 
Congress to make sure that TSA has the resources it needs to 
address key security concerns. That's going to be tough in this 
atmosphere. But, on this committee we have to sort of gather 
ourselves together to decide this is important.
    I thank you for being here, today, very much. I think 
you're doing a terrific job. You have been at the helm of TSA 
for only several months now, and I know it has been a demanding 
time for you. So, I look forward to hearing your thoughts, 
which I won't, because I won't be here. And I explained that to 
you. So, I apologize for that.
    And so, I will vacate the chair, turn to my Co-Chair, 
Senator Hutchison, and ask Senator Dorgan if he will assume the 
chair.
    Thank you.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Mr. Chairman, thank you. And certainly I 
will look forward to working with you on the reauthorization of 
the Transportation Security Agency.
    Well, Mr. Pistole, the last time you were here, we said 
this is going to be a tough job. I know you're finding out. And 
I agree with so much of what the Chairman said. Your job is 
just enormous. We are looking now at the cargo issue, an area 
in which this committee has been very active in trying to 
assure the security and contents of cargo, which is in so many 
of our passenger planes, as well as cargo planes bringing goods 
into our country. We've been active, but we have not been able 
to address that to our satisfaction. And now, with the 
situation with Yemen, it's very clear that, once again, we 
dodged a bullet, if you will. But, we've got to have 
procedures. And I hope that we are going to be working with the 
foreign countries, where there are gateways into America 
through aviation, to beef up security. And I know that our 
committee is going to be very active in that area.
    Second, we're going to have to have intelligence gathering 
to do that, when we are at risk of so many airplanes coming 
into our airports with cargo--sometimes cargo only, sometimes 
in the passenger planes. We've got to have intelligence 
gathering that should be part of either your cooperation or 
direct control. Of course, you're from the FBI, so you 
understand that need.
    In addition, you've got to be hearing the outcry about the 
invasive uses of pat-downs now in the airports. There has to be 
a way that you can figure out how to do what's necessary--
because we all see people in the airports going through with 
long skirts and lots of cover-up possibilities, and that's what 
you're trying to address, and we understand that--there has got 
to be a way; however, for a privacy concern to be addressed, 
because it's a legitimate concern. And I know that you're aware 
of it, but we've got to see some action. And I know the 
Secretary is aware, as well. I've heard her say that she is 
concerned about the privacy issues. But, I think we've got to 
do more. The outcry is huge.
    And I will just end by saying that--well, I have two more 
things to say. One is, I've also mentioned before that I'm 
concerned about our ports, which are also entries into America, 
and our trains, our surface transportation. We've got to make 
sure that we're doing everything we can before the originality 
of our enemy comes forth, rather than always playing catchup, 
which is what we seem to do. And it's good that we learn from 
the past, that we learn from the mistakes, that we learn from 
the new iterations of the plots. However, we've got to start 
anticipating, through intelligence, what they're up to, before 
it happens.
    The last thing I will mention is that it's my understanding 
that you haven't made any decision about changing the Federal 
law that prohibits screeners from striking. I hope that you--
with all that's on your plate--will not try to change what is 
the law in this country. I think if you did decide to go the 
other way, that there would be an upheaval in Congress, and 
there would be great efforts to prevent it from happening. I 
don't think that's a fight that we want right now, when we 
should be concentrating on all these other issues that both the 
Chairman and I have mentioned.
    So, with that, I'm glad you're here. I appreciate your 
being here. And I think that, in your short time, you are 
getting your hands around this. But, our job is to have 
oversight, and tell you what we think needs to be a priority, 
and hope to work with you on that.
    Thank you very much.

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan [presiding]. Senator Hutchison, thank you 
very much.
    We are going to begin some votes here in the Senate, I 
believe, at 11 o'clock today. We have only one witness: Mr. 
Pistole. And what I would like to do--I want to make a couple 
of comments, then call on colleagues for 2 minutes or so for 
opening statements, if they choose. And then we'll hear the 
testimony from Mr. Pistole.
    Senator Dorgan. I want to just mention that the history of 
all of this goes back to the hijacking and the determination, 
with metal detectors, to keep guns out of airplanes, because 
airplanes were being hijacked, particularly to Cuba, but other 
places, as well. And then we saw the growth of the terrorist 
threat, creating a shoe in the form of a bomb, or arming a shoe 
as a bomb, and then fashioning liquids that could be used as a 
bomb in air, then a bomb disguised as underwear, or an 
underwear carrying a bomb, and now various more sophisticated 
things on the freight system on airplanes. And so, we've 
evolved with a series of threats, trying to respond to the 
threats to make sure that we have safety in the skies.
    I think--I mean, I have a series of questions about the 
freight side and about general aviation, about the work to make 
certain that those who work at airports are properly screened. 
But, I think this--the most recent issue of full-body imaging 
and law-enforcement-style pat-downs with intimate touching, or 
what is described as intimate touching--I think those are very 
legitimate questions. As you know, the law-enforcement-style 
pat-downs were just initiated, nationwide, in October. So, 
we've only--it has only been a month. Not surprising to me that 
there'd be a lot of concern and anger by some, and protests by 
others, about this. And I think it's important for us to have a 
pretty full and complete discussion about, what does this mean? 
I would ask the question--and I will, Mr. Pistole--have you had 
that type of pat-down that many Americans are now protesting? 
And has your staff had that pat-down? And perhaps, have U.S. 
Senators had that pat-down? And what's the impression of all of 
that?
    We must make sure that people don't get on airplanes with 
bombs and blow that plane out of the sky and kill a bunch of 
people. I understand all that. The question is, how do we do 
that in a way that doesn't go to the nth degree to invade 
people's privacy and do things that most people would find 
unacceptable, as they try to get on a plane and get through an 
airport process.
    So, these are important issues, and we appreciate your 
being here to be able to discuss them with you today. Your job 
is a tough one. You and your agency must succeed. We insist 
that you succeed, and want to make sure that we do everything 
we can to help you succeed on behalf of the interests of the 
safety of the American people.
    Let me call on my colleagues for, if it's appropriate for 
them, two minute opening statements, so that we can get to the 
witness as quickly as is possible.
    Senator Lautenberg.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman.
    And, Mr. Pistole, congratulations go to you and your team 
for the good work done with the cargo coming from Yemen. And 
although these packages were addressed to Chicago synagogues, 
investigators now believe the bombs were meant to blow up mid-
flight, over the East Coast.
    But, vulnerabilities in our system remain. And just 65 
percent of cargo on international passenger flights bound for 
the U.S. are screened--well short of the 100-percent-screening 
mandate for cargo on passenger aircraft. Right now, DHS 
receives cargo manifest information from cargo--only aircraft--
just 4 hours before arrival. That means that we may not learn 
about a bomb until it's well within our borders. And Robert 
Bonner, former Administrator of U.S. Customs, has said it makes 
sense to have the cargo information pre-departure, so you 
cannot only deny entry on arrival, but can potentially deny 
access to the airplane. So, while we want to strengthen 
aviation security in the United States--and my colleagues have 
talked about the humiliation that accompanies a pat-down; we've 
got to talk about that at more length--there are clearly areas 
that we can identify.
    So, too often when we think of TSA, we think only of 
aviation security. But, we were reminded, last month, when the 
FBI arrested a man who was plotting to bomb four Metro rail 
stations in Northern Virginia. And one of the most important 
transit facilities is the D.C. Metro system, carrying a million 
passengers a day. And we can't make any mistakes. Passenger and 
rail transit systems are prime targets for terrorists 
throughout the world, as we've seen in London, Madrid, Mumbai, 
and Russia. So, we need to devote more attention, more 
resources to securing our surface transportation networks 
against these threats. The threat's real, and we can't afford 
to be anything less than vigilant about it.
    And, once again, Mr. Pistole, congratulations on a job well 
done so far.
    Thank you.
    Senator Dorgan. Senator Lautenberg, thank you very much.
    Senator Johanns.
    Senator Johanns. Mr. Chairman, I'm going to submit any 
comments I have in writing, so hopefully we can expedite the 
process to get to the witness.
    Thank you for the opportunity.
    Senator Dorgan. Senator Johanns, thank you very much.
    Senator Isakson.

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Thank you, Mr. Chairman. I also won't make 
an opening statement.
    But, through you, I'd like to make a request of Chairman 
Rockefeller and Ranking Member Hutchison. And that is that, 
although this is an open hearing, which is appropriate, I 
think, at some point in time in the near future, we should have 
the Administrator and the Committee, in a classified setting, 
to understand the information that has led up to the changes in 
the procedures at the airports. And I would make that request, 
through you, to the Chairman and Ranking Member.
    Senator Dorgan. That request is noted.
    I might note that this committee has, on a previous 
occasion--it has been some long while now--had a closed hearing 
in which secret material was presented to us about 
transportation security.
    Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thanks very much, Chairman Dorgan.
    I endorse Senator Isakson's idea here. I think it's very 
important. Obviously, there are some things--why some of these 
procedures were implemented--some things that we're not going 
to be able to talk about in public, for security reasons. I 
appreciate that.
    I wanted to, first, again thank you for the role that TSA 
played in securing our Nation. Certainly these recent 
incidences with the bombs being sent to synagogues illustrated 
the importance of this screening. And I'm eager to work with my 
colleagues. I know work is going on right now. I know that 
Secretary Napolitano--and changes have been made in terms of 
countries that can no longer send in this cargo, which I 
appreciate. But, also, I've supported stronger screening in the 
future, and, both with this committee and Judiciary, look 
forward to working on these issues.
    I want to say a few words on passenger screening, at my own 
risk, given the calls that have been coming in to our office on 
these screenings. I appreciate the steps forward that you've 
made. I have been a fan of the Advanced Imaging Technology. 
One, I think it's going to show things that we didn't know 
about before. That's very important, and is a deterrent to some 
of these activities. Second, as someone who has a hip 
replacement, I've been patted down in front of my constituents 
on every single flight I've taken, and I kind of welcome this 
Advanced Imaging Technology, where you don't have to have a 
pat-down. So, I hope in your remarks you will discuss the 
rollout of that Advanced Imaging Technology so that people do 
have a choice in airports. I know they have them in ours now, 
in Minneapolis; if they want to go to the line with the 
advanced imaging technology, they can do that. If they want to 
have this pat-down, which we know we need some education out 
there, with the public, about what it is and what's happening, 
so they're not caught off guard when they're at the airport. 
And then, the fact that they're always offered a private 
screening, I think, is something that also has to be out there, 
because clearly people are going to feel uncomfortable with 
this. But, I think they have to understand that this is being 
done for their best interests and their safety, given some of 
the terrorist activity that we're seeing across the country.
    So, I want to thank you for your work.
    Senator Dorgan. Thank you, Senator Klobuchar.
    Senator McCaskill.

              STATEMENT OF HON. CLAIRE McCASKILL, 
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill. You know, TSA is always in a ``damned if 
you do, damned if you don't'' mode. I certainly appreciate that 
the American public demands safety and security on our 
commercial airplanes. And there is a price we pay for that, and 
that is sometimes an uncomfortable price for the American 
flying public.
    I have gone on, in other committees and in this committee, 
about the ridiculous notion that I couldn't take my mascara on 
an airplane. And I understand that this is obviously much more 
serious to many Americans, in terms of intrusiveness.
    But, I think we can do a better job on public education. 
And, like Amy, I have had my love pats every single flight I 
have taken, which is at least twice a week for the last 4 years 
of my life, because I have a knee replacement. So, I am wildly 
excited about the notion that I can walk through a machine 
instead of getting my dose of love pats.
    So, I think we've got to work on this, make sure that the 
traveling public has choices, make sure they understand the 
risks that we're trying to address. And then I think we can--
the majority of Americans, I think--I hope--will become 
supportive of the measures that TSA is trying to do to keep us 
safe.
    I want to take the remaining time in my opening statement 
to congratulate the Department of Homeland Security. We have a 
tendency, in this process, to focus on the failures of 
government, and there have been some real successes. I think 
the way the H1N1 virus was handled, I think--while many 
Americans were very frightened for a number of weeks, I think 
that a good job was done there. And I think, between Homeland 
Security and our intelligence community, we should all be 
thanking the public servants that protected us from another 
explosion in midair, in terms of the incident at Yemen. And the 
intelligence community is--are the unsung heroes in this 
country. And this Administration has made a huge commitment to 
the intelligence community, and continuing to make sure that we 
have the right kind of intelligence and that we have it at the 
right time. So, congratulations on keeping--continuing to try 
to keep America safe.
    And I'll look forward to listening to your testimony today.
    Thank you, Mr. Chairman.
    Senator Dorgan. Senator McCaskill, thank you very much.
    I know what Senator McCaskill meant, but I'm sure, Mr. 
Pistole, you will want to deny that there is any love-patting 
going on.
    [Laughter.]
    Senator Dorgan. But, I understood the----
    Senator McCaskill. I'm just used to being--having the pat-
down at TSA. I was being silly, but I think everybody 
understood. I hope----
    Senator Dorgan. I understand.
    Senator McCaskill. I hope they understood.
    Senator Dorgan. Mr. Pistole, you are reasonably new to this 
job, and I know you've had to hit the ground running, and this 
committee really appreciates that work.
    So, why don't you proceed. My understanding is, you have a 
slightly longer opening statement, by necessity. And this 
committee understands that. Why don't you proceed. And your 
entire statement will be made a part of the record.

       STATEMENT OF HON. JOHN S. PISTOLE, ADMINISTRATOR, 
             TRANSPORTATION SECURITY ADMINISTRATION

    Mr. Pistole. Thank you, Chairman Dorgan--I appreciate your 
indulgence--and Ranking Member Hutchison, and distinguished 
members of the Committee. It is an honor to be here in my first 
oversight hearing with this committee since being sworn in on 
July 1 as the TSA Administrator.
    As we begin this busy travel season next week, I would like 
to take just a moment to address the traveling public, and all 
those who are focusing on this issue right now, to make sure 
they know that the core mission of TSA, Homeland Security--
really, the U.S. government--is to keep the traveling public 
safe.
    Over the past year, we have seen further attempts by 
terrorists to attack subways, and aviation--both cargo and 
passenger. And as we talk about aviation and being informed by 
the latest intelligence, we know the terrorist intent is still 
there, as we've seen manifested. We know their capabilities, in 
terms of the concealment, and the design of improvised 
explosive devices.
    So, we are using technology and protocols to stay ahead of 
the threat and keep you safe. We're continuing to deploy 
advanced imaging technology at more airports. And I want to be 
clear that AIT is the best available technology today. We're 
always looking at improved technology--and I'll talk a little 
bit about the Automated Target Recognition, if there's an 
interest in that--to try to enable us to detect the next 
generation of nonmetallic explosive devices that terrorists are 
using. AIT is safe for travelers, crew members, and our 
workforce. And that has been validated through a number of 
studies, whether it's by Johns Hopkins or FDA or the National 
Institute of Standards and Technologies.
    We have protections in place to ensure that we respect the 
privacy of travelers. For example, on the pat-downs, those who 
want to have a private screening are allowed to do that. So, 
the use of AIT remains optional for travelers, but the 
requirement for screening--equivalent screening--is not. We 
need to ensure, for everyone, for all the traveling public, 
that when they get on that plane, they have the high confidence 
that everybody else on that flight has been adequately 
screened.
    And, by the way, everybody else on that plane must make 
sure I've been adequately screened or you've been adequately 
screened. So, that is what we come down to in this balance 
between privacy and security. And I'll talk more about that in 
response to questions.
    So, we've adjusted our pat-down policy to simply be using 
techniques that are informed by the latest intelligence, going 
back to Christmas Day, in what we've seen with the cargo plot--
again, the concealment and design of PETN--in ways that 
challenge our social norms and, I would add, from extensive 
covert testing by GAO, by the DHS Inspector General, and by our 
own Office of Inspection in TSA. I would want to go into a 
classified setting to go into details about how they get 
through security and what we need to do to address that. And 
that's what we have done, in some part. And again, we'd ask 
that we'd be able to go, at some point, into a closed setting 
to discuss that in more detail.
    We've also been informed by what other countries' airport 
authorities around the world are doing. All of you have 
traveled to many places and have seen, and perhaps experienced, 
the type of pat-down that may be referred to as ``love pats,'' 
or whatever else. But, the bottom line is that we are 
consistent with many countries--for example, throughout 
Europe--and less invasive than some countries around the world, 
as we know.
    So, we need to have an effective pat-down, coupled with the 
best technology, to resolve anomalies discovered during the 
screening process. We believe that the AIT is the best 
technology today. Those who opt-out of that advanced imaging 
technology need to receive the same type of screening, as I 
said.
    The bottom line is, few people in the overall scheme of 
things, will actually receive those pat-downs. Now, we've heard 
some examples. And obviously, there's a vocal group out there 
who've experienced this for the first time and, rightfully so, 
are raising some concerns such as, ``What's behind this?'' The 
bottom line is, we--the Transportation Security Officers, in 
particular--are trying to work in partnership with the 
traveling public to say, ``We want to ensure that you're safe 
on this flight. Work with us in a partnership to provide the 
best possible security.'' That's what it comes down to.
    One of the things that helps is just people being informed 
as they go through, whether it's to walk through metal 
detectors or advanced imaging technology, to make sure they 
know what the protocols are. With advancing imaging technology, 
you obviously have to take things out of your pockets. You 
``divest,'' as we say. You have to take everything out or it 
will show up as an anomaly. A lot of people don't know that. 
So, that's part of the education process. It's on me and the 
agency to help inform travelers. And we're doing that.
    We've seen some public attempts to dissuade travelers from 
using AIT, and that's understandable. The analogy I use is if 
there are two flights going to the same place at the same time, 
and you have the option of getting on one that you know has 
been thoroughly screened, and you have another flight where 
there's no screening--you can just get on that and go, there 
are no lines or anything, I think everybody will want to opt 
for the screening, with the assurance that that flight is safe 
and secure. I know flight crews obviously prefer that, and I 
know I would prefer that.
    So, the workforce is fully trained in the new technology 
and the new screening procedures, and I expect them to act 
professionally at all times, and treat all passengers with 
dignity and respect. I, similarly, ask all passengers to 
remember that our officers are there to keep you safe, and they 
need your cooperation to do so. Security is a shared 
responsibility. And during the holiday travel season, indeed at 
all times, the cooperation between TSA and traveling public is 
essential.
    I appreciate the kind words about the timely intelligence 
and international cooperation that we--and I use the collective 
``we'' here, the law enforcement and intelligence communities--
used, with aviation authorities, on the recent cargo plot. I 
went to Yemen, 5 days after the plot was discovered, to assess 
what they were doing. We sent a team of TSA security screening 
experts to work with the Yemeni authorities. I met with the 
Deputy Prime Minister and their Minister of Transport to say, 
``What are you doing? How can we work with you? This goes to 
your point, Senator Hutchison. We asked ``What are your current 
protocols, processes? And what can we do, in terms of capacity-
building, in terms of training techniques, tactics, and 
technology?'' So, we've taken specific steps, which I'll be 
glad to get into, in response to questions. I go into 
considerable detail in my written statement on that plot.
    We continue to work with our international partners on a 
number of issues relating to both passenger and cargo flights. 
And again, there is a lot more we can talk about in that 
regard.
    I want to briefly update you all on my review of TSA's 
surface transportation program priorities, because that is a 
significant issue that we are addressing. We continue to work 
with surface transportation providers, particularly passenger 
rail and mass transit, to close vulnerability gaps with a risk-
based intelligence-driven process. We want to target grant 
funds on high-risk critical infrastructure and on operational 
counterterrorism deterrents. TSA has expanded its Visible 
Intermodal Prevention and Response Teams (VIPR), has increased 
the number of surface inspectors, and has begun a successful 
mobile screening program with the New York City Police 
Department in the New York City subways.
    The air cargo plot and the recently disrupted plot against 
the transit system here in D.C. show that our enemies are 
constantly evolving their methods and tools and tactics. At 
TSA, we are reshaping our approach to security so that everyone 
recognizes that we are one part of the continuum of national 
security for the United States.
    To accomplish this, I have interconnected three priorities 
for TSA. One is to have the TSA counterterrorism focus on 
intelligence and cutting-edge technology. The second is 
supporting the TSA workforce. And the third is strengthening 
TSA's partnerships with stakeholders in the traveling public.
    With that, Chairman Dorgan and Ranking Member Hutchison, 
I'd be glad to take questions.
    Thank you.
    [The prepared statement of Mr. Pistole follows:]

      Prepared Statement of Hon. John S. Pistole, Administrator, 
  Transportation Security Administration, U.S. Department of Homeland 
                                Security
    Good afternoon, Chairman Rockefeller, Ranking Member Hutchison, and 
distinguished Members of the Committee. I am honored to appear before 
you and this Committee for the first time since my confirmation as the 
Assistant Secretary of the Department of Homeland Security (DHS) for 
the Transportation Security Administration (TSA).
    I appreciate the vote of confidence you gave me in June when you 
reported my nomination favorably from the Committee. I look forward to 
our dialogue today and your thoughts about how we can improve 
transportation security.
    Before sharing with you my priorities for leading TSA through the 
next stage of its development as it matures into a truly high-
performance, world-class organization, I want to update you on our 
efforts to address recent, serious threats to transportation, to our 
fellow citizens, and to our economy.
Air Cargo Packages from Yemen
    Almost 3 weeks ago, the global counterterrorism community disrupted 
a potential attack when individuals in Yemen with ties to al Qaida in 
the Arabian Peninsula attempted to conceal and ship explosive devices 
in cargo on board aircraft that traveled through several foreign 
nations, and ultimately was bound for the United States.
    This episode began on the evening of October 28 with a call I 
received from John Brennan, the President's top counterterrorism 
advisor, informing me of a credible terrorist threat. Later that 
evening, President Obama directed U.S. intelligence and law enforcement 
agencies, including the Department of Homeland Security, to take steps 
to ensure the safety and security of the American people, and to 
determine whether these threats were part of any additional terrorist 
plots.
    We worked through the night, the next day, and the following 
weekend, staying in close contact both with our colleagues within the 
U.S. government and with our international partners and key allies. TSA 
and U.S. Customs and Border Protection (CBP) immediately took 
additional measures to enhance existing protocols for screening inbound 
cargo, including temporarily grounding all packages originating from 
Yemen destined for the United States. With constant communication and 
sharing of information, we were able to disrupt this plot before it did 
any harm.
    After the initial response, we took a number of additional steps. 
In the days immediately following the attempted plot, at the direction 
of President Obama and Secretary Janet Napolitano, we deployed a team 
of security inspectors to Yemen to provide assistance and guidance to 
the Government of Yemen with their cargo screening procedures. I 
leveraged a previously planned trip to speak to the Aviation Security 
(AVSEC) World Conference in Germany to interact directly with my 
counterparts from Europe and elsewhere, as well as International Air 
Transport Association (IATA) Director General Giovanni Bisignani and 
Jim Marriott of the International Civil Aviation Organization, about 
the common transportation security threats we all face, and the common 
and cooperative actions we could take to address security 
vulnerabilities.
    To get a firsthand view of the challenges we face, from Germany I 
flew to Yemen to receive briefings from, and express my gratitude to, 
the TSA inspectors we deployed there. I also met with Yemen Deputy 
Prime Minister Rashad al-Alimi, and government officials from Yemen's 
Directorate General of Civil Aviation and Ministry of Interior to 
discuss the threat with them. In addition, I spoke with our new U.S. 
Ambassador to Yemen, Gerald M. Feierstein, a seasoned specialist in 
Near East and South Asian Affairs who has served overseas in eight 
postings, and as a senior official in the State Department's Office of 
the Coordinator for Counterterrorism. These on-the-ground meetings with 
TSA staff and key government officials provide crucial context as we 
work to understand how to best address possible vulnerabilities within 
the transportation system.
    Our collective actions to address cargo security continued as 
Secretary Napolitano spoke on November 2 with leaders of the 
international shipping industry, including UPS, DHL, FedEx, and TNT, 
about enhancing air cargo security. During the call, Secretary 
Napolitano underscored her commitment to partnering with the shipping 
industry to strengthen cargo security through enhanced screening and 
preventative measures, including terrorism awareness training for 
shipping industry personnel.
    Following her call with shipping industry leaders, Secretary 
Napolitano spoke with IATA Director General Bisignani about the 
Department's continued collaboration with our private sector partners 
and international allies to secure the global supply chain through a 
layered security approach that is designed to identify, deter, and 
disrupt threats. The Secretary also reiterated her commitment to 
ongoing coordination with the airline and shipping industries to uphold 
TSA security standards, including the vetting of personnel with access 
to cargo, employee training, and cargo screening procedures.
    Security of the air cargo supply chain is critical, and we are 
developing security enhancements in close coordination with industry 
because we understand the value of air cargo to our country's economy. 
Together, FedEx, UPS, DHL, and TNT employ more than one million 
employees around the world, and own or operate more than 1,700 
aircraft. Each of these companies has operations in more than 200 
countries. In 2008, air merchandise trade comprised almost 30 percent 
of U.S. exports by value, totaling almost $390 billion, and almost 20 
percent of U.S. imports by value, totaling over $417 billion. Combined, 
that represents more than $800 billion of U.S.-international 
merchandise trade.
    As we continue to address the threat to air cargo, we are analyzing 
information and gathering intelligence on the packages intercepted from 
Yemen, and we have issued additional directives to the airline industry 
on the non-acceptance, or extra screening, of high-risk packages on 
passenger and cargo flights. Specifically, on November 8, Secretary 
Napolitano announced that:

  <bullet> the ban on air cargo from Yemen will continue and has been 
        extended to all air cargo from Somalia;

  <bullet> no high-risk cargo will be allowed on passenger aircraft;

  <bullet> toner and ink cartridges weighing 16 ounces or more will be 
        prohibited on passenger aircraft in both carry-on bags and 
        checked bags on domestic and international passenger flights 
        inbound to the United States, as well as certain inbound 
        international air cargo shipments; and

  <bullet> all cargo identified as high risk will go through additional 
        and enhanced screening, including inbound international mail 
        packages, which must be screened individually and certified to 
        have come from an established postal shipper.

    With our colleagues at CBP, we are working collaboratively with 
industry and our international partners to expedite the receipt of 
cargo manifests for international flights to the United States prior to 
departure in order to more effectively identify and pre-screen items 
based on risk and current intelligence. We are also working with our 
international and private sector partners on the expansion of layered 
detection systems, including technology and other measures, to find 
ways to strengthen security that also maintain the critical flows of 
global commerce that are so important to our economic recovery. We will 
keep you informed of our progress.
Threats to Mass Transit
    Another recent case highlights the importance of mass transit 
security. On October 27, the Federal Bureau of Investigation (FBI) 
arrested a Pakistan-born naturalized U.S. citizen for attempting to 
assist others whom he believed to be members of al Qaida in planning 
multiple bombings at Metrorail stations in the Washington, D.C., area. 
During a sting operation, Farooque Ahmed allegedly conducted 
surveillance of the Arlington National Cemetery, Courthouse, and 
Pentagon City Metro stations, indicated that he would travel overseas 
for jihad, and agreed to donate $10,000 to terrorist causes. A Federal 
grand jury in Alexandria, Virginia, returned a three-count indictment 
against Ahmed, charging him with attempting to provide material support 
to a designated terrorist organization, collecting information to 
assist in planning a terrorist attack on a transit facility, and 
attempting to provide material support to help carry out multiple 
bombings to cause mass casualties at D.C.-area Metrorail stations.
    While the public was never in danger, Ahmed's intentions provide a 
reminder of the terrorist attacks on other mass transit systems: Madrid 
in March 2004, London in July 2005, and Moscow earlier this year. Our 
ability to protect mass transit and other surface transportation venues 
from evolving threats of terrorism requires us to explore ways to 
improve the partnerships between TSA and state, local, tribal, and 
territorial law enforcement, and other mass transit stakeholders. These 
partnerships include measures such as Visible Intermodal Prevention and 
Response (VIPR) teams we have put in place with the support of the 
Congress. As Secretary Napolitano stated in her speech at the 
International Association of Chiefs of Police Annual Conference just 2 
days before Ahmed's arrest, ``Today's threats put state, local, tribal 
and territorial law enforcement around the country on the front lines 
of our counterterrorism effort in unprecedented ways.'' We are 
expanding our outreach and coordination with these frontline law 
enforcement entities to better protect vital transportation assets.
Priorities for TSA
    In addition to dealing with these recent serious threats, I have 
been very busy in my new position. I came to TSA after more than 26 
years at the FBI--a time that included playing a role in the United 
States' investigation and response to the terrorist attacks on 
September 11, 2001. That experience has informed my priorities as TSA 
Administrator.
    Our enemies are observant, patient, stealthy, and ruthless. They 
constantly evolve their methods and tools--and it is our job to stay 
ahead of them. My job is to lead TSA through the next stage in its 
development as this young agency matures into a high-performance, 
world-class organization. To defeat our enemies, we have to do our job 
better and smarter, and reshape our security approach so everyone 
recognizes what it is: one part of a continuum that comprises the 
national security mission of the United States.
    To make that happen, I have three basic priorities at TSA. I want 
to:

  <bullet> improve TSA's counterterrorism focus through intelligence 
        and cutting-edge technology;

  <bullet> support the TSA work force; and

  <bullet> strengthen TSA's relationships with stakeholders and the 
        traveling public.

    All of these priorities are interconnected and are vital to TSA's 
mission.
    Improving TSA's Counterterrorism Focus Through Intelligence and 
Cutting-Edge Technology. A key lesson I took from 9/11 and from my 
years at the FBI is that one of the best tools we possess in our effort 
to combat terrorism is accurate and timely intelligence. It is with 
this in mind that I begin my day at TSA with an intelligence briefing 
with my senior staff--we are constantly honing our counterterrorism 
focus by working with DHS and our Federal partners to better 
operationalize this intelligence. The importance of accurate and timely 
intelligence has consistently been validated in my tenure at TSA to 
date.
    For example, through better watchlisting capabilities and the 
implementation of our Secure Flight program, we continue to improve our 
efforts to prevent known or suspected terrorists from boarding flights. 
Under Secure Flight, TSA uses name, date of birth, and gender to vet 
airline passengers against terrorist watch lists up to 72 hours before 
those passengers are permitted to board planes. Passengers who are 
potential watch list matches are immediately identified for appropriate 
notifications and coordination.
    Secure Flight vets 100 percent of passengers flying on U.S. 
airlines domestically and internationally, as well as passengers on 
many foreign airlines, and we are working hard toward fully 
implementing the program for remaining covered foreign air carriers by 
the end of 2010. Secure Flight currently vets over 99 percent of all 
airline passenger travel to, from, and within the U.S. I particularly 
would like to thank this committee for the strong support that you have 
provided to TSA and Secure Flight to enable us to reach this stage.
    Even the best intelligence, however, does not always identify in 
advance every individual who would seek to do us harm. So we also rely 
on the security expertise of our frontline personnel--Transportation 
Security Officers (TSOs), Federal Air Marshals, explosive specialists, 
and Behavior Detection Officers, among others--to help prevent 
terrorists from harming Americans.
    That reliance means that valuable intelligence must be distributed 
widely and rapidly to the field. One way we are improving this process 
is through the extension of secret-level security clearances to a 
greater number of TSA employees. This change significantly enhances 
TSA's ability to leverage the best intelligence and elevate our 
security practices across the board.
    In addition to the improved use of intelligence, effective 
technology also is an essential component of our arsenal to detect and 
deter threats against our nation's transportation systems. TSA is 
deploying a range of next generation equipment--bottled liquid 
scanners, Advanced Technology X-Ray systems, and Explosive Trace 
Detection (ETD) units--to enhance our efforts.
    On December 25, 2009, Northwest Airlines Flight 253 passenger Umar 
Farouk Abdulmutallab tried and failed to detonate concealed explosives. 
This event illustrates the fact that despite decades of advances in 
screening and significant reforms following 9/11, our global security 
network still faces an ever-evolving threat. Currently, the most 
effective technology for detecting small threat items concealed on 
passengers, such as explosives used by Abdulmutallab, is Advanced 
Imaging Technology (AIT). AIT safely and effectively screens passengers 
for both metallic and non-metallic threats, including weapons and 
explosives, without physical contact. As of today, TSA has deployed 385 
AIT machines to 68 airports nationwide, and our goal is to have nearly 
1,000 AIT machines deployed by the end of calendar year 2011.
    While we are rapidly deploying AIT machines, we also are exploring 
enhancements to it, such as Automated Target Recognition (ATR), or 
auto-detection software. This capability would make screening more 
efficient and would eliminate most privacy concerns about the 
technology. Ongoing ATR testing is designed to ensure effective 
detection with minimal false alarms.
    While AIT has an important role in the future of aviation security, 
it is just one of the technologies we are exploring. For example, we 
also are working on long-term, technology-based solutions for screening 
liquids, aerosols, and gels that will distinguish between materials 
that present a threat and those that do not. In addition, we currently 
have dozens of qualified technologies for use in air cargo screening 
and are working with DHS and our industry partners to develop new 
technologies.
    New technology provides only part of the picture for the future of 
checkpoint screening. It is important that we continue to discuss what 
the future holds, but the outlines are clear: new technologies must be 
developed that can be assimilated into an airport environment and 
rapidly identify and respond to emerging threats. The DHS Science and 
Technology Directorate, TSA, the Department of Energy, and the National 
Laboratories are working closely together to accelerate our ability to 
move to that future checkpoint.
    New technology platforms should be capable of being upgraded with 
additional functionality as they are developed, including functionality 
developed by those who did not manufacture the original equipment. We 
seek screening equipment solutions that provide both better performance 
and a better screening experience for the public. The bottom line is 
that future screening solutions must focus on providing the best 
possible security for travelers in a targeted, intelligence-driven way 
that provides greater scrutiny to those who need greater scrutiny, and 
not using the same approach for everybody.
    Supporting the TSA Workforce. An intelligence-driven agency using 
sophisticated technological tools to root out terrorists and deter 
potential attacks will not succeed without a professional, highly 
trained, fully engaged, and respected work force. As I stated above, 
the men and women of TSA are on the front line in detecting and 
defeating the terrorist threat. Since becoming the Administrator for 
TSA, I have logged thousands of miles to meet with them. I have been 
impressed by their professionalism, work ethic, and enthusiasm. I have 
listened carefully to their suggestions on improving operations and 
opportunities, and have learned from their insights. I also have 
challenged them to hold themselves to the highest standards of hard 
work, professionalism, and integrity that already are intrinsic parts 
of TSA's fabric.
    I also am working to hone the workforce development strategy and to 
develop an environment of continuous learning for TSA employees that 
will help them meet both individual and organizational goals. As we 
continue to implement new technology to meet emerging threats, TSA 
routinely evaluates, updates, and upgrades its technical training 
curriculum. Over the next few months, technical training priorities 
include an update to procedures at the passenger screening checkpoint 
and support for the deployment of new technologies such as Advanced 
Imaging Technology. Over the next few years, our technical training 
portfolio will expand and enhance individual and team performance 
through the introduction of an assortment of skills and knowledge 
building courses, delivered using a variety of techniques.
    We are also working on improving the training for the 
Transportation Security Inspector (TSI) work force. Along with revision 
of the TSI Basic Course on multi-modal training, we are developing and 
delivering additional courses targeted to specific transportation 
modes. TSA also recently expanded the Surface Transportation Training 
Center located in Pueblo, Colorado, which I visited in July. This is an 
impressive facility that is significantly improving the training we are 
able to provide.
    Through these efforts, we are finding opportunities to integrate 
elements that not only enhance technical skills, but also contribute to 
the professional development of the TSA workforce.
    In addition, we are engaged in efforts to address and resolve 
workplace issues. The Ombudsman at TSA is one of many avenues through 
which TSA employees may raise workplace issues and concerns to see them 
resolved. As I travel around the country meeting with employees, I have 
invited employees to raise issues and concerns to me directly, and I 
have learned that many employees also place great value in established 
communications channels, such as the National Advisory Council, the 
Idea Factory, and local Employee Advisory Councils. Nevertheless, I 
also know from my experience at the FBI that an effective Ombudsman 
program is a valuable resource for unfiltered, candid feedback on the 
state of the workplace environment, and I am committed to its advisory 
role to me and the rest of the TSA leadership team.
    Strengthening TSA's Relationships with Stakeholders and the 
Traveling Public. Supporting and improving our commitment to our 
workforce will help TSA function better internally. But as an 
organization with millions of interactions with the public every day, 
we also need to deepen and broaden our relationships with our 
government colleagues both here and abroad, with transportation and 
related stakeholders, and with the traveling public.
    This already has been a landmark year for improving security 
through collaboration. We are working to take it to the next level.
    Following the attempted December 25 terrorist attack, at the 
President's direction and led by Secretary Napolitano, the United 
States engaged governments around the world at five regional summits on 
five continents, in a renewed effort to strengthen international 
aviation security. The International Air Transport Association and the 
Airports Council International engaged the world's aviation industry to 
complement this significant effort. This impressive showing of global 
cooperation reminded us that aviation security is a shared 
responsibility. We all face a similar threat environment that evolves 
as quickly as we can develop mitigation measures. To improve security, 
we have to continue to work together. It is through information 
sharing, development of best practices, and continual evaluation of 
risk that we will, together, as one community, continue to mitigate the 
threat.
    In working to thwart the air cargo plot, our excellent 
relationships with our overseas counterparts were crucial. In early 
October, before the cargo plot emerged, Secretary Napolitano and I 
attended the International Civil Aviation Organization (ICAO) Assembly 
in Montreal with our partners from the Department of Transportation and 
the Federal Aviation Administration. At that meeting we built on our 
excellent working relationships with our colleagues from other 
countries and discussed our joint efforts to strengthen the global 
aviation system. For me, it was the first opportunity to meet many of 
these foreign leaders, and these contacts already have proven to be 
invaluable. After the cargo plot emerged, I worked with these foreign 
colleagues quickly and efficiently, and saw a number of them when I was 
at the AVSEC conference in Germany.
    In the spirit of our commitment to engage the international 
community, last week the United States hosted an ``Advanced Imaging 
Technology Policy Summit'' to continue the discussions around AIT. 
Approximately 30 countries attended and discussed a wide range of 
policy questions, including deployment strategy, safety, privacy, legal 
issues, and checkpoint configuration.
    The cargo plot also illustrates our need to strengthen the 
relationships we have with our private sector partners and 
stakeholders; we cannot do effective security without their proactive 
partnership and collaboration. Our collaboration with the world's major 
air cargo companies has been outstanding, and we are continuing to 
build that relationship and those with other private sector partners.
    Our nation's security also is a shared responsibility with our 
neighbors and our colleagues in U.S. government agencies. So we are 
encouraging our citizens, our communities, and our transportation 
security and law enforcement partners across the United States to 
remain vigilant and continue to build a national culture of 
preparedness and resiliency. As you know, Secretary Napolitano has 
launched an expanding ``If You See Something, Say Something'' public 
awareness campaign. This simple and effective program was started by 
the New York Metropolitan Transportation Authority to raise public 
awareness of indicators of terrorism, crime, and other threats and to 
emphasize the importance of reporting suspicious activity to the proper 
transportation and law enforcement authorities. I have joined Secretary 
Napolitano in three separate events to partner with transportation 
sectors in the ``If You See Something, Say Something'' campaign--we met 
with Amtrak during a multi-stop train tour through New York City, 
Newark, NJ; Philadelphia, and Washington in early July, and with the 
general aviation community at Oshkosh in late July. Earlier this week, 
Secretary Napolitano and I launched the campaign at airports in the 
National Capital Region.
Conclusion
    Thank you for the opportunity to appear before the Committee today 
to speak with you about recent threats and TSA's ongoing efforts to 
ensure the safety and security of the transportation domain. I look 
forward to your questions.

    Senator Dorgan. Mr. Pistole, thank you very much for your 
testimony and your description of what your agency is doing.
    I'd like to ask just a couple of questions. One is the 
issue of background screening for workers who work in and 
around the airport. All of us who travel see a lot of people 
that are serving in different ways on the airport grounds, and 
I know that they are screened for background screening. There's 
a current process for that screening, as I understand it, which 
involves, in large part, the private sector, and you are 
preparing to begin to change that. I don't--maybe you could 
describe to us what that change might be, how you're 
proceeding, and why it is necessary.
    My understanding is--the information I've received is that 
the aviation workers pay about a third of the cost of port 
workers that are screened by the federal government, whereas 
aviation workers are screened with a private-sector system that 
is working. So, tell me what you're doing here.
    Mr. Pistole. Sir, there are several issues here, Senator, 
and you've hit on two key issues. How do we harmonize, within 
the U.S. government, background checks that are done for 
workers at critical sensitive areas, whether it's ports, 
whether it's airports, whatever it may be that exposes people 
to risk? In the aviation sector, obviously we do thorough 
background checks on anybody who has access to the sterile area 
at an airport. At cargoes and ports, there are different 
processes and protocols and payments. It's something that I'm 
working closely with Commissioner Alan Bersin at CBP, because 
we have the most overlap--and then with the U.S. Coast Guard, 
in terms of, ``How do we harmonize this? How do we provide, 
basically, one-stop shopping?'' So, we're not there yet, but I 
would hope to be able to report back, after the first of the 
year, some good progress in that area.
    Senator Dorgan. Yes, I mean, I'm--the reason I ask the 
question is, if it is accurate, as I've been told, that the 
aviation side costs one-third of what the port side costs, if 
you harmonize in circumstances where you get to what we're 
doing with the port side, and move from the private sector to 
the public sector and triple the costs, that probably is not 
the right approach. And I would like to get from you an 
analysis, if you would, of the efficiency and effectiveness of 
the aviation side at this point. My understanding is, that has 
worked fairly well.
    Mr. Pistole. Right.
    Senator Dorgan. Let me ask about the pat-down checks. And 
you, I think, have properly acknowledged there's reason from 
people to be concerned and express their--that concern 
publicly. You explained precisely why it is necessary for us to 
have advanced screening and imaging technology, and so on.
    First of all--and I don't mean this in a humorous way--but, 
have you been subject to the law enforcement-style advanced 
pat-down that was implemented nationally in October?
    Mr. Pistole. Absolutely, Mr. Chairman. I insisted that I 
receive that pat-down before I ordered that it be deployed 
nationwide. Also, Secretary Napolitano, Deputy Secretary Lute, 
other senior members of Homeland Security, received that pat-
down to not just see, but experience what that involves, so we 
would know before we rolled that out.
    Senator Dorgan. And your impression?
    Mr. Pistole. That it is thorough.
    Senator Dorgan. I understand that. But, your impression, 
beyond the fact that it was thorough.
    Mr. Pistole. Well, the whole purpose is----
    Senator Dorgan. Was it--did it make you uncomfortable? I 
mean, what was your----
    Mr. Pistole. Yes.
    Senator Dorgan.--impression, as a person?
    Mr. Pistole. It was more invasive than what I was used to. 
Of course what is in my mind, from almost 27 years at the FBI 
and all the counterterrorism work since 9/11, is, ``What are 
the plots out there? How are we informed by the latest 
intelligence and the latest technology? And what do we need to 
do to assure the American people that, as they travel, we are 
being thorough.'' So, yes, it is clearly more invasive. The 
purpose of that is to, obviously, detect those type of devices 
that we had not seen before, for example, last Christmas. I am 
very sensitive to and concerned about people's privacy 
concerns, and I want to work through that, as best we can. The 
bottom line is, we need to provide for the best possible 
security.
    Senator Dorgan. My understanding is that the October change 
went from using the back of a hand--gliding across a person--to 
a different approach. You might describe that, number one. 
And--well, go ahead and describe that, if you would.
    Mr. Pistole. Well, the back of the hand is still used in 
some aspects. I would prefer not to go into specific detail in 
an open hearing.
    Senator Dorgan. All right.
    Mr. Pistole. I don't want to give a roadmap to anybody to 
say, ``OK, here's exactly what the technique is.'' And so, 
``How can we defeat that?'' We've just seen the ingenuity, the 
creativity of al Qaeda of the Arabian Peninsula, particularly, 
with these last three attempts. I'd be glad to go into detail.
    Senator Dorgan. OK.
    Mr. Pistole. And obviously, any member who has not 
experienced that pat-down, but would like to do that--I would 
not offer but an experienced, qualified security officer would 
be glad to do that.
    Senator Dorgan. All right.
    And then the issue of full-body imaging. Most of us have 
seen--whether it's Newsweek magazine or Time magazine or on the 
Internet--the full-body imaging is very explicit. Would--you 
would agree with that, I assume. And then the question is, what 
kind of protection have you developed so that someone who has 
had a reasonably explicit photograph taken of them through this 
full-body imaging--that it's not going to be moved around, and 
that there's going to be a privacy relationship they can count 
on?
    Mr. Pistole. We've implemented a number of privacy 
protocols to ensure that those types of things you describe do 
not happen. For one, the security officer who is viewing the 
image--again, it's not a photograph, it's an image, with the 
face blurred. What I've seen, by the way, on some of the news 
reports, is not accurate. Some of these very graphic displays 
are not what the security officer is seeing. So, I'm not sure 
where those are coming from.
    Senator Dorgan. They have photoshopped them a little, have 
they?
    Mr. Pistole. I'm not sure where they're getting those.
    Senator Dorgan. All right.
    Mr. Pistole. There's a little bit of more detail--quite a 
bit more, actually--on some of those I've seen.
    Senator Dorgan. All right.
    Mr. Pistole. So, the officer who sees the image never sees 
the person. The officer who sees the person never sees the 
image. And the machines are specifically disabled. The 
functions are disabled, in terms of any retention, storage, or 
ability to transmit those images. Of course, cell phones, 
cameras, or anything like that, are not allowed in that 
screening room. So, we believe we've implemented adequate 
privacy protections, if you will.
    That being said, I'm also very interested in the next 
generation of advanced imaging technology, which is the 
automated target recognition, which basically has a stick 
figure, or a blob, if you will. These are two options--where, 
through automated target algorithms, an anomaly, wherever that 
might be on the body, would show up as a box, at the armpit, 
groin, whatever it may be. Then the pat-down would just focus 
on that area. So, that is the next generation. The only concern 
I have is that there is currently a high rate of false 
positives with that technology so we're working through that. 
But, we are currently testing that today. We have been for 
several months. It's in use in Schiphol Airport in Amsterdam. 
But, a high rate of false positive results in more pat-downs. 
So, we're trying to stay away from that.
    Senator Dorgan. Mr. Pistole, I will send you some 
additional questions.
    Thank you very much for your responses----
    Mr. Pistole. Thank you, Mr. Chairman.
    Senator Dorgan.--and for being here.
    Senator Hutchison.
    Senator Hutchison. Thank you very much, Mr. Chairman.
    I think I'm, first of all, going to say to Senator Isakson 
that I think we should have a classified hearing. So, we will 
work on scheduling that.
    Senator Isakson. I would welcome that. Thank you.
    Senator Hutchison. Certainly, we'll talk to Senator 
Rockefeller. I believe he will agree.
    I want to talk, now, on cargo. I'd like to ask you, first, 
is it feasible for all cargo operations--a cargo plane that 
does not have passengers--to be screened in the same--with the 
same specificity as our passenger processes? And, second, do we 
have practical solutions? And what I'm getting at is, there are 
now imaging machines that are used on the border for trucks for 
crossing the border. Are those technologically feasible to be 
used for air cargo? And is it, also, an affordable option that 
would be a common sense option?
    Mr. Pistole. So, in response to your first question, it is 
not practical, at this point, to screen 100 percent of air 
cargo worldwide, if that's the question. We do screen, of 
course, 100 percent of all air cargo on passenger flights in 
the U.S., as of August, based on the 9/11 Act. And we screen 
what we describe as 100 percent of high-risk cargo coming into 
the U.S. on passenger flights.
    That being said, there is still a lot of cargo out there. 
There's almost 9 billion pounds of cargo that come into the 
U.S. every year, about two-thirds on cargo flights, the other 
one-third on passenger flights. The challenge becomes, those 
packages not coming from known shippers, the large companies 
that either government and/or the actual cargo companies have 
relationships with. For example, take the two packages coming 
out of Yemen. An individual goes to a freight forwarder that 
then sends it to Dubai. That's where the U.S. cargo carrier 
picks it up. The challenge is, in that supply chain, whether he 
can assure, with 100-percent confidence, that packages have 
been properly screened. And, frankly, we can't do that right 
now. So, what we're doing is working with the International 
Civil Aviation Organization, ICAO, which just passed a security 
declaration last month in Montreal, at their triennial meeting. 
I was there, as well as Secretary Napolitano, and 190 countries 
signed off on this security declaration, mostly focused on 
passengers, but also some on cargo.
    We're also working with the International Air Transport 
Authority, IATA, which deals with over 230 airlines around the 
world. Everybody--all the businesses--have the same interest to 
make sure that their flights are safe and secure. It's, ``How 
do we best accomplish that?''
    And so, ICAO and IATA are actually working on capacity 
development issues with some of these countries that perhaps 
don't have the same screening capabilities that we have in the 
U.S. That's part of our challenge.
    Senator Hutchison. And are you working on more of your 
personnel being stationed in areas where there would be a 
priority?
    Mr. Pistole. Yes, we are, Senator. We have over 100 TSA 
employees who are forward-deployed around the world, to act as 
inspectors, if you will, to work with host governments and 
aviation authorities for that very purpose.
    Also, on the second part of your first question, we do have 
small, medium, and large aperture X-ray and advanced technology 
X-ray to look at cargo. It is just more of a challenge than it 
is with passengers. The larger the palette or the skids, and 
the more compact, the more difficult it is to discern. Now, we 
also, at least in the U.S., use explosive-trace technology 
detection equipment, perhaps K-9s, but that is not a consistent 
standard around the world.
    Senator Hutchison. Let me just talk a little bit about the 
collective bargaining issue. And when I was talking about 
strikes, the reality is, if you have collective bargaining, it 
may not be the open strike, but it is the slowdown, the sick-
outs--that sort of thing, which is a virtual strike. And my 
question is, where are you in this process? Is it something 
that you're looking at seriously, or have you decided that 
other priorities are more important?
    Mr. Pistole. Well, obviously, one of the priorities that 
for the confirmation process was to deal with the issue, as I 
was asked to do an independent assessment of whether collective 
bargaining made sense for the TSA workforce. My one caveat that 
I laid out at that hearing, as you recall, and what I've stuck 
to, is, whatever the issues are, there cannot be adverse impact 
on security. So, I conducted an internal assessment. I've done 
a review. And I am close to announcing a decision on that. I 
will say that has been complicated a little bit by a decision, 
last Friday by the FLRA, which ordered TSA to hold an election 
for exclusive union representation, but not collective 
bargaining.
    It's somewhat of a confusing opinion, frankly. So, our 
experts are going back and working with other human capital 
experts and the FLRA, --their counsel to say, ``OK, so what 
does that mean? How can we inform the work force?'' But, I 
would say, I'm hoping, within the next 30 days, to make an 
announcement about where I believe we should be going in that 
regard.
    Senator Hutchison. So, the Federal Labor Relations Board is 
ordering TSA to have an election for----
    Mr. Pistole. The decision basically says that we should 
have an election for exclusive representation with one 
bargaining unit, one union, but not for purposes of collective 
bargaining, just for purposes of representation. Again, 
frankly, that doesn't make a whole lot of sense. So, we're 
working through that, and I'm confident that we have a good way 
forward.
    Senator Hutchison. I'm glad you think it doesn't make a lot 
of sense.
    Thank you very much.
    Senator Dorgan. Senator Hutchison, thank you very much.
    Senator Lautenberg?
    Senator Lautenberg. Yes. Thanks, Mr. Chairman.
    Mr. Pistole, the Department of Homeland Security requires 
manifest information to be provided 24 hours prior to loading 
for all maritime cargo that's entering our ports. But, the 
cargo entering our country by air--the manifests only have to 
be provided 4 hours prior to arrival of the material to the 
airport. That could be too late to stop something happening 
before it enters our airspace. Is--would it be feasible to ask 
that a longer amount--a longer time be allowed to--before the 
cargo gets aboard an airplane?
    And this is challenging and--look, the primary thing that 
we're concerned about, obviously, is the security. But, what 
might it do to the efficiency of commerce around the world if 
we say, ``OK, you want--you're going by air because you want a 
quick arrival.''
    Mr. Pistole. Right.
    Senator Lautenberg. On the other hand, what happens if we 
said, ``Well, OK, give us 24-hour notice of anything?'' Have we 
looked at that part of the question?
    Mr. Pistole. Yes, Senator Lautenberg, we have. We've worked 
very closely, particularly with CBP and Commissioner Bersin, 
and we've had a number of discussions on ``How can we work with 
industry to get more advance notification without unduly 
affecting the bottom line for the cargo carriers?'' The cargo 
carriers have been very open and receptive to looking for 
opportunities. But, the bottom line is, the more advance 
notification that goes to CBP--TSA doesn't actually get that; 
it goes to CBP--the better informed we can be, and the key is, 
``What action do we take?'' So, if there's a high-risk package 
that has been identified coming from--you name the place in the 
world--what action can we take with that additional 
information? Let's say it's 8 hours. Let's say it's 24 hours. 
Can CBP and TSA then communicate with that freight forwarder to 
say, ``OK, we're concerned about that package. Don't put it on 
the plane?'' That's the key.
    Senator Lautenberg. As we saw in the recent cargo bombing 
threat, information-sharing--key to foiling this plot--but, 
both the GAO and the National Security Council recently 
released reports finding that TSA needs to improve and expand 
its communication with passenger rail and mass transit 
agencies. What actions has TSA taken to meet the 
recommendations of GAO and the National Security Agency?
    Mr. Pistole. There are a number of issues that we are 
addressing in the whole surface transportation arena, Senator. 
As you so well articulated, we've seen threats from Madrid and 
Mumbai and London and Moscow, and in the attempt last year by 
Najibullah Zazi, in New York City, and in the one, just last 
month, that my colleagues at the Joint Terrorism Task Force so 
well disrupted here in D.C. The key is, ``How do we best engage 
State and locals, who have that first response and first 
prevention responsibility?'' And it's in three ways. One is 
through the grants that we can allocate. One is through 
training. And that means training for, for example, additional 
VIPER teams and K-9s and things like that, or there is the 
actual hiring of officers, as we did, in terms of a grant to 
New York City last year, where they hired 120-plus officers--
the only officers they were able to hire last year--
specifically for New York City's subway, with over 450 subway 
stops.
    Senator Lautenberg. Yes.
    Mr. Pistole. So, those are the type of things we're doing.
    Senator Lautenberg. Well, the Department recently completed 
an assessment of the nation's passenger rail and mass-transit 
system and found a significant security risk. And yet, surface 
transportation security has traditionally made up a very small 
percentage of TSA's overall budget. Agencies are currently 
reviewing their budget needs for the Fiscal Year 2012 budget. 
Will the budget request for TSA reflect a--more sensitivity to 
the need for rail and transit security?
    Mr. Pistole. Absolutely.
    Senator Lautenberg. I hope so. Because when we look at the 
number of people that are traveling by rail and see what--how 
inviting a target it was in other places in the world, that we 
can't continue to neglect--``neglect'' is a strong word--to not 
focus more attention on the security in these transit systems.
    Mr. Pistole. I agree, Senator. And my only other comment on 
that is, of course, the TSA budget, in terms of surface, does 
not reflect the large multiples of that in transportation 
security grant money. There is actually more that shows up 
because it goes through FEMA, but doesn't show up in the TSA 
budget. But, you're absolutely right.
    Senator Lautenberg. Thank you.
    Senator Dorgan. Senator Johanns.

                STATEMENT OF HON. MIKE JOHANNS, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Johanns. Thank you, Mr. Chairman.
    Mr. Director, under what circumstances would a passenger be 
subjected to both advanced imaging and then the law-
enforcement-style pat-down?
    Mr. Pistole. The advanced imaging technology is an option; 
people can opt out of that. Just for context, we actually 
deployed the first AIT in the fall of 2007.
    Senator Johanns. Yes, but----
    Mr. Pistole. This is not something that just happened 
overnight, but there's just a lot of public interest in it now.
    Senator Johanns. Let me clarify my question.
    Mr. Pistole. Yes.
    Senator Johanns. I'll get to--let's assume the passenger 
goes through the advanced imaging----
    Mr. Pistole. OK.
    Senator Johanns.--doesn't object to it, and says, ``Fine.'' 
Under what circumstances would you then subject that passenger 
to the second----
    Mr. Pistole. So, if----
    Senator Johanns.--pat-down?
    Mr. Pistole.--when the person in the advanced imaging 
technology or the walk-through metal detector alarms--if the 
alarm goes off, alerts--there's something that needs to be 
addressed. The person may get an opportunity to go through a 
second time. And if it still alarms, then that's when the 
person would be asked to submit to a pat-down.
    Senator Johanns. So, if a passenger were subjected to 
both--no alarm went off, no suspicion--would that be arbitrary, 
on the part of your people?
    Mr. Pistole. To have a pat-down?
    Senator Johanns. Yes.
    Mr. Pistole. Yes, it would be a very rare instance for 
somebody to have a pat-down if there wasn't some type of alarm.
    Senator Johanns. I'm wondering why I got both, a few weeks 
ago. I did use my Senate ID and was subjected to both. Now, I 
didn't object to going through the advanced imaging. Some do, 
some don't. How would you answer that question?
    Mr. Pistole. Senator, I'd have to look into that. And if 
you went through advanced imaging technology and there were no 
alarms, in almost all instances, you would not be subject to a 
pat-down. There is a very, very small percentage that is done 
as random, so we can be unpredictable to the terrorists, even 
if they think everything is good. But, that is such a very, 
very small number, I would be surprised. But, I will look into 
it and get back with you.
    Senator Johanns. Mr. Director, I've often wondered, as this 
has kind of developed over time, at what point there's a 
tipping point with the American public. You know, ``Take off 
your belt. Take off your coat. Take off your shoes. Take out 
your liquids.'' On and on. And now, advanced imaging and, as 
you acknowledge, a very intrusive pat-down if you choose not to 
do that. Does that worry you--that maybe we're at a point here 
where this is not a vocal minority--that people just think 
you've overstepped?
    Mr. Pistole. I am sensitive to that, Senator. I know the 
threats are real. And so, what it comes down to is, ``How do 
we--and I believe that reasonable people can disagree--strike 
the balance between privacy and security?'' So, we all agree 
that everybody wants to be secure on that flight. Where we 
don't necessarily agree is, ``What is the proper balance 
between that security and privacy?'' So, yes, I am concerned 
about that, and I want to make sure we can address those 
privacy issues by affording people private screening, at their 
request, and to do all those things that address those concerns 
while, again, giving the highest level of confidence that 
everybody on every flight has been screened in a way so that 
they feel comfortable that everybody else on that flight is 
safe.
    Senator Johanns. Well, let's examine that a little bit, 
because as I think about cargo in the belly of the airplane--
passenger airplane--if you were to follow kind of the same 
approach, what you would do is, you would send it through 
advanced imaging of some kind for packages. If you saw 
something suspicious, or an alarm went off in that package, you 
would open up the package and you would examine that. Do we do 
that today?
    Mr. Pistole. With cargo?
    Senator Johanns. Yes.
    Mr. Pistole. Yes. We use either X-ray, advanced technology 
X-ray, explosive-trace detection, K-9s, or physical inspection 
of packages. We do all those on cargo. And when I say ``we,'' 
we do about half, and then there are 1,140 certified cargo 
security partners around the country, private businesses, that 
do that off airport grounds, so we don't have a bottleneck at 
the airport. And they then deliver that cargo in a secure 
fashion to the airport for delivery.
    Senator Johanns. Every package?
    Mr. Pistole. That goes on a passenger plane in the U.S., 
yes.
    Senator Johanns. OK. What's your next step on this? I must 
admit, I get the impression that you're expressing your 
understanding. I'm thinking nothing's going to change.
    Mr. Pistole. If your question is, ``Do I understand the 
sensitivities of people?''--yes. If you're asking, ``Am I going 
to change the policies?''--no. Because I think that being 
informed by the latest intelligence, the latest efforts by 
terrorists to kill our people in the air, no, I'm not going to 
change those policies.
    Senator Johanns. OK. So, for all those listening in, it's 
still going to be the same. It will be the intrusive pat-down, 
and it will be the--or the advanced imaging. Or both.
    Mr. Pistole. Well, again, people have the option to opt out 
of AIT, in which case they would receive a thorough pat-down.
    Senator Dorgan. Senator----
    Mr. Pistole. If the alarm----
    Senator Dorgan. Senator Johanns, would you yield on that 
point?
    Senator Johanns. Yes.
    Senator Dorgan. I think that Mr. Pistole testified that the 
increase in advanced technology will, he hopes, lead them to a 
point where the advanced imaging technology will give stick 
figures rather the--rather than the full-body impression. Is 
that correct?
    Mr. Pistole. Yes. That's the next generation that we're 
looking at. Again, with high false positives that we've seen in 
our testing, we're not there yet.
    Senator Johanns. How far away is that?
    Mr. Pistole. I would like to say months, but, again, it's 
all technology-driven, so there's a huge incentive, as you can 
imagine, to private businesses, to get this, as best they can, 
perfect, I'd like to say. But, of course, nothing's perfect, in 
that regard. So, there's a huge incentive for them to do that, 
and there are a number of companies that are competing to do 
that. So, we are working on it very closely.
    If you go out to Reagan Airport, just south of the airport, 
there's a Transportation Security Integration Facility where we 
test all of our equipment before we deploy it. And, I'd invite 
you to come out there and see what we're doing with the ATR--
the Advanced Target Recognition software.
    The nice thing about that is, from a budgetary standpoint, 
and just for a practicality, it's really a software 
modification to the existing hardware. So, we don't go out and 
buy all new hardware and things. It can be used in a software 
modification.
    So, to answer your question a little bit more fully, I see 
us in an interim period right now where we're using the best 
techniques and tactics, given the intelligence, enabled by the 
best technology. My hope is that the technology will improve. 
Perhaps someday, not only do we have the stick figures; but 
people can walk through, they can take liquids through again, 
they can keep shoes on, and they don't have to take their 
computers out of their briefcases, and things like that. Those 
are all things that I would like to build to, recognizing the 
creativity of the terrorists that we've seen, with the toner 
cartridges, and knowing that they can put the explosive there 
and they can put it in a lot of other places.
    Senator Johanns. Thank you, Mr. Chairman.
    Senator Dorgan. Senator Johanns, thank you very much.
    Senator Isakson.
    Senator Isakson. Well, following up on Senator Johanns' 
comment, this is the automated imaging recognition picture--
this is a little small--which was given to me, which clearly 
addresses the privacy issue in its entirety.
    Mr. Pistole. Right.
    Senator Isakson. What you are saying is that the square, or 
the red outlined area, which is an area of concern which would 
be subject to a pat-down----
    Mr. Pistole. Correct.
    Senator Isakson.--that you're having a number of false 
positives on that right now?
    Mr. Pistole. Correct. Yes.
    Senator Isakson. But, if that is worked out, then people 
would be going through these screens, without worrying about 
privacy, whether they're a child or an adult, because----
    Mr. Pistole. Right.
    Senator Isakson.--you see a stick figure.
    Mr. Pistole. Right.
    Senator Isakson. And they wouldn't be subjected to a pat-
down unless there came out an area of recognition by the 
machine, is that correct?
    Mr. Pistole. If the algorithm shows--and that box, as you 
say, shows on that part of the body where there's an anomaly, 
that part of the body would then be subject to the pat-down, 
whether it's the bottom of the foot, the armpit, the small of 
the back, the groin, whatever it may be. Just that area.
    Senator Isakson. OK. It looks like technology can be a 
solution to the privacy issue.
    Mr. Pistole. Oh, I think so. I'm very hopeful in that 
regard.
    Senator Isakson. Technology is not a solution, however, to 
one issue, and that is good communication with the public----
    Mr. Pistole. Right.
    Senator Isakson.--which I think TSA and the Department of 
Homeland Security need to pay attention to, because some of the 
outrage has been in response to some of the comments that have 
been made.
    I want to ask unanimous consent to submit to the record a 
3-page statement by Ms. Pamela Robinson of Atlanta, Georgia.
    Senator Dorgan. Without objection.
    [The information referred to follows:]

                Prepared Statement of Pamela Robinson, 
                  U.S. Army veteran, Atlanta, Georgia
    I am a Diamond Member on Delta Airlines. I fly approximately 
200,000 miles year to date 2010. This is my written testimony requested 
by the Office of Senator Johnny Isakson, United States Senator--Georgia 
November 15, 2010.
    On Wednesday, November 10, 2010, I was returning home from a 
business conference in San Francisco, California USA to Atlanta, 
Georgia, USA. I was traveling on Delta Flight 2880 departing at 12 p.m. 
I arrived at the San Francisco airport around 10:40 a.m. After checking 
in at the Delta counter, I proceeded through security. I placed all my 
belongings and shoes on the belt, and proceeded through the metal 
detector.
    The TSA agent told me to remove my top because it was too wide at 
the bottom. I pulled the top off my shoulder to show her that there was 
only a slip under the top. She allowed me through the metal detector, 
which did NOT signal. There was no machine for further scanning between 
the metal detector and this open area. Another female agent told me to 
go through the area with plastic walls until I stepped out on a black 
plastic mat and a chair.
    The female TSA agent told me stand on this black mat and stated 
that she would be performing a pat-down from the waist down. She would 
rub her hand inside my ``inner thigh'' in my groin area. I felt 
disgusted and stated, ``I don't think so. You will not touch me like 
that.'' She then tried to convince me by continuing to describe how she 
was now going to ``pat'' my entire body down with her hands. I felt 
sick just hearing her describe how she thought I was going to stand 
there and allow her to molest me in front of the public. She stated 
that I could go to a private room. I stated that I am not going into a 
private room to be molested either. She needed to find another way 
other than touch my vagina.
    The TSA agent called over a male first-level supervisor. He said 
that I had to let her do it. I stated that I would not be touched like 
that. He got on a walkie-talkie and called another supervisor. I waited 
10-15 minutes before anyone let me know what was going on. While we 
were waiting, I told the agent, ``This is nothing against you. This is 
not your fault. You are just doing your job and what you are told, but 
this is wrong.''
    Since I was standing on the dirty floor, I asked, ``Can I put my 
shoes on?'' The TSA agent covered my belonging with her arm and 
abruptly stated, ``Do not touch anything'' as if I were a criminal. 
Everyone passing through security was watching with looks of fear on 
their faces as to say, ``That could be me.'' I was so embarrassed. The 
agent stated that I could sit in the chair, but I said ``I don't want 
to sit in the chair, I'm fine.''
    After 10-15 minutes, a second-level TSA female supervisor walked up 
and asked the agent, ``Did the metal detector signal.'' The TSA agent 
responded, ``No.'' There was silence as people continued to watch. I 
looked at the supervisor and said, ``The metal detector did not go off, 
the first agent said my top was too loose.'' I showed the agent my slip 
underneath the same way I showed the first agent. Since this was the 
problem, I said ``Fine, I will take off my top down to my slip and go 
back through the metal detector.'' The supervisor looked at me from 
head to toe and said, ``It is not your top, your pants legs are too 
wide.'' I responded, ``Are you [expletive deleted] kidding me? Have you 
lost your mind?'' Then I stated, ``fine I will take off my pants right 
here so you can see I have nothing on me, but you will not rub your 
hand in my crotch.'' She stated, ``That will not be necessary'' She 
continued, ``If you don't let the agent do this, you will not board the 
plane and will have to leave the airport.'' I could not believe what I 
was hearing. I had no other way to get back to Atlanta from San 
Francisco and I was prevented from touching my belongings to call 
anyone. Nor was I able to call the police because they would be the 
people to escort me from the airport. I felt helpless and [expletive 
deleted].
    I still would not allow the agent to touch my vagina or anywhere 
near it. I stated, ``At anytime I feel uncomfortable, I would stop 
this.'' I had to stop it four to five times. The agent did not fully 
explain what she was going to do and my immediate reaction was to stop 
her hand from touching me in areas that were inappropriate for anyone 
to touch that is not intimate with me or my doctor for medical reasons.
    The agent went behind me while the supervisor stood there and 
everyone in the security area was watching and with an open hand 
touched my head with both hands in which I pulled away because it felt 
disgusting. She then rubbed her open hand down my neck, back and butt. 
Her hands never left my body. She then took her hand and tried to rub 
it in the inside of my thighs to my vagina, but I would not let her. 
The supervisor then said, ``Can you get up there.'' (Meaning my vagina) 
and the agent said no. The supervisor said to me, ``If she can not get 
there [between your legs], you will have to leave the airport.'' I 
could not believe what I was hearing. I said, ``this is as wide as my 
legs will open.'' The agent moved on and began to feel inside my waist 
band of my pants. I stopped her again when she tried to put her hand 
inside the waistband of ``my underwear'' and I yelled, Ok you are going 
too far! She stopped for a moment. The supervisor was still standing 
there and passengers were still watching as this occurred. We also 
stood in silence.
    I thought we were through until the agent then tried to feel my 
crotch again from the front but then stopped, because I pulled away. 
Then she tried to rub her entire hand on my breast and then lift my 
breast when 1 pushed her hand away and stopped this sexual assault. I 
began to walk toward my belongings and the agent said ``I need to test 
my gloves to clear you.'' The supervisor said, ``We [TSA employees] 
also feel this is way too invasive'' She gave me a complaint form and 
said; ``I am giving these to passengers to file a complaint.''
    She wanted to file a complaint to the molesting organization and 
their affiliates. When I looked up the supervisor was gone and I do not 
know where the agent was I just wanted to get the hell out of there.
    My gate for my flight was immediately on the right hand side after 
security. I did not care about the flight or my first class seat. I 
immediately grabbed my cell phone and went online to get Senator 
Isakson's number. I called his office and asked if he was in Georgia 
this week. He was but was returning to D.C. on Monday. (I had met with 
Senator Isakson years ago when I took my then high school-aged son to 
visit Washington to show him the capital and how Congress works to 
offset what he was learning in school. When I returned to Georgia, I 
received a very kind letter from the Senator's office thanking me for 
my visit and that if I ever needed any help to let him know. I have 
never asked for anything but when I am in D.C., I stop by to visit and 
talk with the staff to stay in touch or sometimes I run into Senator 
Isakson during flights to D.C.)
    I reached his Georgia office and the staff was very responsive to 
my request as I was in tears and had to fly home frustrated, [expletive 
deleted] and in shock. I needed a meeting immediately. Toni Brown 
helped me get a meeting on Monday, November 15, 2010 with Tricia 
Chastain, State Director and Michael Quiello, D.C. staffer for Senator 
Isakson. I shared this same experience with them as described in this 
testimony. Michael Quiello asked me to put it in writing for the 
hearing on Wednesday, November 17, 2010.
    I already knew there was a hearing as I have spent the past week 
crying and dealing with the lingering psychological affects of sexual 
molestation. I have written President Obama to stop the molestation, I 
have sent tweets, and I have told everyone in my network, I have 
scanned every possible television outlet. I have done these things 
because I cannot go to the police or any law enforcement because this 
was the law. I am not a pilot or flight attendant protected by a union. 
I am a United States American who creates jobs and keeps the airline 
industry flying and for this, I am molested and told this will protect 
me from the terrorists!
    Finally, I shared with Tricia that my grandmother turns 90 years 
old on Thanksgiving Day and I ``was'' going to surprise her by flying 
to Ohio on Thanksgiving Day. Because of this incident, I will not fly 
until this molestation stops. The thought of returning to any airport 
makes me sick to my stomach and I want to vomit. I will not return to 
the airport until the molestation stops. I am very concerned that the 
children. The children will be psychologically damaged for life; while 
the ``adults' stood by and watched our children being molested in 
public. This is wrong. This molestation must stop immediately.
    My constitutional rights in this country died when TSA passed this 
insane policy to molest their own citizens.

    Senator Isakson. Ms. Robinson is a businesswoman, a Diamond 
traveler on Delta Airlines, and this testimony illustrates how 
Secretary Napolitano's statement the other day that, ``Well, if 
you don't like it, there are other ways to travel,'' was sort 
of insensitive to the American business public. This woman was 
going to a meeting in San Francisco. There is no other 
alternative to get to San Francisco, other than 2 and a half 
days by rail, or 3 days by car, from Atlanta, Georgia. So, air 
travel is essential. And the comments by a rational person like 
Ms. Robinson, I think, need to be looked at to understand what 
Senator Johanns and the other Senators and I are dealing with 
on a daily basis, because the traveling public is significantly 
upset.
    Mr. Pistole. Right.
    Senator Isakson. The whole--the 9/11 Commission, in 2007, 
asked TSA to develop a CrewPASS program for the flight crews so 
they could expeditiously go through security in a safe and 
secure manner. It's my understanding that, in Columbia, South 
Carolina; and Pittsburgh, Pennsylvania, you have two--had two 
areas where you've been testing that for 2 years.
    Mr. Pistole. And BWI.
    Senator Isakson. Right, yes, and BWI. Well, what's taken so 
long to implement that at the airports around the country?
    Mr. Pistole. That's one of the questions I asked when I 
first came on as administrator, in July. I think we have made 
good progress, especially recently, to the point where I am 
hoping to be able to announce something, here in the very near 
future, as to some significant improvements in that regard, 
using CrewPASS.
    Senator Isakson. Well, I flew three times Monday, getting 
from Atlanta to Savannah to Charlotte to Washington, and rode 
with crew members on two of the three flights from two 
different airlines, and the first thing they raised was the 
CrewPASS issue, which is important to them. And I think 
anything you can do to expedite that process would be 
appreciated.
    Mr. Pistole. Yes, I think we have a good way forward, 
Senator.
    Senator Isakson. My last question and/or comment is this: 
other than the pat-down, the biggest amount of feedback I get 
are young children----
    Mr. Pistole. Right.
    Senator Isakson.--particularly if they're subjected to a 
pat-down. But, if they go through the machine--X-ray machine--
one is the sensitivity of privacy, the other is the sensitivity 
of the amount of radiation they're exposed to. Has TSA done 
sufficient testing, in your judgment, to ensure that that--
exposure to that radiation over time is not a problem?
    Mr. Pistole. First, Senator, one thing that I did not do a 
good job of communicating is that children 12 and under are 
exempted from the enhanced pat-down. So, that's one issue. It's 
because of concerns about dealing with children.
    Senator Isakson. That's a good decision.
    Mr. Pistole. As far as the radiation exposure, I would 
again, defer to what those independent studies did, looking at 
all types of populations, including children, pregnant women, 
elderly, and things like that, which found that the exposure is 
well within safety standards.
    Senator Isakson. Thank you, Mr. Administrator.
    Mr. Pistole. Thank you.
    Mr. Pistole. Thank you, Senator.
    Senator Dorgan. Senator Isakson, thank you.
    Senator Klobuchar.
    Senator Klobuchar. Thank you very much. Thank you.
    Just following up on Senator Isakson's line of questions 
about the advanced imaging technology. Senator Bob Bennett and 
I had a bill to expand the use of that technology. And I had 
mentioned, in my opening, that I think that this is very good 
option, as Senator Isakson had stated. We need to keep 
improving the technology. But, where are we in terms of the 
rollout? How many airports are they in? What's the maximum 
amount that we now plan to put in the airports?
    Mr. Pistole. We have approximately 385 of the advanced 
imaging technology machines deployed in approximately 70 
airports right now. What we have been authorized and funded for 
is around 490 by the end of the year. So, we are looking at 
another 100 or so by the end of the year, and then, another 500 
to get us up to 1,000 by the end of next year.
    Senator Klobuchar. OK.
    Mr. Pistole. So, that's what we're building toward.
    Senator Klobuchar. And are--is the plan to have them in--I 
assume, all the major airports, already in there--but, are you 
going to get to, like, Fargo, for instance--that airport?
    Mr. Pistole. Yes. So, that's----
    Senator Klobuchar. OK.
    Mr. Pistole.--obviously done on a----
    Senator Klobuchar. Yes.
    Mr. Pistole.--an airport-by-airport basis. We try to be 
risk-based----
    Senator Klobuchar. Yes.
    Mr. Pistole.--and intelligence-driven, and----
    Senator Klobuchar. I understand.
    Mr. Pistole.--a number of factors. And ability for the 
airport to actually physically install in the space, and things 
like that.
    Senator Klobuchar. OK. On to the pat-down. Could you 
describe the decisionmaking process that went into 
strengthening the pat-down method, without revealing things you 
can't reveal?
    Mr. Pistole. So, in a general way, when I came on as 
Administrator, in July, I looked at what we were doing to 
address the threat posed by the 12/25 Abdulmutallab, the 
underwear bomber and I also was informed by several GAO 
reports, DHS Inspector General reports, and our own TSA Office 
of Inspections. All three entities do covert testing. And, 
without going into too much detail, one of the things they 
found as a common denominator was, that when the covert tester 
was able to get through security, it was largely because we 
were not being thorough enough in our pat-downs.
    So, the intelligence, coupled with the repeated covert 
testing, led me to conclude that we needed to be more thorough, 
to be more consistent with partners around the world, 
recognizing that we are an interdependent system, as we saw on 
12/25. If Abdulmutallab had been detected overseas and never 
would have made it here, obviously that would have helped. So, 
those are the issues. And I'd be glad to go into more detail in 
a closed setting.
    Senator Klobuchar. Sure. And do you believe these will be 
permanent now, these changes? Or, you know, is it something you 
adjust when you see new----
    Mr. Pistole. Well, we're always trying to evolve our 
techniques and technology, as informed by intelligence, and are 
always aware that we don't want to just focus on yesterday's 
threat. So, what we are working very closely with, as part of 
the intel and law enforcement communities, are, ``What do we 
see as tomorrow's threats, and how can that inform our 
judgments and actions today, in terms of what technology we 
need?'' So, that's all part of that process.
    Senator Klobuchar. And then, I--Senator Isakson talked to 
you about the crew issue, and I know you're working on that. 
Just in terms of education, what do think could be done, 
especially with the holidays coming up, to inform the public?
    Mr. Pistole. Thank you, Senator. I would just make an 
appeal to the American people to go to the TSA website to see 
what the latest practices, protocols, procedures are, and to be 
the best-informed travelers possible, especially when we're 
talking about perhaps once-a-year travelers, those going home, 
just for the holidays. The better informed they can be, the 
better partnership we can have to provide that best possible 
security.
    Senator Klobuchar. OK. Very good. And then, just quick 
questions about the screening. Do you feel that 2013 is a 
reasonable deadline for the 100-percent screening? And what 
is--could you talk about the present alternative right now, the 
risk-based approach?
    Mr. Pistole. Sure. When we're talking about international 
air----
    Senator Klobuchar. I'm talking about the cargo screening.
    Mr. Pistole.--the international air cargo coming to the 
U.S., we really divide it into two categories: known shippers 
and the trusted shippers and the known supply chain, and those 
who are unknowns, such as the individual packages and things. 
We have a very close relationship with the major cargo 
shippers, and they are working very closely with us to identify 
high-risk packages. Again, it's in their best interest not to 
have high-risk packages on their flights. The year 2013 is a 
challenge, but that is what we are working toward to ensure we 
can do that.
    Senator Klobuchar. OK. Very good.
    Thank you very much.
    Mr. Pistole. Thank you, Senator.
    Senator Dorgan. Senator McCaskill.
    Senator McCaskill. I'd like to talk a little bit about 
cargo and the capability of airports around the world to screen 
appropriately. What's the plan for high-risk cargo inspections 
for countries that don't have screening capabilities? I mean, 
we have--I mean, unfortunately, the people who want to harm our 
country are not operating under a flag or a sovereign nation, 
they are everywhere in the world, and they move continually, 
which is why we have to have the investment in intelligence. It 
seems like, to me, that they're going to begin to try to 
pinpoint those countries that have no capability of screening, 
other than visual. And so, what is the plan on how we deal with 
those? And there are a number of those countries, I understand. 
Isn't that correct?
    Mr. Pistole. There are, Senator. For example, when I was in 
Yemen, 2 weeks ago, to look at what they are doing in terms of 
cargo screening, I found that they used the X-ray machine 
pretty much exclusively. It's not a modern, advanced technology 
X-ray machine where you can see two-dimensional and things like 
that. No explosive trace detection. No, or very limited, 
physical inspection. No K-9s. So, you're right, it is uneven 
around the world.
    What I see as the best way forward is what we do here in 
the U.S., working with the private sector in terms of a trusted 
screening facility. The certified cargo screening program that 
we have here has 1,140 or so private companies doing over 50 
percent of the screening of cargo going on U.S. passenger 
flights. I think that's one of the models. We're working with 
ICAO and IATA towards capacity development for those very 
countries that you allude to that don't have the ability right 
now to do that type of screening.
    For example, in Yemen, we sent a team there to work with 
them to train and equip them in practices and protocols, we 
also took explosive trace detection equipment and left it with 
them, in terms of building capacity, to do those very things 
you describe.
    Senator McCaskill. Well, I loathe the notion that we would 
have to buy screening equipment for other countries. But, I'm 
very worried about the preponderance of countries out there 
that are not taking this seriously and have not made this a 
priority, because that is the weakest link.
    Mr. Pistole. I agree, Senator. And I think what we will 
probably see--just from a private-sector business-risk model--
is that they may likely not pick up packages that they assess 
as being high risk from certain areas of the world. And so, 
that will be the fallout, I think, from this. That's an extreme 
measure of risk management, but it's effective.
    Senator McCaskill. Right.
    Mr. Pistole.--I think that may be what we see.
    Senator McCaskill. What about the other cargo measures? We 
have spent an awful lot of time in this hearing talking about 
air. But, what are the security measures that we're increasing 
in the other cargo venues, particularly maritime, where you--
when you have remote ability to detonate, the damage that could 
be done--frankly, rail, maritime, any of that--what--can you 
give the Committee some reassurances that we're making progress 
on those fronts?
    Mr. Pistole. Well, I can reassure the Committee we're 
making some progress. I would also want to manage expectations 
that there are clearly still some gaps and vulnerabilities. Of 
course, Customs and Border Protection has the lead, in terms of 
maritime and 24-hour notification, and then the Coast Guard has 
the lead in the port security. TSA has a role, but it's, 
frankly, a somewhat limited role, secondary or tertiary to CBP 
and Coast Guard.
    Senator McCaskill. Well, this might be one that we'd want 
to talk to the Secretary about, because I--I know it has got to 
be frustrating, because, you know, you move one direction to 
try to really address any gaps we have, and then it's--and then 
there's--another one opens up, and you move there, and then 
you've taken your eye off the first one. But, I do think that 
we've got to be sophisticated about the weakest links that we 
have in this. And clearly, I think, cargo--frankly, non-air 
cargo, may in fact be--along with those countries that aren't 
screening--are two places that we need to be all hands on deck.
    So, thank you, Mr. Chairman.
    Mr. Pistole. Thank you, Senator.
    Senator Dorgan. Thank you very much.
    Senator LeMieux?

             STATEMENT OF HON. GEORGE S. LeMIEUX, 
                   U.S. SENATOR FROM FLORIDA

    Senator LeMieux. Thank you, Mr. Chairman.
    Administrator, good to be with you again.
    I want to talk to you about the subject I know a lot of my 
colleagues have spoken to you about, which is this pat-down and 
what Americans are dealing with at airports across the country.
    You and I spoke, before you were confirmed, about maybe 
relying more on behavioral evaluation, doing more of what other 
countries, like Israel, do. I'm, frankly, bothered by the level 
of these pat-downs. I've seen them firsthand in airports in 
Florida. I wouldn't want my wife to be touched in the way that 
these folks are being touched. I wouldn't want to be touched 
that way. And I think that we have to be focused on safety, but 
there's a balance. Now, you're going forward with more of these 
advanced imaging technology machines, which I think are fine 
and appropriate. And, although they're invasive, there's not a 
physical touching to them--you have procedures in place to keep 
that person, who's looking at the imaging, in another room, and 
there are some protections there. But, I also understand that 
you would like to do everything possible to keep American 
people safe. But, there are limits. There has to be a balance 
here. What can we do to right this balance? I think we've gone 
too far afield.
    Mr. Pistole. Senator, I think there are a number of issues 
here. And one is that one is that people who would receive this 
pat-down, almost exclusively, would be as a result of some 
alarm, either through the walk-through metal detector or the 
advanced imaging technology. So, a very, very small number of 
people would receive a pat-down as a random or not as a result 
of alarm. So, that's first.
    The second is, simply being informed by the intelligence 
that we've talked about--the GAO, the IG inspections, covert 
testing, which we could talk about in a classified setting, we 
know that there are additional things that we could be doing to 
detect things. And based on pat-downs and AIT, we have detected 
dozens and dozens of, let's say, artfully concealed objects 
that could pose a risk to aviation. So, for me, it comes down 
to that balance, as you say, and the fact that everybody wants 
to be secure on that flight, knowing that you've been screened, 
I've been screened, everybody's been screened properly, and we 
have confidence. And yet, we want to ensure the best possible 
privacy. So, how can we do that? And I think we do that with 
AIT. And if we move to ATR, with the stick figure, I think that 
will really go a long way.
    So, how do we achieve that balance? In the final analysis, 
I think reasonable people can disagree as to what that proper 
balance is. If we take those two flights that I mentioned 
earlier--one, you have the option to be screened, and you know 
everybody else has been screened, and another flight, where 
there's no screening, and you go to the same place--I think 
almost everybody will get on that flight that had been properly 
screened. So, in my job, as Administrator, I just try to find 
that balance. I recognize the invasiveness of it. I also 
recognize that the threats are real. The stakes are high, and 
we must prevail.
    Senator LeMieux. Well, and I appreciate the work you're 
doing. I know it's a difficult balance to strike. What I would 
hope for with the advancement in technology, without getting 
into anything that's confidential--you know, when you see 
little kids, or you see senior citizens who are traveling 
domestically in this country, maybe have never been outside of 
this country before, we know that the chance that they are a 
terrorist is very, very, very slim. No one wants to talk about 
profiling, because that's a scary word--but, we know that if 
you're a man who's 18 to 40, and you've been traveling around 
the world, there's a much higher chance that you would fall 
within that group of folks who could be a danger to this 
country than the rest of those folks. I mean, I would love to 
see a world where we had some kind of identification that when 
you went and they checked my driver's license, they would know 
my travel history, and you could screen people based upon the 
likelihood that they're a terrorist, and not just because they 
are walking onto an airplane.
    Mr. Pistole. Right.
    Senator LeMieux. Someone who's traveling between 
Minneapolis and Fort Lauderdale, that has never left the 
country and never had a criminal record--there is a very good 
chance that they're not concealing some kind of plastic 
explosive in their underwear.
    Mr. Pistole. Right. And, to your point, Senator, I would 
restate the fact that, because we are trying to be a risk-
based, intelligence-driven organization, the children 12 and 
under will not be subject to these pat-downs. We're working 
with pilots on their issues. They're in charge of the aircraft, 
so why do they go through the same type of screening? We are 
really trying to be as best informed about each individual 
traveler, similar to the Israeli model. We're using behavior 
detection extensively. We're picking up some good finds there. 
The bottom line is how to do that without profiling, as you 
say. And there's a dynamic tension there between safety, 
security, and privacy. And so, how do we resolve that dynamic 
tension while ensuring the bottom line is that that flight is 
secure?
    Senator LeMieux. I appreciate your comments and your good 
work.
    Mr. Pistole. Thank you, sir.
    Senator LeMieux. Thank you, Mr. Chairman.
    Senator Dorgan. Senator LeMieux, thank you very much.
    Senator DeMint.

                 STATEMENT OF HON. JIM DeMINT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. Thank you, Mr. Pistole. I appreciate the 
professionalism you're showing here today. And, frankly, I've 
heard most of the questions that I wanted to ask.
    One of the things that Senator LeMieux was hitting at is 
the idea of whether we are going to continue to evolve and use 
common sense? And, particularly, I want to make sure that we're 
not overly concerned with being so politically correct that we 
would ignore high-risk targets as--and you mentioned the 
Israeli model.
    We particularly appreciate you looking at ways to 
transition this technology that allows you to see things you 
need to see, and not see things you don't. Transition into 
something that's more animated. I think that would give people 
a lot of comfort. And then, looking at the, you know, rational-
age thing.
    I think if Americans know we're--that we're not just 
setting up rules--my concern is that your job is to keep people 
safe, not to keep them comfortable. And that can just--that can 
get out of control over time. And we need to make sure that 
travel, by air and other ways, is--continues to be a good 
experience. But, you seem to be trying to draw the best balance 
there, and that's very important. And evolving the technology 
as well as the personnel and the behavioral aspects of this is 
a pretty good package. And I think if you can keep us up to 
date on what you're doing, not just on hearings, but 
periodically, a memo or something, in ways--like you've asked 
today, that Americans partner with TSA and stay more informed. 
Because, if they haven't traveled in a year and they run into 
this, it's a pretty stunning thing. And we're getting hundreds 
of calls. And so, they want us to be on top of this.
    Apparently you're doing what you can to try to modify this 
in a way that seems reasonable to people and to keep them safe. 
You've got a very tough job. But, I mostly just want to thank 
you for what you're doing.
    Mr. Pistole. Thank you, Senator DeMint. I appreciate that.
    Senator Dorgan. Mr. Pistole, just one final question.
    Thank you very much, Senator DeMint.
    We have had four events, really, that have been kind of 
defining events since we began much more enhanced screening 
after 9/11. One dealt with shoes. One dealt with underwear. One 
dealt with liquids. One dealt with cartridge toners. And so on. 
And so, each event reflects an offense by someone trying to 
commit--this case, murder. I mean, they want to get a bomb on 
an airplane. And then, you're involved in defense; we are 
involved in defense. And I guess the question I would ask you--
we've ramped up the defense a lot. I mean, that's what this 
discussion's all about today. Tell me about the threat level. 
It appears to me the threat level continues to increase. You 
increase our defensive capabilities. Where are we, relative to 
where we were a few years ago? Is the offense ahead of the 
defense? The defense is way out there ahead of the offense? 
What's your sense?
    Mr. Pistole. Yes, Senator, obviously, the operational tempo 
of al Qaeda and its affiliates, particularly in the Arabian 
Peninsula, has increased, as you've indicated. There are other 
groups around the world that are also interested in committing 
attacks, not only in the U.S., but in Europe. You may have seen 
the Germans increase their level of security this morning in 
response to a current threat stream that we'd need to go into 
closed session about.
    The way I look at this construct for TSA and Homeland 
Security is that we are on a continuum for the national 
security mission of the United States. At the one end, we have 
all the offensive actions of the military, whether in the 
tribal areas--Pakistan, Afghanistan--working with other 
countries, wherever it may be.
    And hopefully there is some intelligence because of 
somebody who is detained on the battlefield said, ``Yes, 
there's some current plotting against the U.S.'' That may not 
work.
    And so, then we look at those other agencies, CIA and NSA, 
for HUMINT and SIGINT and those things that hopefully will 
inform us about plots that may be taking place here in the U.S.
    That may not happen. And so, my former colleagues at the 
FBI, the Joint Terrorism Task Forces, hopefully they or the 
750,000 to 800,000 State and local police officers, sheriffs, 
deputies, will be informed because they see something, say 
something--there is a threat--somebody sees something that's 
out of whack. But, that may not be the case.
    And so, when it comes down to TSA, you're absolutely right, 
we are on the last lines of defense for the U.S. government. 
And whether it is a behavior detection officer, whether it's an 
explosive specialist doing the swabbing of hands and picking up 
of trace residue, whether it's a security officer, through the 
AIT or the pat-down--if somebody, such as Abdulmutallab, gets 
through all that and is able to get on that plane, then we're 
really down to the Federal Air Marshals, which is part of TSA, 
to be that last line of defense, or maybe armed pilots onboard. 
There are obviously concerned crew and passengers. For the U.S. 
government, it really comes down to that construct.
    Senator Dorgan. What I was trying to ask is, the passenger 
that's taking a flight in this country today, they know--just 
by reading the newspapers and seeing the actions you're taking, 
they know that the threats have increased. But, also, your 
activities have increased to respond to the threats. Should 
they feel there is slightly less risk, the same risk, or more 
risk?
    Mr. Pistole. Hopefully, they would see all the actions 
we're taking as deterrence to any putative terrorist. So, 
somebody who is planning an attack on aviation particularly, 
would see these actions as a way of moving them, unfortunately, 
to a softer target. We've done so much to harden the targets of 
aviation, and yet--and yet--they have done all these types of 
attacks. So, I hope it's a deterrent. That's the bottom line.
    Senator Dorgan. Senator Hutchison.
    Senator Hutchison. I do just have one more.
    This rather high-profile person, Mr. Tyner, who left the 
San Diego airport after refusing to undertake the full body 
scan, now it's being reported that he is being investigated and 
that he may face up to a $10,000 fine. Is that the procedure? 
Are you investigating him?
    Mr. Pistole. There are two parts to that. I've learned that 
TSA has the administrative authority to fine people who try to 
smuggle items on planes, prohibited items, things like that. 
That has been fairly common--several thousand times--where that 
has happened. I'm not aware of any instance where somebody who 
has passively refused screening has ever been fined. So, it is 
being reviewed. I don't want to prejudge anything, but I do not 
anticipate anything coming from that, other than working with 
the public, to say, ``Look, this is for your safety, security. 
Work with us. This is a partnership here.''
    Senator Hutchison. Well, I agree with you that it should be 
considered a partnership. And, in general, I have found, and 
mostly I hear, that the TSA employees are very aware of the 
privacy issues. They are sympathetic and are handling it very 
well. But, is it the policy of the agency not to fine someone 
who decides they do not want to be screened, and therefore, 
they leave?
    Mr. Pistole. The policy is silent as to that issue, so it 
comes up for a decision. And so, when all the facts are at 
hand, when I'm briefed on all the facts, then I'll make a 
decision on that.
    Senator Hutchison. Well, I would hope that we wouldn't go 
overboard if someone decides that they have the right to their 
privacy, and therefore, they walk out without injury to anyone. 
I can't see that that would be a fine offense.
    Mr. Pistole. No, again, I am trying not to preview too 
much, because I would just like to make sure I have all the 
facts. But, I agree completely with you on that, Senator. 
Again, the fines, historically, have been primarily for people 
who have tried to smuggle items onboard.
    Senator Hutchison. Actually--correct.
    Mr. Pistole. And that's not this situation.
    Senator Hutchison. All right. Thank you very much.
    Mr. Pistole. Thank you.
    Senator Dorgan. Mr. Pistole, thank you very much for your 
testimony. And thanks for the work that you do and your agency 
does.
    And I want to mention that we will talk to the Chairman, 
and I expect that he would agree and want to have a classified 
briefing by you and the agency in the near future.
    This hearing's adjourned.
    [Whereupon, at 11 a.m., the hearing was adjourned.]
                            A P P E N D I X

Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                        to Hon. John S. Pistole
    Question 1. The Yemen air cargo threat incident has underscored the 
need to set up additional ``tripwires'' such as customer identity and 
accountability mechanisms to make it harder for terrorists to use 
international commerce as a means of attack. What responsibilities do 
shipping companies such as UPS, FedEx and their agents and 
subcontractors have to make sure customers who drop off packages bound 
for the U.S. are actually who they say they are? Are current protocols 
sufficient? If not, does TSA plan on increasing the identification 
verification requirements?
    Answer. The Transportation Security Administration (TSA) requires 
all cargo carriers to inspect cargo accepted from shippers to ensure 
that the cargo does not pose a threat to the aircraft, its crew, and 
passengers. TSA does not require all cargo carriers to validate the 
shipper identity. TSA is aware that several air carriers have applied 
additional security measures such as identification checks for shippers 
as part of their security measures to protect their business 
operations.
    TSA believes that validating shipper identification is one layer of 
an effective strategy to mitigate the security risk for air cargo. TSA 
is currently working with U.S. Customs and Border Protection to test 
the feasibility of using shipment data to target elevated risk cargo. 
TSA will assess the effectiveness of this approach and will modify its 
security requirements accordingly. TSA is also working closely with the 
air cargo industry to develop and share best practices for enhancing 
air cargo security.

    Question 2. In February of 2010, the agency announced that it would 
reconsider the weight threshold it put forward under its original LASP 
proposal and stated it would release the new LASP requirements in the 
fall of 2010. The new LASP still has not been released. What is the 
status of this effort?
    Answer. In response to the public comments received after issuing 
the Large Aircraft Security Program Notice of Proposed Rulemaking in 
October 2008, the Transportation Security Administration (TSA) is 
modifying the rulemaking proposal to take public comments into account 
and evaluate the feasibility/effectiveness of certain criteria, 
including aircraft weight, vetting of crew and passengers, and securing 
the aircraft. Currently, the Supplemental Notice of Proposed Rulemaking 
(SNPRM) is being prepared, and TSA expects the SNPRM to be released in 
mid-2011.

    Question 3. The SAFE Port Act of 2006 included a mandate that DHS 
conduct pilot tests for the physical access component of the TWIC 
program, including card reader technologies and requisite security 
operations. TSA did not begin this pilot testing until 2009. Pilots are 
underway at seven locations, with multiple facilities and vessels 
participating in each venue. Until the analyses are performed, and the 
rules issued, workers will continue to show their TWIC card to gain 
access to a facility. What progress has TSA made with the card reader 
pilot program, and is TSA committed to finalizing the pilots and moving 
forward with broad deployment of the readers?
    Answer. The Transportation Security Administration (TSA) has 
completed Initial Technical Testing which evaluated the technical 
capability of the Transportation Worker Identification Credential 
(TWIC) readers, documented environmental and reader specification 
conformance testing, and gathered and reported baseline operational and 
environmental data from participants. The Early Operational Assessment 
that provides for start-up learning curve and evaluates the technical 
performance of TWIC readers at test sites is underway or complete at 
all but four sites. The System Test & Evaluation which evaluates the 
operational and technical impact of installing and using TWIC readers 
at a variety of maritime facilities and vessels once readers/users 
achieve steady-state operation and includes an assessment of reader 
effectiveness, suitability, and supportability is complete at five 
sites.
    TSA anticipates completing the Reader Pilot in early calendar year 
(CY) 2011. Under the current plans, the United States Coast Guard 
(USCG) estimates the Notice of Proposed Rulemaking (NPRM) should be 
published by the end of CY 2011 and a final rule published by the end 
of CY 2012.

    Question 4. Is there a concern that in the absence of full TWIC 
card reader deployment, the use of TWIC as a ``flash-pass'' rather than 
a biometric card presents security risks at ports--especially those 
ports that traffic in especially hazardous cargo?
    Answer. At this time there is no requirement for ports and 
facilities to use readers and the Transportation Worker Identification 
Credential (TWIC) reader pilot program has not been completed. The 
existing regulation requires visual verification of a TWIC in reducing 
security risks at Maritime Transportation Security Act (MTSA) regulated 
vessels and facilities. In the interim to fully leverage the security 
benefit of the TWIC, the Coast Guard has added an electronic TWIC 
handheld reader capability to existing MTSA and law enforcement 
programs to verify compliance with the TWIC requirements during vessel 
and facility compliance exams and/or security spot checks on a case by 
case basis.

    Question 5. Some passenger and freight rail carriers have indicated 
that they do not have established relationships with their surface 
transportation security inspectors which creates confusion when a 
inspectors shows up for an inspection. Additionally, these groups have 
also stated the inspectors are inconsistent with their inspection 
efforts and seem to lack a focus. Finally, the GAO and some surface 
transportation inspectors have criticized the TSA for requiring some 
surface transportation inspectors to perform aviation-related duties, 
despite the fact that they do not have such expertise. How is TSA 
addressing these concerns?
    Answer. Surface inspector relationships with rail agencies depend 
on a number of factors, including the size of the agency and whether or 
not they are located in a high-threat urban area and/or transport toxic 
inhalation hazardous (TIH) materials. Further, the surface inspection 
program is driven by the level of risk, which generally results in a 
focus on passenger rail agencies in high threat urban areas with large 
riderships and freight rail entities that carry TIH materials. The 
inspectors have worked closely with the top 100 mass transit/passenger 
rail agencies and all of the Class I freight railroads since 2006, 
conducting voluntary security assessments to include Baseline 
Assessment for Security Enhancement (BASE) reviews and Security Action 
Items (SAI), and performing regulatory inspections. Not all passenger 
rail agencies have large riderships and many short-line freight 
railroads do not carry TIH, so there will be some agencies/railroads 
that have minimal interaction with surface inspectors.
    All Transportation Security Administration (TSA) inspectors are 
firmly grounded in developing depth of mode expertise. It is only after 
three or 4 years of extensive qualification that inspectors receive an 
orientation in another mode. All inspectors must have domain awareness 
to recognize security violations; however, inspectors will specialize 
in one mode in order to ensure deep subject matter expertise.

    Question 6. The Center for National Response operated by the West 
Virginia National Guard in Gallagher, WV is a unique facility for 
training first responders in both disaster response and disaster 
recovery for highway, rail, transit, accidents or attacks in very close 
to real time simulations. Can you tell me more about TSA's efforts to 
coordinate both training and response with state and local 
organizations like the CNR?
    Answer. As a matter of policy, the Transportation Security 
Administration (TSA) encourages those who may be involved with 
terrorist attack response to take full advantage of training 
opportunities, such as those offered by the Center for National 
Response (CNR). For example, since 2006, TSA, through the Federal 
Transit Security Grant Program, has awarded more than $115 million to 
transit systems nationwide for training front-line employees, and an 
additional $13 million has been awarded to conduct both table-top and 
full-scale security exercises.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Byron L. Dorgan to 
                          Hon. John S. Pistole
    Question 1. In response to a question during the hearing on 
proposed TSA changes to the current aviation worker background 
screening process, you noted that the agency's work in this area is 
part of an ongoing effort to harmonize background checks for aviation 
workers, maritime workers and others with a goal of creating ``one-stop 
shopping'' for background checks. Can you please expand on the agency's 
long-term plans with regard to aviation worker vetting and what 
specific role TSA will play in the process beyond receiving biometric 
and biographic data on prospective employees and conducting security 
threat assessments on those individuals?
    Answer. The Transportation Security Administration (TSA) is 
currently preparing a proposed rule that will consolidate and harmonize 
existing transportation worker vetting programs, to the extent possible 
under law, and include new populations of persons that must be vetted. 
This rule is known as the ``Standardized Vetting, Adjudication, and 
Redress Services Rulemaking'' (TSA Universal Rule) and is intended to 
expand the extent to which TSA can determine that Security Threat 
Assessment (STAs) for different modes of transportation are comparable, 
reducing the need for redundant STAs and fees.

    Question 2. Do you intend to assume any of the functions in the 
aviation worker background screening process currently performed by the 
private sector either in the short term or in the long term as you 
transition to the more ``harmonized'' approach outlined during the 
hearing?
    Answer. As part of the long term rulemaking effort, the 
Transportation Security Administration (TSA) is reviewing the security 
threat assessment processes to identify areas for standardization 
across transportation workers, including aviation workers. The review 
includes all aspects of the security threat assessment process 
including data and fee collection, information submission, identity and 
immigration documentation, and adjudication processes and roles. In the 
short term, the proposed Aviation Channeling Services Project (ACSP) 
intends to provide choice to aviation stakeholders in the selection and 
use of Designated Aviation Channelers (DACs) for the purpose of 
aggregating applicant data and then transmitting that data to TSA. The 
roles and responsibilities in the pending ACSP are consistent with the 
roles and responsibilities that are performed today.

    Question 3. If so, what specific roles do you envision 
federalizing?
    Answer. The Transportation Security Administration (TSA) is 
reviewing the full security threat assessment process including current 
roles and responsibilities among the government, private entities, and 
individuals. TSA is considering changes to the data collection, 
document verification, fee collection and adjudication processes as 
part of the Standardized Vetting, Adjudication and Redress rulemaking. 
Prior to implementing any changes to the current processes, TSA will 
solicit comment and feedback from industry and stakeholders to better 
inform the decisions being made.

    Question 4. I understand that the cost to workers in the aviation 
industry, or their employers, for required background checks are 
roughly one-third of what other transportation workers pay for similar 
checks as part of the Transportation Worker Identification Credential 
(TWIC) program or for a hazardous material endorsement. Please provide 
the Committee with an analysis of the efficiency and effectiveness of 
the existing aviation worker background screening model.
    Answer. While the aviation worker program requires similar security 
threat assessment (STA) checks to the Transportation Worker 
Identification Credential (TWIC) program, the aviation worker STA and 
associated credential (Security Identification Display Area/SIDA 
badges) are not solely managed by the Transportation Security 
Administration (TSA). Unlike TWIC, in the current vetting program for 
airport and airline workers, TSA does not produce, issue, or manage 
secure credentials for these workers. Furthermore, the cost of 
operating contractor-provided enrollment and card activation services 
for TWIC applicants is also included in the TWIC fee charged to 
applicants.
    TSA conducts the required security checks, but, unlike the TWIC 
program, TSA does not adjudicate the criminal history records check for 
the airports or the large aircraft operators; these functions are 
managed by the airports and airlines. Unlike the TWIC program, aviation 
workers are currently not charged for TSA costs related to the security 
threat assessment that TSA does conduct. TSA currently pays for these 
costs through appropriations.
    In accordance with the pertinent laws, TSA must complete a 
rulemaking to collect user fees to pay for the costs of the vetting 
programs. TSA is in the process of completing a proposed rule that will 
cover fees for the aviation worker checks. However, TSA will continue 
to collect, on behalf of the Federal Bureau of Investigation (FBI), the 
Government fee of $17.25 for the fingerprint-based Criminal History 
Records Check (CHRC). Additionally, aviation workers are not provided 
the same redress opportunities (appeals, waivers, review by an 
Administrative Law Judge) as TWIC applicants.
    The reason for the difference in redress between aviation workers 
and TWIC applicants lies in the governing statutes. In aviation, the 
statute (49 U.S.C. 44936) is very prescriptive about the kind of 
redress, list of crimes, and look-back periods that aviation workers 
must adhere to, and the statute does not authorize the ability to apply 
for waivers, nor does it require ALJ review. For TWIC, the statute (46 
U.S.C. 70105) specifically requires TSA to establish a waiver process 
and provide the opportunity for ALJ review.

    Question 5. Please provide the Committee with the security 
rationale for the recent aviation worker background check proposal and 
explain what specifically the agency is doing to ensure that its 
efforts don't diminish security or disrupt the existing background 
check process at airports.
    Answer. The Transportation Security Administration (TSA) is 
committed to providing a seamless expansion of service providers 
through the Aviation Channeling Services Project and fully understands 
the importance of the flow of information between airport stakeholders 
and TSA. TSA has sought industry input and met with aviation 
stakeholders to leverage their relevant expertise and experience as we 
introduce choice to airports and aircraft operators. These meetings and 
the feedback TSA has received from airports have helped inform our 
business and technical requirements and should serve to mitigate the 
risk associated with transitioning to an environment of choice among 
multiple Designated Aviation Channelers. Further, the Designated 
Aviation Channelers will undergo a thorough qualification and testing 
process and be required to comply with Federal information security and 
privacy requirements.

    Question 6. Are the agency's efforts to change the existing 
aviation worker background screening system being driven by security or 
by other factors, such as a desire to promote competition in the 
screening process?
    Answer. In response to Congressional inquiries, private industry, 
and aviation stakeholders, the Transportation Security Administration 
(TSA) is pursuing a model that will provide a choice of qualified 
channeling service providers for airports and aircraft operators and 
competition among the potential vendors.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                          Hon. John S. Pistole
    Question 1. Airlines have been charging passengers fees for 
checking their bags and as a result, more passengers are opting to 
carry the bags onboard aircraft. What is the impact on checkpoint 
security, including resource implications, as a result of more 
passengers bringing their baggage onto the aircraft as a carry-on, as 
opposed to checking their bag?
    Answer. The Transportation Security Administration (TSA) has 
witnessed a 20 percent decrease in the number of checked bags submitted 
for screening during the last 2 years as most major air carriers have 
instituted baggage fees. The number of items X-ray screened as carry-on 
property has dramatically increased, resulting in a 17 percent 
reduction in hourly passenger screening throughput. This trend has 
forced TSA to reexamine resource allocation in terms of balancing 
checkpoint and checked baggage staffing requirements. It should be 
noted that at checkpoints serving air carriers that have not instituted 
checked baggage fees, the reduction in throughput has not been 
observed.

    Question 2. The Department of Homeland Security requires manifest 
information to be provided 24 hours prior to loading for all maritime 
cargo entering our ports. However, for cargo entering our country by 
air, manifests only have to be provided 4 hours prior to arrival--which 
could be too late to stop a bomb before it enters our airspace. 
Shouldn't we require more advance notice for air cargo, particularly 
high-risk cargo, entering the United States?
    Answer. The Department of Homeland Security (DHS) is working 
closely with industry and our international partners to expedite the 
receipt of cargo manifests for international flights to the United 
States prior to departure in order to identify and screen items based 
on risk and current intelligence. The Transportation Security 
Administration (TSA) and U.S. Customs and Border Protection (CBP) have 
already initiated joint pilot activities with industry to explore the 
feasibility of advanced information in the air cargo environment.

    Question 3. The Senate Fiscal Year 2011 Homeland Security 
Appropriations Bill includes four million dollars above the President's 
request for air cargo security in order for TSA to conduct a voluntary 
pilot program to obtain air cargo information prior to departure. The 
purpose is to identify high-risk cargo for additional screening or even 
prevent it from being loaded on an aircraft. How soon will the 
Department be able to get this pilot program up and running?
    Answer. On October 28, 2010, the global counter-terrorism community 
disrupted a potential attack when individuals with ties to Al-Qaida in 
the Arabian Peninsula in Yemen attempted to conceal and ship explosive 
devices in cargo on board aircraft ultimately bound for the United 
States. The Transportation Security Administration (TSA) and the U.S. 
Customs and Border Protection (CBP) are working collaboratively and 
partnering with the private sector in the express consignment, 
passenger, and heavy all-cargo environment to identify strategies for 
strengthening air cargo security. This on-going collaborative effort is 
being extended throughout the air cargo industry and several pilot 
programs will be undertaken. The initial pilot within the express 
consignment environment commenced in December of 2010.

    Question 4. The flying public has expressed privacy concerns about 
body scanners at airport checkpoints. There is a software upgrade being 
tested that could potentially address many privacy concerns by 
eliminating the actual body image and replacing it with a generic 
``stick figure'' image, while still locating and identifying potential 
threats. When will the TSA have this technology installed at airports 
across the country?
    Answer. Automated Target Recognition (ATR) software is used with 
Advanced Imaging Technology (AIT) and displays a generic stick figure-
like image on the monitor attached to the AIT machine to show potential 
threats concealed on a passenger, and does not display the actual image 
of the passenger. It provides strong privacy protections and eliminates 
the need to staff an extra officer in a private room. Software 
development is currently underway and will be followed by testing to 
ensure it meets our screening requirements.

    Question 5. The 9/11 Act included the requirement that DHS 
establish mandatory training standards for front-line employees in the 
rail, transit and bus industries. This was due in over 2 years ago, but 
the TSA has yet to establish these critical standards. Will the TSA 
complete this overdue requirement by the end of next year?
    Answer. The Transportation Security Administration (TSA) has 
drafted a Notice of Proposed Rulemaking (NPRM) entitled Surface 
Transportation Employee Training, to meet the 9/11 Act requirement to 
establish mandatory training standards for front-line employees in the 
rail, transit, and bus industries. The draft NPRM is currently being 
reviewed and is estimated to be published in the fourth quarter of FY 
2011. In the interim, TSA has continued to work with the rail, transit, 
and bus industries on security awareness training they provide to their 
employees.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                          Hon. John S. Pistole
    Question 1. I understand that in the days immediately following the 
attempted plot, at the direction of President Obama and Secretary Janet 
Napolitano, TSA deployed a team of security inspectors to Yemen to 
provide assistance and guidance to the Government of Yemen with their 
cargo screening procedures. Why did such a meeting not take place at an 
earlier date considering we knew such threats might be coming from this 
region and specifically this country?
    Answer. Previous to the incident, U.S. efforts were targeted 
primarily to countries with direct air service to the United States or 
those otherwise served by U.S. aircraft operators; currently, direct 
air service to the United States from Yemen is not available and no 
U.S. aircraft operators provide service to/from Yemen. As a result of 
the incident, the Transportation Security Administration (TSA), through 
its Transportation Security Administration Representative (TSAR), has 
been working collaboratively with the Government of Yemen. TSARs are 
senior TSA personnel posted in key locations worldwide to work with the 
governments in the TSAR's assigned region, to improve their aviation 
security postures and aid governments in recognizing that the threat to 
the aviation sector remains high and therefore mitigation measures must 
be implemented to counter new and emerging threats as they arise.

    Question 2. Was this threat not a concern prior to the discovery of 
this plot?
    Answer. The Transportation Security Administration (TSA) was 
concerned about threats and vulnerabilities for cargo worldwide, 
including Yemen. Those concerns were expressed in a classified 
assessment (U//FOUO) Air Cargo Threat Assessment dated 7 October 2010.

    Question 3. What other transportation threats from this region are 
of most concern to you and what proactive measures are you taking to 
prevent them?
    Answer. The Transportation Security Administration (TSA) is 
concerned about worldwide threats to transportation, including those 
emanating from Yemen, the Arabian Peninsula, Horn of Africa and other 
areas. TSA documents threats to civil aviation including hijackings, 
improvised explosive devices, and Man-Portable Air Defense Systems 
(MANPADS) in our classified assessments. TSA also documents tactics, 
techniques, and procedures used by terrorist groups against other modes 
of transportation, and share those with stakeholders in briefings, 
intelligence summaries, and threat assessments.
    TSA is also highly engaged in outreach and assistance with the 
Government of Yemen. After the threat was uncovered in October 2010, 
TSA sent a team of Transportation Security Specialists to Yemen to aid 
the government in improving cargo security standards in Sana'a. TSA is 
also working to implement an Aviation Security Sustainable 
International Standards Team (ASSIST) program in Yemen. ASSIST is a 
comprehensive technical assistance program given to countries with 
demonstrated difficulty in satisfying the security Standards and 
appropriate Recommended Practices established by the International 
Civil Aviation Organization (ICAO).
    TSA also participates in the ICAO Donor Nations group, which is a 
multilateral group comprised of several representative countries and 
regional organizations focused on assistance and capacity building 
activity with regard to aviation security. The purpose is to provide a 
forum for members to exchange information on respective capacity 
development initiatives to foster collaboration and avoid a duplication 
of effort. Participation in this group enables TSA to coordinate 
international capacity building efforts in Yemen.

    Question 4. I understand that the U.S. and air cargo carriers put a 
hold on cargo shipments from Yemen and Somalia. Should we be concerned 
that this group will send packages from other points of origin?
    Answer. The Transportation Security Administration (TSA) works to 
mitigate the risk that terrorist groups will send explosive devices 
from locations other than Yemen and Somalia through a variety of 
activities. TSA currently works to ensure the security of U.S.-bound 
air cargo through its Foreign Airport Assessment Program, which 
evaluates foreign airports' compliance with security standards 
established by the International Civil Aviation Organization (ICAO), as 
well as through air carrier inspections that evaluate air carriers' 
compliance with TSA regulatory requirements for operations to the 
United States. In order to address the requirement to screen 100 
percent of all inbound air cargo, TSA has been working on a two-step 
process: (1) recognizing those National Cargo Security Programs of key 
foreign governments that provide a commensurate level of security as 
U.S. air cargo security requirements, with priority placed on the top 
20 countries that represent 80 percent of all inbound air cargo to the 
United States; and (2) requiring additional measures for air carriers. 
TSA also conducts cargo security training courses for foreign 
governments needing assistance to improve their cargo security posture.
    Additionally, TSA is working on an ICAO-led effort to identify ways 
to build upon the positive cargo security enhancements achieved through 
the recently adopted Amendment 12 to Annex 17 to the Convention on 
International Civil Aviation (Chicago Convention). Potential mitigation 
measures for the future that are being considered include: development 
of a common definition among States of high-risk cargo; creation of 
advanced cargo information requirements; creation of a hub concept for 
screening of high-risk cargo; establishment of standard compliance 
requirements; standardization of chain of custody requirements; and the 
creation of joint compliance and technology teams.

    Question 5. I understand that much of air cargo security relies on 
foreign governments for screening implementation and enforcement. How 
is this system working?
    Answer. The International Civil Aviation Organization (ICAO) is a 
specialized agency of the United Nations (UN) established in 1944 by 
the Convention on International Civil Aviation (Chicago Convention). 
The Chicago Convention is the primary international agreement on 
international civil aviation. ICAO currently has 190 Contracting 
States. The principal mandate of ICAO is to advance aviation safety and 
security worldwide. ICAO develops and promotes Standards and 
Recommended Practices (SARPs) for the security of international civil 
aviation. Security Annex 17 to the Chicago Convention contains 
standards for air cargo security and enforcement that all Contracting 
States are required to follow. The Transportation Security 
Administration (TSA) assesses all international airports with U.S. 
aircraft operations or that serve as a last point of departure for all 
flights to the U.S., for compliance with ICAO requirements. TSA 
conducts assessments every one to 3 years depending on the level of 
risk associated with each airport. When an assessment reveals that an 
international airport is not meeting ICAO minimal standards, TSA works 
with that airport and host government authorities to ensure that 
measures are taken to correct security deficiencies.

    Question 6. How do non-UN participating countries conduct cargo 
screening?
    Answer. The 190 countries that are signatories to the Convention on 
International Civil Aviation (Chicago Convention) agree to comply with 
the Standards and Recommended Practices put forward in Security Annex 
17 to this Convention. Only air carriers from countries that are 
signatories to the Chicago Convention are allowed to operate commercial 
air transport service to the U.S. The Transportation Security 
Administration (TSA) conducts assessments of airports with flights to 
the United States in accordance with 49 U.S.C.  44907. TSA can only 
speak to international airports with U.S. aircraft operations or 
foreign air carriers with a last point of departure flight, which would 
follow the international standards in Annex 17.

    Question 7. What security measures should shipping companies and 
airlines (large and small) be responsible for in screening cargo?
    Answer. For international inbound cargo, the Transportation 
Security Administration (TSA) regulates only domestic air carriers, 
foreign air carriers flying from the last point of departure into the 
United States, and their authorized agents. Freight forwarders and 
shipping companies overseas are not subject to TSA regulations. These 
entities are regulated by foreign governments who provide compliance 
oversight.
    In response to the recent cargo plot, many foreign governments have 
implemented enhanced security requirements for air cargo, which may 
include screening. Depending on the government's air cargo security 
program, requirements may apply to any supply chain.

    Question 8. Currently commercial aviation passengers pay a $2.50 
security fee per segment flown limited to $5 per one-way trip. This fee 
structure only covers 36 percent of aviation security, which is 
increasing every day. Should passengers pay more?
    Answer. The administration believes that there should be a modest 
increase in the aviation security passenger fee, which has not risen 
since it was first implemented in 2002. While the nation as a whole 
benefits generally from aviation security, airline passengers derive 
significant direct benefits as well. Recognizing this, the original 
authorizing legislation (the Aviation and Transportation Security Act) 
that created the Transportation Security Administration (TSA) included 
passenger user fees to more closely allocate the cost of aviation 
security services to the individuals who directly benefit from this 
unique government service and simultaneously reduce the burden on the 
general taxpayer. The proportion of support that these fees provide for 
aviation security has decreased significantly as the level of funding 
required for more effective aviation security has risen. The increase 
in the passenger fee that the administration has proposed would come 
close to restoring the intended balance between appropriated funding 
and direct passenger contributions.

    Question 9. Should air cargo face a similar fee?
    Answer. The passenger fee model would not make sense in the air 
cargo context, because unlike passenger security much of the cost of 
cargo security is borne by industry, not the Transportation Security 
Administration (TSA). Currently TSA only collects fees that support 
security threat assessments of workers in the air cargo supply chain as 
well as security assessment fees for the Certified Cargo Screening 
Program.

    Question 10. TSA is in the process of implementing new screening 
measures for passengers including the widespread use of Whole Body 
Imaging technologies and pat-downs. What are the different technologies 
used to conduct Whole Body Image searches?
    Answer. There are two types of Advanced Imaging Technology (AIT) 
security screening systems currently used by the U.S. Transportation 
Security Administration (TSA) at airports: general-use (backscatter) x-
ray and millimeter wave. Millimeter wave technology bounces harmless 
electromagnetic waves off the body to create a black and white three-
dimensional image. Backscatter technology projects low level X-ray 
beams over the body to create a reflection of the body displayed on the 
monitor. Millimeter wave technology produces an image that resembles a 
fuzzy photo negative. Backscatter technology produces an image that 
resembles a chalk etching.

    Question 11. Are there concerns with radiation levels for TSA 
employees, passengers (frequent fliers & pilots)?
    Answer. There are two types of Advanced Imaging Technology (AIT) 
security screening systems currently used by the U.S. Transportation 
Security Administration (TSA) at airports: general-use (backscatter) X-
ray and millimeter wave. There are no radiation safety concerns with 
the systems as long as they are properly operated and maintained. 
Advanced imaging technology is safe and meets national health and 
safety standards.
    Backscatter technology was evaluated by the Food and Drug 
Administration's (FDA) Center for Devices and Radiological Health 
(CDRH), the National Institute for Standards and Technology (NIST), and 
the Johns Hopkins University Applied Physics Laboratory (APL).
    All results confirmed that the radiation doses for the individuals 
being screened, operators, and bystanders were well below the dose 
limits specified by the American National Standards Institute (ANSI).
    For comparison, the energy projected by millimeter wave technology 
is thousands of times less than a cell phone transmission. A single 
scan using backscatter technology produces exposure equivalent to 2 
minutes of flying on an airplane.

    Question 12. How is TSA dealing with complaints related to pat-down 
searches?
    Answer. The Transportation Security Administration (TSA) welcomes 
feedback and comments on screening procedures from the traveling public 
through the TSA Contact Center via a toll-free telephone number, 
through the www.tsa.gov website, or by e-mail. A passenger can also 
register a complaint by U.S. Mail. When a passenger identifies an 
airport in his or her complaint, TSA refers that complaint to the 
Customer Support Manager (CSM) at the airport. Passengers can also 
contact the TSA supervisory personnel at each airport or the CSM 
directly or through the ``Talk to TSA'' section of the website which 
sends complaints directly to the airport. CSMs work with the Federal 
Security Director who is responsible for ensuring that the 
Transportation Security Officer workforce follows TSA's Standard 
Operating Procedures and adheres to the Agency's principles for 
professional and courteous checkpoint screening.
    TSA's Office of Civil Rights and Liberties examines complaints 
alleging discriminatory conduct and violations of civil rights. If a 
complaint is disability-related, TSA's Office of Disability Policy and 
Outreach conducts the investigation.
    All complaints are taken seriously, and volume and trends are 
reported to TSA leadership. Passengers may also contact the DHS Office 
for Civil Rights and Civil Liberties (CRCL). CRCL reviews and assesses 
information concerning abuses of civil rights, civil liberties, and 
profiling on the basis of race, ethnicity, or religion, by employees 
and officials of DHS. TSA is committed to doing everything we can to 
make the traveling experience as expeditious and comfortable as 
possible while ensuring the safety of all passengers. The Agency will 
continue to evaluate and adapt these procedures to strike the right 
balance between privacy and security, while ensuring we are addressing 
evolving threats.

    Question 13. Is there another less-invasive way to check passengers 
for explosives?
    Answer. Given the threat and currently available technology, the 
Transportation Security Administration (TSA) believes that the security 
measures in place best mitigate the risk posed by an adversary with a 
body-borne improvised explosive device. TSA will continue to examine 
its procedures and consider options to balance its important security 
requirements with the needs of the traveling public.

    Question 14. TSA is currently reconsidering its proposed rule 
providing security measures for general aviation. The Large Aircraft 
Security Program (LASP) has not been finalized. When will TSA release a 
final rule?
    Answer. In response to the public comments received after issuing 
the Large Aircraft Security Program Notice of Proposed Rulemaking in 
October 2008, the Transportation Security Administration (TSA) is 
modifying the rulemaking proposal to take public comments into account 
and evaluate the feasibility/effectiveness of certain criteria, 
including aircraft weight, vetting of crew and passengers, and securing 
the aircraft. Currently, the Supplemental Notice of Proposed Rulemaking 
(SNPRM) is being prepared, and TSA expects the SNPRM to be released in 
mid-2011.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Claire McCaskill to 
                          Hon. John S. Pistole
    Question 1. Yemeni officials screened and cleared the two packages 
destined for the Chicago, IL synagogues containing the explosive 
devices before placing them on passenger aircraft. During the November 
16, 2010 Homeland Security and Governmental Affairs Committee (HSGAC) 
on Air Cargo Security you stated that the Yemeni officials had X-ray 
equipment, but lacked explosive detection equipment and didn't have the 
same level of screening standards that the U.S. has. You met with 
Deputy Prime Minister Rashad al-Alimi on November 3, 2010, and other 
aviation officials in Yemen on the recent events. I understand that you 
provided the Yemeni officials some guidance in standards and policies 
and you left them some explosive detection equipment. What type of 
commitment did you receive from the Yemeni government on increasing 
standards and policies when it comes to cargo screening? What is your 
confidence that they will follow through?
    Answer. During the early November visit to Yemen, Transportation 
Security Administration (TSA) Administrator John Pistole met with 
Deputy Prime Minister Rashad al-Alimi, as well as officials from the 
Yemeni Directorate General of Civil Aviation and the Ministry of 
Interior. During these and subsequent meetings with additional TSA 
officials, Yemeni government officials committed to work with the 
United States over the next 18 months to enhance its aviation security 
system. This year and a half long project will consist of three phases: 
building a foundation, finalization of all aviation security programs 
consistent with international standards, and, developing specialized 
skills. At this time, it is too early to evaluate the success of the 
program; however, TSA will be glad to report additional details as the 
program develops.

    Question 2. Secretary Napolitano on her November 8 press release 
stated that she ordered a ``ground halt on all cargo coming from 
Yemen.'' I know that there is a ban on all air cargo coming from Yemen 
and Somalia, but does a ground halt to all cargo coming from Yemen mean 
any resulting maritime, rail, or truck cargo that originated in Yemen? 
Is this ground halt extended to Somalia as well? Are you aware of other 
increased security measures in the other cargo venues (rail, truck, and 
maritime) since the failed air cargo attempts?
    Answer. The term ``ground halt'' is typically applied to aircraft 
operations and means that no aircraft are allowed to be airborne. The 
Transportation Security Administration has not increased security 
measures applied to cargo originating from Yemen or Somalia for modes 
of transportation other than air cargo, nor are we aware of increased 
security measures in rail, truck, and maritime cargo since the failed 
attacks.

    Question 3. DHS issued a Security Directives and Emergency 
Amendments that bans all air cargo from Yemen and Somalia, prohibits 
high risk cargo from being transported on passenger jets, prohibits 
toner or ink cartridges greater than 16 ounces in carry-on and checked 
luggage, prohibits toner or ink that can be transported on crewmembers 
or in cargo packages identified as high risk, and requires all-cargo 
aircraft operators to screen all high risk cargo using TSA-approved 
technology. This is to continue to 12/8/10. Why 12/8/10? What kind of 
analysis does DHS plan to perform to determine whether to extend all or 
some of the measures or to cancel the measures?
    Answer. The Transportation Security Administration (TSA) issued the 
Security Directives and Emergency Amendments (SDs/EAs) that were 
effective on November 8, 2010. Those SDs/EAs expired on December 8, 
2010. This 30-day period gave TSA time to monitor and assess the threat 
environment based on intelligence; discuss with industry, other Federal 
agencies, and foreign governments to assess the operational impacts of 
the requirements; and determine an appropriate next course of action. 
TSA has issued revised SDs/EAs in December 2010, which have modified 
and further extended the security requirements to ensure the safety of 
air cargo shipped on passenger planes and all-cargo planes.

    Question 4. What obstacles are you coming across while trying to 
entice or enhance security standards and policies abroad? How can 
Congress help?
    Answer. The Transportation Security Administration (TSA) strives to 
overcome the obstacles of new and emerging threats while trying to 
enhance aviation security standards and policies abroad. TSA would 
appreciate your continued support as we work to mitigate new and 
emerging threats. The process will always be evolving as terrorists 
find additional ways to exploit the system. We have been fortunate to 
develop close working relationships with our international partners, 
which have resulted in unprecedented collaboration to close gaps and 
mitigate threats.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                          Hon. John S. Pistole
    Question 1. Does TSA have a formal audit process in place to make 
sure that all procedures are followed regarding the use of AIT and pat-
downs? If so, what is this process? If not, will you commit to 
implementing such a process?
    Answer. Federal Security Directors coordinate with their staffs to 
ensure that screening procedures are conducted properly and in 
accordance with standard operating procedures. The Transportation 
Security Administration (TSA) is in the final stages of developing a 
Quality Assurance program that will soon be deployed nationwide.

    Question 2. You stated in the hearing that Advanced Imaging 
Technology is evolving and the next generation of the machines will 
produce an image that is a ``stick figure or a blob'' so that 
individual passengers are not identifiable. You also said that this 
technology is already in use in Amsterdam, but it currently has 
problems because there are too many false positives. Do you have an 
estimate of how long it will take for the technology to be ready for 
use in the United States?
    Answer. The Dutch have been using a form of Automated Target 
Recognition (ATR) on their L-3 millimeter wave (MMW) Advanced Imaging 
Technology (AIT) units for approximately one year. They are 
experiencing a very high alarm rate and the majority of their 
passengers are being patted down. L-3 has since developed the next 
iteration of the ATR software which the Canadians, Dutch and the U.S. 
are testing in both the lab and in the field over the next several 
months.

    Question 3. The Washington Post published an article on November 
22, 2010 titled ``Scientists say they have solution to TSA scanner 
objections.'' In the article it states that employees at Lawrence 
Livermore National Laboratory developed a program in 2006 that would 
make the images produced by AIT machines grossly distorted to protect 
passengers' privacy, but would still allow the machines to identify any 
objects on the body. One of the employees said that they presented the 
idea to DHS, but their offer was rebuffed. The article states that a 
current TSA spokesman could not immediately confirm the employees' 2006 
conversation with federal officials about the program because it was 
during the previous administration. Has TSA been in contact with 
Lawrence Livermore during the current administration to explore whether 
their program would allow AIT to fully screen passengers while also 
protecting their privacy? If not, will TSA thoroughly review and test 
their program to determine its ability to modify AIT machines in a way 
that will protect privacy while maintaining their detection 
capabilities?
    Answer. The Transportation Security Administration (TSA) has not 
been in direct contact with Lawrence Livermore National Labs (LLNL) 
about any image distortion initiatives that LLNL may have underway. At 
this time, TSA is addressing passenger privacy concerns through the 
development of Automated Target Recognition (ATR). ATR software is used 
with Advanced Imaging Technology (AIT) and displays a generic stick 
figure-like image on the monitor attached to the AIT machine. With the 
use of ATR, Transportation Security Officers will never view the actual 
image of a passenger. Therefore, ATR will render image distortion 
programs unnecessary. TSA is currently working with industry to develop 
ATR to meet TSA detection standards and will reach out to LLNL to 
determine if their proposals are applicable to AIT operations.

    Question 4. In August 2009, suicide bomber Abdullah Asieri 
attempted to kill Prince Mohammed Bin Nayef, head of Saudi Arabia's 
counter terrorism operations. Asieri avoided detection by two sets of 
airport security and palace security by smuggling a pound of high 
explosives and a detonator in his body cavity. Although the prince was 
not killed in the explosion, it demonstrated that terrorists were able 
to smuggle explosives through various types of security screening. 
Would Advanced Imaging Technology or the newer enhanced pat-down 
procedures detect explosives hidden in a body cavity? If not, isn't the 
use of these procedures ineffective against a known threat and any 
passenger screened by TSA and allowed to board an aircraft could 
potentially have explosives hidden in their body cavity?
    Answer. For security reasons, specific detection capabilities will 
need to be provided in a classified setting. The Transportation 
Security Administration (TSA) employs many layers of security that 
address a multitude of threats including explosive trace detection, 
explosives detection canines and behavior detection. Each layer of 
security is designed to work collaboratively with the others. The 
result is a system as a whole that is very difficult to manipulate and 
is adaptable to changing threats. TSA is currently deploying the best 
available technology to passenger checkpoints to detect threat items 
and appreciates the support that the Committee has provided.

    Question 5. The recently implemented pat-down procedures don't only 
raise questions about passenger privacy, but also about TSO morale. 
While senior TSA officials are responsible for developing and 
implementing screening policies, the TSOs at airport screening points 
bear the brunt of passenger disapproval about these policies. What has 
TSA done to help TSOs deal with the stress of their jobs and to address 
morale problems related to performing invasive pat-downs? Has the 
implementation of new pat-down procedures had an impact on TSO 
recruitment and retention?
    Answer. Prior to deploying enhanced pat-down procedures, the 
Transportation Security Administration (TSA) worked closely with our 
National Advisory Council, which is comprised of TSA airport frontline 
employees, including many Transportation Security Officers (TSOs) from 
across the Nation. We crafted new training for all TSOs tied directly 
to the new procedures; this training included anticipated passenger 
sensitivities and the risk-based reasons for the new procedures. We 
also piloted the new procedures at select locations. Since deployment 
nationwide, reporting from airports indicates TSOs have received a 
positive response by the general public to the new procedures. In 
screening almost two million passengers daily, the relatively few 
occasions for the enhanced pat-downs (several hundred a day) have not 
had an impact on the performance of our TSOs who continue to perform 
their duties with a high level of professionalism. Federal Security 
Directors (FSDs) use daily shift briefs to address any perceived issues 
and to ensure the TSOs understand the reason why the policy is in 
place. Administrator Pistole's provided a video message, which 
highlights the purpose, value and instills to TSOS that they are doing 
the right thing and for a good cause. Also, the Deputy Administrator 
sent a message out to the workforce thanking them and asking them to 
continue to do great work. Additionally, TSA employees may receive 
assistance for job stress through the Employee Assistance Program. All 
of this is done to provide the workforce with motivation to do their 
job well and keeps morale high.

    Question 6. There has been significant discussion recently about 
implementing the ``Israeli model'' for airport screening--that is, 
profiling, detailed interviews, highly invasive searches of suspect 
passengers, etc. Please provide your opinions on whether the ``Israeli 
model'' would work for airport screening in the United States. 
Specifically, please discuss how much adopting this type of screening 
might cost, how many additional employees the TSA would need to hire, 
and how it would compare to current TSA screening procedures in regards 
to civil liberties concerns.
    Answer. The Transportation Security Administration (TSA) has not 
conducted a formal analysis of the cost required to implement a United 
States airport security system modeled on Israel's system. The 
substantially higher passenger volumes and the comparative complexity 
of the U.S. commercial aviation systems with its 450 geographically 
dispersed locations would likely pose considerable operational and 
financial challenges for transplanting the Israeli system in this 
nation. An analysis of Israel's system also must take into account not 
only differences in scale regarding passenger enplanement but also the 
differences in U.S. policy toward privacy and civil rights and civil 
liberties.
    TSA has consulted extensively with Israel and adapted key 
techniques to meet U.S. aviation security needs. In particular, TSA 
already operates a behavior detection program that is based on Israel's 
model, and continues to increase the direct human evaluation of 
passengers during screening.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                          Hon. John S. Pistole
    Question 1. Following the recent attention given to the enhanced 
pat-down procedure put in place November 1, TSA showed a willingness to 
revisit portions of its protocol (such as providing different 
procedures for pilots and young children). Given that this is a work-
in-progress, can you tell me what additional changes to the enhanced 
pat-down procedure you are considering making in the near future? How 
often do you plan on reviewing current procedures?
    Answer. The Transportation Security Administration continuously 
evaluates and adapts screening procedures to strike the appropriate 
balance between addressing evolving threats and the needs of the 
traveling public. TSA is sensitive to the concerns of all passengers 
and maintains an ongoing dialogue with groups representing a variety of 
segments of the population, including those with medical or 
developmental disabilities and victims of sexual assault, in order to 
better understand their needs.

    Question 2. What are the most recent figures for the percent of the 
population receiving the enhanced pat-down? What is the percentage of 
the traveling public that is receiving pat-downs by opting out of the 
full body scan, and what percentage receives a pat-down or targeted 
search as a result of triggering an alarm or indicating some sort of 
anomaly when going through the scanner?
    Answer. Approximately 2.79 percent of all passengers between 
October 31, 2010 and December 11, 2010, received the full standard pat-
down (mainly when opting out of AIT screening) and approximately 3.2 
percent of passengers received a targeted pat-down as a result of AIT 
anomalies.

    Question 3. TSA currently uses both millimeter wave and backscatter 
technology in the full body scanners that it is bringing on line. In 
staff briefings, TSA officials have mentioned that they believe 
eventually one technology or the other will prove superior and will 
represent the dominant technology in the future. Will this result in 
the mothballing and storage of millions of dollars in equipment, 
considered obsolete, similar to what occurred with the ``puffer'' 
machines?
    Answer. Both technologies have met the Transportation Security 
Administration's (TSA) qualification requirements and are effective 
security screening equipment. Even if one particular technology 
ultimately proves superior and TSA determines to purchase only that 
technology in the future, TSA will continue to utilize the units it has 
already purchased. TSA does not expect to retire any AIT units prior to 
the end of their anticipated useful life.

    Question 4. Administrator Pistole, you have mentioned that you are 
not employing technology that would show a generic ``stick figure'' 
image (Automated Target Recognition) rather than a naked body image in 
current scanners because you believe there would be complications with 
false positives. ATR technology, however, is already being used in 
airports in Europe. What specific challenges do you see in implementing 
this technology in the US? Can you provide a description of the events 
that must occur before this technology is employed here, and provide a 
timeline concerning when ATR can come into use?
    Answer. As indicated, Automated Target Recognition (ATR) software 
is used with Advanced Imaging Technology (AIT) and displays a generic 
stick figure-like image to show potential threats concealed on a 
passenger. The main challenge in the development, testing and 
deployment of ATR remains the high number of false alarm rates 
experienced both in testing in the U.S. and in the field by the 
Netherlands. AIT alarms must be resolved through a physical pat-down 
process. A high number of false alarms increases the need for pat-downs 
and slows the overall screening process. Before ATR can be successfully 
deployed in the US, further software development and testing are 
required. TSA's preliminary lab results indicate that the false alarm 
rate is moving toward an acceptable level; however, this cannot be 
confirmed until the completion of field testing.
    Proposed ATR Timeline:

  <bullet> ATR Qualification Testing and Evaluation (QT&E) was 
        completed at the Transportation Security Laboratory.

  <bullet> Within the next 30 days ATR will be tested and evaluated in 
        the field. This testing will take 60 days.

  <bullet> A System Evaluation Report will be generated following the 
        conclusion of the test process. Based upon findings, a DHS 
        acquisition decision will be pursued for system-wide 
        implementation.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                          Hon. John S. Pistole
    Question 1. Does the TSA intend to deploy Advanced Imaging 
Technology (AIT) equipment for passenger screening to airports in 
Alaska? If so, what is the timeline for deployment and which airports 
will receive the AIT equipment?
    Answer. The Ted Stevens Anchorage International Airport is 
scheduled to receive Advanced Imaging Technology (AIT) units in 
calendar year 2011.

    Question 2. When will Automated Target Recognition (ATR) software 
be ready for deployment to airport screening checkpoints nationwide?
    Answer. Deployment of Automated Target Recognition (ATR) software 
is dependent on development by Advanced Imaging Technology (AIT) 
manufacturers and the successful completion of testing to ensure ATR 
meets Transportation Security Administration (TSA) requirements. ATR is 
being testing in a laboratory environment and field testing is 
scheduled to begin in February 2011.

    Question 3. It seems the use of ATR would go a long way to 
alleviating many of the privacy concerns associated with AIT scanners. 
Is there anything that can be done to speed up the deployment of ATR 
software?
    Answer. The Transportation Security Administration (TSA) is working 
closely with Advanced Imaging Technology manufacturers as they develop 
the next generation of Automated Target Recognition (ATR) software. 
This close working relationship provides valuable feedback to the 
manufacturers that they can use to enhance their current algorithms. In 
addition, TSA is working through the Department of Homeland Security's 
Science and Technology Directorate to identify other opportunities to 
accelerate ATR development.

    Question 4. What training do Transportation Security Officers 
receive before they are cleared to screen passengers using enhanced 
pat-downs?
    Answer. Each Transportation Security Officer (TSO), Lead TSO, and 
Supervisory TSO is required to successfully complete 6-6\1/2\ hours of 
training before he or she is permitted to independently perform the 
revised pat-down procedures. The Transportation Security Administration 
developed and deployed a training package that includes web-based 
components and a classroom instruction module that requires a 
proficiency demonstration at the end of the course.

    Question 5. I've heard from numerous Alaskans who have previously 
been victims of sexual assault. The enhanced pat-downs employed by TSA 
have been extremely traumatic for some sexual assault survivors. Has 
the TSA provided Transportation Security Officers with any special or 
additional training regarding sensitivity to passengers who have 
experienced sexual abuse, medical procedures, are developmentally 
disabled, or have other special needs and circumstances that may make 
an enhanced pat-down a less appropriate screening method?
    Answer. The Transportation Security Administration (TSA) is 
sensitive to the concerns of all passengers and maintains an ongoing 
dialogue with groups representing a variety of segments of the 
population, including those with medical or developmental disabilities, 
and victims of sexual assault. TSA officers currently receive 
specialized training for those with medical or developmental 
disabilities and it will be augmented to include sensitivity to victims 
of violence and sexual abuse based on feedback from groups representing 
those passengers. TSA officers are trained to treat all passengers with 
dignity and respect, and to fully communicate with each passenger to 
ensure they understand the process throughout screening. All passengers 
can request to be screened in a private location and can have a witness 
present when a pat-down is required. Pat-downs are primarily used to 
resolve an alarm or an anomaly, or on passengers who choose not to pass 
through the WTMD or Advanced Imaging Technology. Currently, statistics 
show that less than 3 percent of the traveling public receives a pat-
down.

    Question 6. How is TSA collecting and evaluating complaints about 
the enhanced pat-downs to ensure additional training or oversight is 
directed to airports with high complaint levels?
    Answer. The Transportation Security Administration (TSA) welcomes 
feedback and comments on screening procedures from the traveling public 
through the TSA Contact Center (TCC) via a toll-free telephone number, 
through the www.tsa.gov website or by e-mail. A passenger can also 
contact TSA by U.S. Mail. When a passenger identifies an airport in his 
or her complaint, TSA refers that complaint to the Customer Support 
Manager (CSM) at the airport. Passengers can also contact the CSM or 
TSA supervisory personnel at each airport directly or through the 
``Talk to TSA'' section of the website which sends complaints directly 
to the airport. CSMs work with the Federal Security Director who is 
responsible for ensuring that the Transportation Security Officer (TSO) 
workforce follows TSA's Standard Operating Procedures (SOP) and adheres 
to the Agency's principles for professional and courteous checkpoint 
screening. TSA passenger and baggage screening complaint data is 
reported to the public in a monthly Congressionally-mandated Department 
of Transportation (DOT) report, ``Air Travel Consumer Report'' as 
required by Section 421(a) of Vision 100--Century of Aviation 
Reauthorization Act, P.L. 108-176.
    TSA's Office of Civil Rights and Liberties (OCRL) assesses 
complaints alleging discriminatory conduct and, may conduct an inquiry 
to determine what occurred, if the SOP was followed and whether a 
violation of the passenger's civil rights or civil liberties occurred. 
If a complaint is disability-related, TSA's Office of Disability Policy 
and Outreach (ODPO) conducts the investigation. Both OCRL and ODPO 
conduct outreach, monitor trends, provide targeted sensitivity and 
cultural awareness training, and, if necessary, work with TSA's Office 
of Security Operations to revise or develop new procedures.
    TSA's Office of the Ombudsman provides confidential, neutral, and 
informal assistance in resolving questions and concerns from 
individuals about TSA processes, programs, and procedures when other 
available TSA resources for resolution have been unsuccessful. Finally, 
passengers may also contact the DHS Office for Civil Rights and Civil 
Liberties (CRCL). CRCL reviews and assesses information concerning 
abuses of civil rights, civil liberties, and profiling on the basis of 
race, ethnicity, or religion, by employees and officials of DHS.
    Regardless of the avenue, all complaints are taken seriously, and 
volume and trends are reported to TSA leadership. TSA is committed to 
doing everything we can to make the traveling experience as expeditious 
and comfortable as possible while ensuring the safety of all 
passengers. The agency will continue to evaluate and adapt these 
procedures to strike the right balance between privacy and security, 
while ensuring we are addressing evolving threats.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                          Hon. John S. Pistole
    Question 1. It is my understanding that the international air cargo 
supply chain still relies heavily on paper documentation instead of 
electronic information, which would be more easily scrutinized for 
anomalies or problems earlier in the shipping process. One area of 
improvement that I envision to bolster our intelligence and security 
efforts would be to transition from a paper-centric documentation 
system to an electronic system. Would this transition improve your 
counter-terrorism efforts in the air cargo sector, and are you working 
with industry to move in that direction?
    Answer. The Transportation Security Administration (TSA) agrees 
that having an electronic based system would be beneficial to counter-
terrorism efforts. TSA is currently working with industry stakeholders 
to leverage existing electronic capabilities and best practices, and 
the agency supports the greater use of electronic documentation across 
the air cargo industry. As industry moves more toward electronic 
records, TSA will continue to explore ways to obtain this information 
in a secure and timely manner for vetting purposes.

    Question 2. At your nomination hearing, I emphasized the importance 
of the relationship between TSA and industry stakeholders. A safe and 
effective security system is mutually beneficial to industry and 
government alike. To that end, reports indicate that authorities 
suspect that several packages mailed from Yemen to Chicago in September 
2010 may have been a ``dry run'' for this recent terrorist event. Given 
the knowledge of the ``dry run,'' did TSA alert the cargo industry of 
the potential plot, so they could heighten their security analysis, 
especially in Yemen? If not, why?
    Answer. While the specifics of this cargo plot were not known until 
hours before the discovery of the packages from Yemen, the 
Transportation Security Administration (TSA) regularly shares threat 
information with its stakeholders, including direct briefings when 
there are specific items of interest to the air cargo industry. Our 
logs indicate that TSA has provided information on threat related items 
to major cargo carriers on at least seven occasions since 2008. In 
addition, TSA produces an annual assessment of the threat to air cargo, 
which reviews relevant intelligence related to cargo threats. The 
assessment is used to inform stakeholders and the transportation 
security community.

    Question 3. What role do canine units play in the all-cargo sector, 
and does TSA need more canine units?
    Answer. The Transportation Security Administration (TSA) takes a 
risk-based approach toward deploying its canine resources. TSA 
currently does not use canine teams in the all-cargo environment. 
Presently, canine teams are used in the passenger air cargo 
environment. In this environment, the TSA uses two types of canine 
teams: teams led by local Law Enforcement Officers (LEOs) and 
proprietary teams (federal teams) led by TSA cargo inspectors to screen 
air cargo destined for transport on passenger aircraft. LEO-led canine 
teams, are contractually obligated to spend approximately 25 percent of 
their duty time in the air cargo environment and associated facilities 
providing law enforcement presence and screening air cargo.
    120 TSA proprietary canine teams are primarily dedicated to 
screening air cargo at high-volume air carrier facilities to enhance 
air cargo security. As part of the layered security approach, the 
canine teams conduct routine security sweeps for the detection or 
deterrence of explosive threats where cargo is staged, consolidated, or 
otherwise prepared for transport. TSA canine teams also conduct random 
patrols at various areas within the cargo environment during peak and 
non-peak hours. Based on current air cargo volume, and the fact that 
industry has attained 100 percent screening in the U.S., TSA does not 
have an immediate need for more canine units, but continues to assess 
operational needs.

    Question 4. Following 9/11, several airports and air carriers, 
under the understanding that they would be reimbursed, invested in 
costly in-line baggage systems at airports and various airport 
terminals. Today, some airports and air carriers have yet to be 
reimbursed for those costs, and some are reimbursed at a lower 
percentage than others. Will TSA set aside resources to start 
reimbursing these airports and air carriers to create a clean slate 
moving forward?
    Answer. The Transportation Security Administration (TSA) takes a 
risk-based approach to investing in security programs; therefore, the 
agency must prioritize limited funding toward airports that do not have 
in-line baggage systems in place. Reimbursement for all or a portion of 
these costs absent prior formal TSA agreements is not possible. TSA 
appreciates the investments made by these airports to enhance security; 
however, reimbursement of previous efforts outside a formal agreement 
comes at the cost of advancing current or future security measures.

    Question 5. Please provide a list of the airports, air carriers, or 
other entities that have requested full or partial reimbursement for 
the installation of Explosive Detection Systems (EDS) after the 9/11 
terrorist attacks that have not received full or partial reimbursement?
    Answer. The Transportation Security Administration has received 
requests for reimbursement from the following entities who invested in 
in-line baggage systems without prior formal agreements: Anchorage 
(ANC), Atlantic City (ACY), Chicago Midway (MDW), Detroit (DTW), 
Fairbanks (FAI), Harrisburg (MDT), Honolulu (HNL), Indianapolis (IND), 
Kahului (OGG), Miami (MIA), Nantucket (ACK), American Airlines/New York 
(JFK), Orlando (MCO), Pittsburgh (PIT), Richmond (RIC), SW Florida 
(RSW), Tampa (TPA), Theodore Francis Green (PVD), Yampa Valley Regional 
(HDN).

    Question 6. Additionally, it is the Committee's understanding that 
TSA has not been timely in responding to Freedom of Information Act 
(FOIA) requests pertaining to documents related to requested 
reimbursement funds for EDS installation. Please provide the Committee 
with a list of EDS installation related FOIA requests that have been 
requested by either airports, air carriers, or other entities since the 

9/11 terrorist attacks, along with the status of those requests and 
justification for non-response, if applicable.
    Answer. Since September 11, 2001, TSA has received 13 requests 
under the Freedom of Information Act for information related to 
installation of Explosive Detection Systems, and has fully responded to 
9 of the 13. Four recent requests, all received in this fiscal year, 
are still outstanding and are in the process of providing a response. A 
complete list of the 13 requests is provided below.



------------------------------------------------------------------------
                                                            Status as of
    Case Number          Description           Status          12/6/10
------------------------------------------------------------------------
FY2010
------------------------------------------------------------------------
TSA10-0044 (case    Documents regarding   Closed on 12/6/   Closed
 received in FOIA    a variety of work,    10
 Office 10/22/09)    including EDS
                     installation, done
                     at Providence, RI
                     airport
------------------------------------------------------------------------
TSA10-0117 (case    Documents related to  Interim response  Case in
 received in FOIA    EDS installation at  provided 12/10/    final
 Office 11/23/09)    JFK airport in New    10               review
                     York, NY, including
                     documents related
                     to TSA's
                     reimbursement of
                     entities for
                     airport facility
                     improvements
------------------------------------------------------------------------
TSA10-0636 (case    Contractual,          Open as of 12/6/  In
 received in FOIA    payment, and          10                processing
 Office 7/6/10)      settlement
                     information related
                     to in-line baggage
                     screening system
                     installation at
                     Cleveland, OH
                     airport
------------------------------------------------------------------------
TSA10-0803 (case    All TSA contracts     Open as of 12/6/  In
 received in FOIA    (including            10                processing
 Office 9/1/10)      technical
                     information) for
                     EDS systems entered
                     into between
                    1/1/2008 and 9/1/
                     2010
------------------------------------------------------------------------
FY2009
------------------------------------------------------------------------
TSA09-0844          Documents, including  Closed 10/22/09   Closed
                     payments, requests
                     for payment, and
                     correspondence
                     between federal and
                     local governments,
                     related to EDS
                     installation at
                     Kansas City, MO
                     airport
------------------------------------------------------------------------
FY2008
------------------------------------------------------------------------
TSA08-0450          Contracts,            Closed 7/9/2009   Closed
                     proposals, and
                     award letters
                     related to design,
                     procurement, and
                     installation of EDS
                     machines
------------------------------------------------------------------------
FY2007--None
------------------------------------------------------------------------
FY2006
------------------------------------------------------------------------
TSA06-0594          Contracts, work       Closed 9/19/06    Closed
                     orders, and
                     drawings regarding
                     EDS installation at
                     Minneapolis-St.
                     Paul International
                     Airport
------------------------------------------------------------------------
FY2005
------------------------------------------------------------------------
TSA05-0004          Request for EDS       Closed 11/8/04    Closed
                     installation-
                     related contract
------------------------------------------------------------------------
TSA05-0141          Request for EDS       Closed 4/14/05    Closed
                     installation-
                     related contract
------------------------------------------------------------------------
TSA05-0442          Contract with Boeing  Closed 7/28/05    Closed
                     for EDS
                     installation and
                     maintenance
------------------------------------------------------------------------
FY2004
------------------------------------------------------------------------
TSA04-0306          Documents related to  Closed 4/22/04    Closed
                     Massport EDS
                     installation
------------------------------------------------------------------------
TSA04-0528          Wide-ranging request  Closed 3/22/04    Closed
                     for documents that
                     included request
                     for ``documents and
                     records related to
                     the schedule of
                     deployment of
                     inline EDS systems
                     for 2004 and 2005''
                     and documents
                     related to the
                     seven airports that
                     had received
                     letters of intent
                     to reimburse for
                     construction
------------------------------------------------------------------------
FY2003
------------------------------------------------------------------------
TSA03-0223          Copy of ``any         Closed 8/28/03    Closed
                     contract between
                     FAA and Boeing''
                     related to EDS
                     installation
------------------------------------------------------------------------


    Question 7. TSA's role in surface transportation security is 
clearly much different than its role in aviation. While TSA Agents 
serve as frontline screeners at all airports, this is obviously not 
feasible when it comes to surface modes. Speaking broadly, how do you 
view TSA's role when it comes to surface transportation security? What 
would be the most important improvement that TSA could make to increase 
its oversight of surface transportation security?
    Answer. The Transportation Security Administration (TSA) is 
mandated to protect the surface transportation system and to ensure the 
freedom of movement and the security of people and commerce. In 
accordance with the 9/11 Act, TSA is responsible for assessing security 
threats, vulnerabilities, and consequences in all surface 
transportation modes and taking appropriate responses to mitigate the 
risk. This mission is accomplished largely by a consortium of federal, 
state, local, and private entities optimizing resources in a risk-based 
approach to security.
    TSA is working to enhance surface transportation security through 
its resource allocations, training, risk assessments, intelligence 
sharing and other discrete areas of focus. For example, the 
Transportation Sector Security Risk Assessment was completed and 
delivered to Congress on June 30, 2010, and is designed to inform the 
development or maintenance of risk mitigation strategies and actions 
that include, but are not limited to, the development of security 
standards, grants, programs, countermeasures, and resource allocations. 
It provides a cross-modal analysis as well as individual analyses 
focused on the unique risks in each transportation mode. TSA will use 
this assessment when looking to improve oversight of surface 
transportation security. TSSRA 2.0 is expected to be completed in 
December 2011.

    Question 8. The recently uncovered plot targeting the D.C. Metro 
system is another indication of the threat our nation's mass transit 
system faces. At a hearing of this Committee in April, we discussed the 
need for TSA to better coordinate with transit operators. Has TSA made 
any progress in this area?
    Answer. The Transportation Security Administration (TSA) has and 
continues to make progress coordinating with transit operators. 
Examples include:

  <bullet> On a regular basis, TSA conducts conference calls with the 
        Transit Policing and Security Peer Advisory Group and over 100 
        varying transit agencies. Both calls include an unclassified 
        briefing from TSA's Office of Intelligence and an opportunity 
        for transit stakeholders to ask questions.

  <bullet> TSA issues Random Surge Operations Messages to expand 
        collaboration between TSA and the transit community, especially 
        the Tier I and II Transit Security Grant Program security 
        partners, and promote random, unpredictable activities. The 
        surge operations include a list of precautionary and voluntary 
        security protective measures with some possible funding 
        options.

  <bullet> TSA also worked with stakeholders on implementing 
        recommendations from the Government Accountability Office (GAO) 
        Public Transit Security Information Sharing Report (GAO-10-895 
        September 22, 2010).

    Question 9. A March 2010 Inspector General's report recommended 
that TSA better support passenger rail agencies by improving its 
assessments of emergency procedures and response capabilities. What is 
TSA doing to improve these assessments?
    Answer. The Transportation Security Administration (TSA) has taken 
a number of steps to improve the Baseline Assessment for Security 
Enhancement (BASE) program. The BASE program assesses the status of a 
transit system's implementation of 17 Security and Emergency Management 
Action Items and measures compliance with existing TSA Security 
Directives. During these comprehensive system-wide assessments, which 
include an assessment of security management and accountability 
systems, TSA inspectors identify security weaknesses, including 
weaknesses in emergency response planning and employee training.
    First, TSA has modified the frequency of BASE assessments to focus 
on passenger rail agencies that have not done as well as other agencies 
in improving security. Second, TSA has developed a program to assist 
the agency in addressing significant vulnerabilities. A Performance 
Improvement Action Plan (PIAP) is written with objectives and 
milestones within a structured timeframe, and TSA inspectors make 
increased visits to the agency to help the agency implement the PIAP. 
Third, TSA has developed a matrix that is available to the passenger 
rail agency to identify aids, brochures, websites, templates, and other 
forms of assistance that will strengthen its security posture and 
improve assessments. Fourth, an initiative is underway to establish a 
panel with representatives from the transit industry as well as 
representatives from TSA's federal security partners (Federal Transit 
Administration and Federal Emergency Management Agency) to further 
coordinate with TSA on the BASE assessment tool.

    Question 10. In addition to aviation and other modes of passenger 
transportation, we must also consider the vulnerability of our nation's 
pipelines. How does TSA oversee the security of the 2.5 million miles 
of pipeline in our country?
    Answer. The Transportation Security Administration (TSA) was 
mandated by the Implementing Recommendations of the 9/11 Commission Act 
of 2007 (9/11 Act) to review pipeline operator adoption of DOT's 
security recommendations issued in 2002. Pub. L. 110-53  1557 and 
1558 (codified at 6 U.S.C. 1207 and 1208). Through Corporate Security 
Reviews, TSA assesses companies' security plans and procedures. In 
addition, TSA conducts Critical Facility Inspections to examine the 
physical security companies have in place. At the conclusion of these 
visits, TSA provides recommendations to facility operators on how to 
strengthen the security posture of the facility. TSA's approach 
emphasizes information sharing and the provision of technical 
assistance to collectively protect the nation's pipeline network. 
Through these and other programs, TSA has built a strong working 
relationship with the pipeline industry, a relationship which has 
served to help pipeline operators secure their critical facilities.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John Ensign to 
                          Hon. John S. Pistole
    Question 1. The DHS Office of Inspector General report of November, 
2009 reiterated by the GAO report of June 2010, found deficiencies in 
the chain of custody between the parties that control the cargo prior 
to its loading onto the aircraft, as part of the TSA's Certified Cargo 
Screening Program (CCSP). The GAO report also stated that while the TSA 
directs when and how to achieve cargo security with various 
technologies, it does not issue ``. . . standards for the types of 
technologies that should be used.'' What has been the TSA's progress 
with improving the chain of custody and the issuance of standards 
regarding technologies to be used for cargo security, and the level of 
cooperation received from the certified cargo screening facilities 
(CSF) to correct this problem, including any objections or issues on 
the part of the CSFs?
    Answer.
Improvement of Chain of Custody
    One way that the Transportation Security Administration (TSA) has 
focused its efforts to improve the chain of custody is by developing 
training modules that will ensure consistent training across regulated 
parties. TSA plans to provide these modules to the air carriers, 
Indirect Air Carriers, Certified Cargo Screening Facilities (CCSF), 
Independent Cargo Screening Facilities, and authorized representatives. 
The modules will include training covering the following areas:

  <bullet> Acceptance and transfer procedures;

  <bullet> Cargo screening procedures;

  <bullet> Chain of custody measures;

  <bullet> Facility security;

  <bullet> Security coordinator training, and;

  <bullet> Handling of Sensitive Security Information and Personally 
        Identifiable Information.

    Each module will include instructor and student guides and tests. 
TSA intends to finalize the modules, post the materials for industry 
comment, and educate industry on the use of the modules in the first 
quarter of calendar year 2011.
Technology Standards
    TSA is in the process of updating the security programs for those 
participating in the Certified Cargo Screening Program (CCSP). The next 
updates are designed to provide a process for TSA review and approval 
of chain of custody technology (i.e., Tamper Evident Technology- seals, 
tape, etc.).
Outreach and Compliance Activities for the CCSP
    TSA has engaged in extensive outreach to CCSP participants to 
assist CCSFs in complying with TSA regulations. TSA works with each 
CCSF to ensure that they understand the security program requirements. 
TSA also has compliance inspectors that conduct routine, as well as 
random inspections of CCSFs to determine whether the facilities are in 
compliance with TSA regulations and security program requirements, 
including chain of custody requirements. TSA evaluates industry 
feedback regarding chain of custody best practices and uses applicable 
industry practices in the development of future security programs and 
chain of custody procedures.

    Question 2. The use of pat-downs has raised the competing concerns 
of security versus privacy. Does TSA have a written policy in place 
regarding the use of pat-downs of air travelers? If so, please provide 
it to the Committee.
    Answer. Written policies and procedures are contained in 
Transportation Security Administration (TSA) Standard Operating 
Procedures. These documents are Sensitive Security Information and can 
be provided in a closed setting to the Committee.

    Question 3. Does TSA keep statistics on how many travelers have 
gone through pat-downs, whether because of a decision to opt out of the 
full body scan or because of other alerts or anomalies? If not, has 
your agency discussed this and what were the details of that 
discussion?
    Answer. Yes, TSA is now collecting this data. Approximately 2.79 
percent of all passengers between October 31, 2010 and December 11, 
2010 received the full standard pat-down (mainly when opting out of AIT 
screening and approximately 3.2 percent of passengers received a 
targeted pat-down as a result of AIT anomalies).

    Question 4. A type of passenger screening equipment that uses a 
lower level of radiation and depicts a less realistic body image was 
mentioned in news reports recently. This machine is built by L-3 
Communications Security & Detection Systems, a Massachusetts-based 
company. The machine is used by Amsterdam's Schiphol Airport. Which 
company manufactures the screening equipment currently in place at U.S. 
airports, as well as those machines that are waiting to be deployed?
    Answer. Current Advanced Imaging Technology units are manufactured 
by Rapiscan Systems, Inc. and L3 Communications, Security & Detection 
Systems Division.

    Question 5. Why was the current model of screening equipment chosen 
rather than a type similar to this Massachusetts-based machine?
    Answer. The Transportation Security Administration (TSA) has 
purchased and deployed the Massachusetts-based screening equipment, 
manufactured by L3, in addition to Rapiscan's screening equipment. At 
this time, L3 and Rapiscan are the only two companies that have 
successfully completed testing to demonstrate that they meet the TSA's 
requirements. The image produced by the L3 millimeter-wave scanner is 
similar to the image produced by the Rapiscan backscatter x-ray 
machine; both machines detect anomalies on a passenger's body.

    Question 6. Were any studies done on the medical effects of the 
body scanning equipment currently in use? If so, please provide those 
results.
    Answer. Advanced Imaging Technology is safe and meets national 
health and safety standards. Backscatter technology was evaluated by 
the Food and Drug Administration's Center for Devices and Radiological 
Health, the National Institute for Standards and Technology, and the 
Johns Hopkins University Applied Physics Laboratory. All results 
confirmed that the radiation doses for the individuals being screened, 
operators, and bystanders were well below the dose limits specified by 
the American National Standards Institute. For comparison, the energy 
projected by millimeter wave technology is thousands of times less than 
a cell phone transmission. A single scan using backscatter technology 
produces exposure equivalent to 2 minutes of flying on an airplane.
    TSA performed evaluations to ensure the systems meet the applicable 
regulatory requirements and national safety standards prior to 
deployment. TSA takes all measures to ensure the safety and health of 
the traveling public and TSA employees when purchasing and deploying 
new technology. Before TSA purchases technology, the technology is 
validated by manufacturers, through third party testing, or additional 
evaluations sponsored by TSA to ensure it meets regulatory requirements 
and national safety standards.

    Question 7. As part of the Screening Partnership Program (SPP), 
airports can opt out from having TSA employees do the screening and 
instead choose private contractor screeners. As I understand it, this 
is the situation at 16 airports in the U.S. Please provide a listing 
of:

        The specific airports whose SPP applications are pending;

        The length of time each application has been pending;

        The reasons for each application's continued delay (if 
        applicable); and,

        The estimated date of decision for each application.

    Answer. The specific airports whose Screening Partnership Program 
(SPP) applications are pending and length of time the applications have 
been pending are:

        1. West Yellowstone, MT (WYS)--15 Months (September 2009)

        2. Glacier Park, MT (GPI)--15 Months (September 2009)

        3. Missoula, MT (MSO)--7 months (June 2010)

        4. Butte, MT (BTM)--20 Months (March 2009)

    The SPP program applications are currently under review by the 
Administrator of the Transportation Security Administration. A decision 
on all of the applications will be made following the completion of the 
review.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                          Hon. John S. Pistole
    Question 1. Because of the obvious publicity generated from new TSA 
screening policies do you plan to revisit these procedures in the near 
future?
    Answer. The Transportation Security Administration (TSA) 
continuously reviews and updates screening policies based on threat 
assessments and intelligence and balances the need to safeguard 
aviation with the needs of passengers. TSA has been and will continue 
to be receptive to input from the traveling public. TSA strives to keep 
the traveling public informed of policies through our website, 
established aviation stakeholder partnerships, and other public forums.

    Question 2. As part of the Air Cargo plot that was disrupted last 
month, do you believe that air cargo companies should be required to 
disable certain package tracking information that could be used to 
estimate when and where a package is during the course of its journey?
    Answer. Package tracking information is a concern to the 
Transportation Security Administration (TSA). TSA is evaluating the 
potential impact of disabling this tracking information on industry 
operations.

    Question 3. Thankfully a number of terrorist acts have not been 
carried out over the past few years in the United States (Detroit 
bombing last December, Times Square bomb plot, Richard Reid, and the 
most recent explosive devices that originated in Yemen). How many of 
those failed plots do you attribute to increased TSA security screening 
practices and how much was pure luck or related to the quick thinking 
of alert bystanders?
    Answer. The Transportation Security Administration (TSA) and the 
Department of Homeland Security (DHS) have a layered approach to 
aviation security. Every day, TSA Transportation Security Officers 
screen almost 2 million passengers. More than 50,000 trained 
transportation security officers, transportation security inspectors 
and behavior detection officers are on the front lines guarding against 
threats to the system every day. Many are veterans of the U.S. military 
who have previously fought terrorism overseas, and they are now serving 
our country at home. Screening both provides a deterrent against 
attacks and serves as the nation's last line of defense for aviation 
security.
    Intelligence, information sharing and cooperation are critical in 
the fight against terrorism. TSA works with all of their partners, the 
traveling public, foreign governments, the private sector and law 
enforcement to increase global aviation security and enhance 
information sharing. As TSA sees the ever evolving nature of the 
threat, TSA adapts to use the latest intelligence and cutting edge 
technology to keep the traveling public safe. TSA has engaged our 
partners to ensure passenger vetting by Secure Flight, and we are 
seeing the increased use of technology, including Advanced Imaging 
Technology (AIT), in other locations. Together with DHS, TSA has 
launched a nationwide expansion of the ``If You See Something, Say 
Something'' campaign--a simple and effective program to raise public 
awareness of indicators of terrorism, crime and other threats and to 
emphasize the importance of reporting suspicious activity to the proper 
transportation and law enforcement authorities.
    The combination of all these efforts provides the greatest 
safeguard against the terrorist threat.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Johnny Isakson to 
                          Hon. John S. Pistole
    Question 1. I have received, and continue to receive, very angry 
calls, letters, and e-mails from my constituents about the intimate and 
aggressive nature of the pat-downs. One constituent, Pamela Robinson 
who is a Diamond Medallion Member on Delta Airlines and flies 
approximately 200,000 miles year, described her experience at the TSA 
checkpoint in San Francisco. She did not set off the magnetometer; 
however, a TSA agent told her that her shirt was too loose and her 
pants too wide, so she needed to be patted down.
    Reading from her statement to my office: ``The agent described how 
she would rub her hand inside my `inner thigh' in my groin area.'' I 
felt disgusted and stated, ``I don't think so. You will not touch me 
like that.'' She then tried to convince me by continuing to describe 
how she was now going to ``pat'' my entire body down with her hands. I 
felt sick just hearing her describe how she thought I was going to 
stand there and allow her to molest me in front of the public. She 
stated that ``I could go to a private room.'' I stated that ``I am not 
going into a private room to be molested either.''
    Another constituent, a law enforcement officer who was patted down, 
told my staff that the type of pat-down he received is, in his 
experience, reserved for suspects who demonstrate probable cause. 
Recognizing that TSA is not a law enforcement agency, it leads me to my 
questions:
    Does TSA view each passenger as if they have probable cause that 
they are a terrorist?
    Answer. The Transportation Security Administration's (TSA) 
authority to search passengers at checkpoints does not require probable 
cause or any level of individualized suspicion about a passenger. TSA's 
specific authority to screen passengers and their property is set forth 
in Sections 101 and 110 of the Aviation and Transportation Security Act 
(ATSA). Under Section 101 of ATSA (codified at 49 U.S.C.  114 (e)(1)), 
the TSA Administrator ``shall be responsible for day-to-day Federal 
security screening operations for passenger air transportation and 
intrastate air transportation.'' Under Section 110 of ATSA, (codified 
at 49 U.S.C.  44901(a)),``The Under Secretary of Transportation for 
Security shall provide for the screening of all passengers and 
property, including United States mail, cargo, carry-on and checked 
baggage, and other articles, that will be carried aboard a passenger 
aircraft operated by an air carrier or foreign air carrier in air 
transportation or intrastate air transportation.'' Particular screening 
methods, however, are not prescribed by statute. Federal courts have 
held screening is lawful when no more extensive or intensive than 
necessary to detect the presence of weapons and explosives. See e.g., 
United States v. Aukai, 497 F.3d 955 (9th Cir. 2007) (en banc); United 
States v. Hartwell, 436 F.3d 174 (3rd Cir. 2006). Federal courts have 
held that airport security screening is a valid special needs search, 
and need not be based on probable cause or any level of individualized 
suspicion. As discussed in Aukai and Hartwell, suspicionless searches, 
such as aviation checkpoint security screening, are lawful under the 
Fourth Amendment when they serve a special need distinct from ordinary 
law enforcement and are tailored to minimize the intrusion on personal 
privacy. Additionally, as the court stated in Hartwell, absent a 
search, there is no effective way to detect which passengers pose a 
threat, and ``as yet there is no foolproof way of confining the search 
to the few who are potential hijackers.'' Hartwell, at 180.

    Question 2. Where does TSA derive its authority to conduct these 
physical screenings? Is it explicit under legislation such as the 
Aviation and Transportation Security Act (ATSA), the Intelligence 
Reform and Terrorism Prevention Act of 2004, and the Implementing 
Recommendations of the 9/11 Commission Act of 2007, or is it a legal 
interpretation by your lawyers?
    Answer. The Transportation Security Administration's (TSA) 
authority to screen is explicit under sections 101 and 110 of the 
Aviation and Transportation Security Act (ATSA). TSA has the statutory 
mandate to screen all passengers and property that will be transported 
on passenger aircraft. This is codified in 49 U.S.C.  114 and 44901. 
In addition, under Section 4013 of the Intelligence Reform and 
Terrorism Prevention Act of 2004 (codified at 49 U.S.C.  44925), 
Congress has directed that TSA ``shall give a high priority to 
developing, testing, improving and deploying, at airport screening 
checkpoints, equipment that detects nonmetallic, chemical, biological, 
and radiological weapons, and explosives, in all forms, on individuals 
and in their personal property.'' Particular screening methods, 
however, are not prescribed by statute.

    Question 3. During the hearing, Senator Dorgan asked what I thought 
was a very good question. In asking whether you were sensitive to the 
growing concern over the new pat-downs, he said: ``Does that worry you 
that maybe we're at a point where this is not a vocal minority, that 
maybe we have overstepped?'' You responded: ``Yes, I'm concerned about 
that, but, no I'm not going to change the policy.'' If you are, by your 
own admission, concerned that TSA is overstepping, then why not have a 
review of the policy and make changes?
    Answer. My concern was based on the intensity of the feedback we 
received, not the efficacy of the screening policies themselves. As 
always, the Transportation Security Administration will continue to 
evaluate and adapt screening procedures to strike the appropriate 
balance between privacy and security, while ensuring that we are 
addressing evolving threats. A review of travel during the recent 
Thanksgiving and December high-travel period shows that the screening 
process went very smoothly throughout the country.

    Question 4. I recognize that security is a balancing act, and that 
we must balance the free flow of commerce and freedom of movement with 
security in the post 9/11 world. I was disappointed that Secretary 
Napolitano said that ``if people want to travel by some other means'' 
they have that right, and when she implied that air travel is not a 
right. That comment does not reflect an understanding of the necessity 
of air travel for many and its importance to our nation's economy.
    I also do not think that DHS and TSA have done a good enough job of 
explaining the meaning and intent of its aviation security regulations 
and policies to the traveling public, or to its field representatives 
who are charged with enforcing them. For example, one constituent 
relayed an experience in Atlanta where he was told he was now required 
to remove his wallet when going through screening. He asked when this 
new rule was implemented, and was told, ``it has always been this 
way.''
    TSA, it seems, consistently fails to communicate these changes, 
especially when doing so could probably speed up the process and give 
travelers an idea of what to expect. If you travel through 5 different 
airports, you will have 5 different TSA experiences.
    Do you agree with Secretary Napolitano that, for example, my 
constituents who need to travel the over 2,000 miles to the West Coast 
for business should find other means to travel?
    Answer. The Transportation Security Administration (TSA) has 
responsibility for protecting the security of the aviation system and 
specific authority to screen passengers and their property. TSA 
appreciates the support and cooperation of those who fly. Title 49 Code 
of Federal Regulations (CFR) Part 1540.107 (a) however, provide that no 
individual may enter a sterile area of an airport without complying 
with the systems, measures, or procedures in place to control access to 
that area. Further, no individual may enter a sterile area or board an 
aircraft without submitting to the screening and inspection of his or 
her person and accessible property in accordance with TSA's procedures. 
Simply put, TSA must ensure that all passengers are properly screened, 
and we know that all passengers want assurances that those traveling on 
their flight are similarly screened for their safety. Under Title 49 
Code of Federal Regulations (CFR) Part 1503.401, TSA has authority to 
assess civil penalties for violations of these aviation security 
requirements. Thus, to ensure the safety of the public, civil penalties 
or the denial of air transportation will apply to those who refuse to 
comply with federal regulations.

    Question 5. What will you do to ensure that TSA policies and 
regulations are properly understood and consistently enforced by TSA 
field representatives, and properly communicated to your customers, the 
traveling public?
    Answer. The Transportation Security Administration (TSA) has a 
comprehensive training program in place to ensure that all TSA policies 
and regulations are understood by the entire screening work force. TSA 
uses a number of communications vehicles to reinforce messaging to the 
workforce and field leadership. Among these vehicles are agency-wide 
broadcast messages from the Secretary of Homeland Security, the TSA 
Administrator, and the TSA Deputy Administrator; daily shift briefs 
provided to the work force; transmittal of information via Intranet 
sites open to the work force; our public Internet site; Intranet sites 
dedicated to field leadership; leadership conferences; newsletters; and 
local town halls. Included in the training and messaging are periodic 
reminders of established avenues to report concerns with consistent 
enforcement of standards, to include the TSA Ombudsman.
    For the traveling public, TSA provides extensive signage and audio 
messaging at airports; a user-friendly Internet site; a network of 
customer service managers at airports across the nation; and broad 
outreach for feedback from the public through the TSA Contact Center. 
We refine our public communications through close coordination with key 
government and industry stakeholders.

    Question 6. As a grandfather of 9, most of whom are under the age 
of 6, I have a special interest in this question. My staff received a 
call from a constituent who at the time was at the airport and who was 
very upset that his 4 year old daughter had two options to be screened: 
either the advanced imaging screening or the physical pat-down. He has 
very legitimate concerns with the image produced by the advanced 
imaging screening, regardless of whether the TSA agent is in a private 
room where no one else can see the images, and has very legitimate 
concerns with the intimate nature of the physical screening. Can you 
clarify once and for all how TSA is treating child travelers?
    Answer. Children who appear to be 12 years of age and younger 
receive a modified version of the pat-down when it is required. The 
modified pat-down is required if a child alarms the Walk Through Metal 
Detector, has Advanced Imaging Technology (AIT) anomalies, or if the 
child's parent or guardian requests a pat-down in lieu of AIT on the 
child's behalf. The modified version of the pat-down is less invasive 
than the pat-down conducted on adults. As with all of the 
Transportation Security Administration's (TSA) pat-down procedures, the 
modified pat-downs are only conducted over clothed areas and can always 
be conducted in private with witnesses present; TSA will not separate a 
parent or guardian from a minor. In addition, targeted pat-downs on 
specific areas of individuals, including children, may be conducted if 
the individual or child is wearing bulky clothing that could conceal a 
prohibited item or resolution of an AIT anomaly is required.

    Question 7. If a parent is traveling with a child that they do not 
want to be subjected to AIT radiation, what are their options?
    Answer. A modified pat-down is conducted on children who appear to 
be 12 years old or younger if the child's parent or guardian refuses 
Advanced Imaging Technology (AIT) on the child's behalf. The modified 
version of the pat-down is less invasive than the pat-down conducted on 
adults. As with all the Transportation Security Administration (TSA) 
pat-down procedures, the modified pat-down is only conducted over 
clothed areas and can always be conducted in private with witnesses 
present. TSA will not separate a parent or guardian from a minor. The 
TSA website at www.tsa.gov contains information regarding radiation and 
AIT safety.

    Question 8. My constituents have voiced a number of concerns with 
the advanced imaging technology (AIT) machines. The notion of a near 
naked image being seen by someone in a different room is disconcerting, 
regardless of whether that image is stored. They have voiced concerns 
with the radiation they are subjected to during the process. They also 
have voiced concerns with throughput at the machines which, by my own 
experience in Atlanta, I can tell you is very slow. What progress has 
TSA made in moving to the automated target recognition feature that 
would eliminate the viewing room and instead use a stick-figure image 
on the machine itself?
    Answer. Software development is currently underway and will be 
followed by testing to ensure it meets Transportation Security 
Administration (TSA) screening requirements. If it meets these 
requirements, Automated Target Recognition (ATR) software will be used 
with Advanced Imaging Technology (AIT) and displays a generic stick 
figure-like image on the monitor attached to the AIT machine to show 
potential threats concealed on a passenger, and does not display the 
actual image of the passenger. ATR will provide strong privacy 
protections and eliminate the need to staff an extra officer in a 
private room.

    Question 9. Can you guarantee that these images are not being 
stored, as we learned the U.S. Marshal Service was doing at an Orlando 
courthouse?
    Answer. The Advanced Imaging Technology (AIT) that the 
Transportation Security Administration (TSA) deploys to airports cannot 
store, export, print, or transmit images. TSA directs AIT vendors to 
disable the storage capability of their machines at the factory. All 
images are automatically deleted from the system after they are 
reviewed by the remotely located operator. No cameras, cellular 
telephones, or any other device capable of capturing an image is 
permitted in the resolution room. Use of such a device is terminable 
offense.

    Question 10. What studies has TSA done to ensure that the levels of 
radiation, especially by the backscatter machines, are not harmful?
    Answer. Advanced Imaging Technology is safe and meets national 
health and safety standards. Backscatter technology was evaluated by 
the Food and Drug Administration's Center for Devices and Radiological 
Health, the National Institute for Standards and Technology, and the 
Johns Hopkins University Applied Physics Laboratory. All results 
confirmed that the radiation doses for the individuals being screened, 
operators, and bystanders were well below the dose limits specified by 
the American National Standards Institute. For comparison, the energy 
projected by millimeter wave technology is thousands of times less than 
a cell phone transmission. A single scan using backscatter technology 
produces exposure equivalent to 2 minutes of flying on an airplane.

    Question 11. With regards to throughput, will TSA staff and run the 
security lines to a specific wait time? That is, can TSA guarantee that 
passengers will clear security within 30 minutes of beginning the 
process, for example? If not, why not?
    Answer. Although the Transportation Security Administration (TSA) 
strives to process passengers through screening as efficiently as 
possible, application of screening protocols at a checkpoint is not 
tied to throughput and screening of individuals and property must be 
completed to ensure the safety of the traveling public. While TSA 
cannot guarantee a wait time of less than 30 minutes, historical data 
indicate that 99.4 percent of passengers wait less than 20 minutes.

    Question 12. Please clarify that if a passenger clears the AIT 
machines with no anomalies, they do NOT have to have the ``more 
invasive'' pat-down.
    Answer. That is correct. If a passenger clears the Advanced Imaging 
Technology machine with no anomalies, they do not have to undergo the 
standard pat-down.

    Question 13. When we met prior to your confirmation, we discussed 
the fact that TSA uses a cookie cutter, one size fits all approach to 
security and screens everybody the same way, when what they should be 
doing is managing risk to the specific threats. We also discussed that 
the best way to do this is to use intelligence to determine who would 
need greater scrutiny and to apply it to those who need it, using 
behavioral detection officers at the TSA checkpoint and at the actual 
gate itself. At the time my understanding was that you agreed with this 
view.
    My staff recently witnessed a situation in New York where TSA 
agents were working at the gate, and selecting passengers as they were 
walking on the airplane for screening. My understanding, again, is that 
these agents use behavioral detection to determine who should be 
screened.
    Before starting to board the plane, the airline agent called for 
two specific passengers to board first. The TSA agent pulled one of the 
two people aside for screening as they were boarding. The person said 
``no ma'am, I don't think you want to screen me.'' The agent insisted, 
and began going through the person's belongings in full view of the 
rest of the passengers and before anyone else was allowed to board. 
Ultimately, the passenger was identified as an air marshal.
    This concerns me, because to me it underscores the lack of 
communication between the TSA, the air marshals, and the airline. It 
also underscores that no intelligence is being used to determine who 
needs to have extra scrutiny applied to them. The situation forced the 
public identification of the undercover air marshals on this particular 
flight. Finally, it underscores the concerns that I hear from many of 
my constituents, and that is that TSA's policies and procedures are 
``security theater.''
    What guidance are your screeners given at the gate in determining 
whom to pull out for extra screening? Are they using behavioral 
detection or other intelligence, or are they pulling passengers out of 
line based on their own whims?
    Answer. Transportation Security Officers (TSOs) are instructed to 
select passengers for gate screening based on random screening 
protocols or behavior detection. Specific procedures describe what 
actions should be taken if a Federal Air Marshal is selected for gate 
screening.
    The Transportation Security Administration (TSA) employs several 
methodologies to determine flights chosen for gate screening 
operations, in addition to random selection, to include: collaboration 
with the TSA's Office of Intelligence using real-time intelligence for 
flights of interest, as well as with the Federal Air Marshals Service 
for flights that have gone through a risk-modeling process and are 
determined to be of interest for aviation security. The specific 
procedures for gate screening are Sensitive Security Information (SSI) 
that cannot be discussed in public. However, TSA will schedule a closed 
meeting at your convenience to brief the Committee on these procedures.

    Question 14. Are breakdowns in communication between the TSA and 
air marshals like this common?
    Answer. The airport sterile area is a fluid environment within 
which Transportation Security Administration (TSA) assets, to include 
Federal Air Marshals (FAMs), operates 365 days a year in an effort to 
ensure the safety of the traveling public. To strengthen security at 
our nation's airports, TSA implemented the random assignment of 
Transportation Security Officers (TSO) and Behavioral Detection 
Officers (BDO) to airport departure gates in an effort to remain 
unpredictable and thereby increasing the effectiveness of limited 
available resources.
    On occasion, FAMs are scheduled for flights where departure gate 
screening occurs. The airport environment, varied flight schedules and 
the element of randomness introduced with departure gate screening 
increases the likelihood a FAM may be selected for departure gate 
screening. However, as a result of procedures currently in place, this 
is not a common occurrence.
    TSA's Office of Security Operations (OSO) and Office of Law 
Enforcement/Federal Air Marshal Service (OLE/FAMS) have taken steps to 
mitigate the potential for a breakdown in communication between FAMs, 
TSOs and BDOs. FAMs are aware of the existence of random departure gate 
screening. FAMs are instructed to take measures to prevent being 
selected for screening. These measures include discreet communication 
with TSOs and/or BDOs as soon as it is evident their flight is selected 
for random screening in an effort to make their presence and identity 
known to the TSA elements conducting the screening.
    Unfortunately, even with these measures in place there is no 
guarantee a FAM will not be selected for screening. For instance, 
boarding has commenced prior to a FAM team's arrival at the departure 
gate due to unforeseen circumstances (such as a flight delay or last 
minute schedule change) and discreet communication is not possible. In 
such an event, FAMs and TSOs are instructed to interact in a manner 
that would ensure the anonymity of FAMs.
    TSA will continue to work to ensure such instances that you 
described are minimized or eliminated.

    Question 15. What steps will you take to ensure that situations 
like this do not happen in the future?
    Answer. Transportation Security Administration's (TSA) Office of 
Law Enforcement/Federal Air Marshal Service (OLE/FAMS) will continue to 
work closely with TSA's Office of Security Operations (OSO) to make 
certain breakdowns in communication occur as infrequently as possible. 
The potential for Federal Air Marshals (FAMs) to be selected for 
screening exists on a daily basis. However, TSA has put procedures in 
place to limit the potential for a breakdown in communication between 
FAMs, Transportation Security Officers (TSO) and Behavioral Detection 
Officers (BDO).

    Question 16. As a member of the Senate Veterans Affairs Committee, 
I read with great interest recent articles (including: http://
travel.usatoday.com/flights/2010-08-25-airportscreening25_ST_N.htm) 
regarding TSA's treatment of amputees. As you know many of our 
Operation Iraqi Freedom and Operation Enduring Freedom veterans have 
lost limbs in service to their country as a result of improvised 
explosive devices (IEDs).
    My state of Georgia is home to the 3rd Infantry Division, 13 
military installations including the Home of the Infantry at Fort 
Benning, as well as the Eisenhower Army Medical Center and the Charlie 
Norwood Veterans Hospital, which serves as a poly-trauma and 
rehabilitation center for our nation's active duty and retired wounded 
warriors from all our nation's military conflicts.
    A recent article in USA Today highlighted the concerns of many 
amputees about TSA's use of CastScope and called on the TSA to ``clean 
up its act'' when screening people who have lost a limb. Many amputees 
find they have been subjected to ``inconsistent, unfair, abusive and 
often embarrassing screenings'' by TSA personnel.
    Furthermore, the CastScope subjects passengers to a significant 
amount of radiation and, as one passenger who lost a limb as a result 
of a radiation overdose said, ``It's ironic to lose my leg to a 
radiation overdose, and now, if I want to travel, I have to expose 
myself to more radiation.''
    My understanding is that our wounded warriors and other amputees 
have to subject themselves to CastScope and cannot opt out. Further, I 
have read the complaints many wounded warriors and amputees have had 
with regards to the insensitivity of TSA agents toward amputees, and 
the lack of understanding about how CastScope works.
    For passengers who are amputees, what are the options beyond 
CastScope?
    Answer. The Transportation Security Administration (TSA) is very 
sensitive to the special needs of amputees, including wounded warriors, 
and has been working closely with the Amputee Coalition of America to 
ensure proper training of TSA screeners and to improve screening 
processes generally for amputees. Persons who wear prosthetic devices 
will be screened using either Advanced Imaging Technology (AIT), or the 
Walk Through Metal Detector (WTMD), or they may opt-out of either and 
undergo a pat-down. If the person undergoes AIT or WTMD screening and 
either an AIT anomaly is identified or the WTMD alarms, a pat-down will 
be conducted. The pat-down may be conducted on all areas of the body 
except for the prosthetic device. A visual inspection will be conducted 
of the accessible exterior area of the prosthetic device. A pat-down 
and visual inspection can always be conducted in a private screening 
area. Upon completion of the pat-down and visual inspection, the 
person's hands, footwear, and prosthetic will be tested for explosives. 
In the airports where CastScope is available, it is used in addition to 
the other screening methods described previously. If the person 
declines the CastScope procedure, they will not be allowed to enter the 
sterile area of the airport and will be allowed to depart the screening 
checkpoint. Since June 2010, TSA has worked closely with the Amputee 
Coalition of America to identify ways to make the CastScope process 
safer and more comfortable to people with prosthetics. In addition, TSA 
is in the process of researching ways to increase the privacy of those 
undergoing CastScope screening through the use of privacy screens.

    Question 17. What steps are you taking to ensure that TSA agents 
are all trained in the proper way to treat passengers who are amputees?
    Answer. The Transportation Security Administration is working 
closely with the Amputee Coalition to develop new training to help TSOs 
gain a higher degree of sensitivity regarding screening persons with 
prosthetics. In addition, in direct response to concerns identified in 
a survey conducted by the Amputee Coalition last summer, TSA has 
recently made a number of changes to its CastScope procedures including 
requiring that some of the scans be conducted in the seated position. 
TSA also worked directly with the Amputee Coalition to identify 
specifications for the type of chair and stool needed to conduct these 
scans on amputees more safely and comfortably. In addition, training 
has been provided regarding minimizing the number of scans to that 
reasonably necessary to ensure that no prohibited items are present in 
the cast or prosthetic device. The frequency of the training provided 
to TSOs was also increased from yearly to a quarterly requirement so 
that TSOs will be able to carry out these procedures more effectively 
and expeditiously, thereby causing less inconvenience to passengers who 
are amputees.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. David Vitter to 
                          Hon. John S. Pistole
    Question 1. Administrator Pistole, as you know, the federal 
government took over all aspects of security screening post-September 
11, including the purchase and installation of Explosive Detection 
Systems known as EDS, at airports across the country.
    In one instance, American Airlines was in the middle of 
constructing a new state-of-the-art terminal at New York's JFK 
International Airport when the terrorist attacks occurred on 9/11. 
Rather than stop construction or postpone the project, they made the 
bold decision to proceed--in my mind, a very good demonstration of 
corporate citizenship.
    To keep the project on track while the new TSA was organized, 
American agreed to front the money for the EDS installation with a 
clear understanding that TSA would reimburse them. To date, that 
reimbursement has not occurred despite repeated attempts and countless 
correspondence that has changed hands between TSA, American and the 
Port Authority of New York.
    In fact, I am aware of a FOIA request sent by American to TSA on 
October 29, 2009 (attachment #1) requesting certain documentation on 
this issue that TSA acknowledged on November 25, 2009 (attachment #2). 
As of today, there has been no reply, which I find completely 
unacceptable.
    I am further aware of a joint letter sent by American Airlines and 
the Port Authority of New York to you dated August 20, 2010, requesting 
a meeting to discuss this matter and your response that took over 2 
months to answer--on October 25, 2010--where you denied their request 
for a meeting, which I also find unacceptable. Can you tell me when TSA 
intends to respond to the FOIA request?
    Answer. The Transportation Security Administration (TSA) sincerely 
regrets the delay in responding to the Freedom of Information Act 
request submitted by American Airlines for information related to the 
in-line baggage screening system at John F. Kennedy International 
Airport. TSA is actively processing this request and issued its first 
response on December 10, 2010.

    Question 2. Furthermore, can you give me an explanation as to why 
you would refuse to meet with two of the largest stakeholders at the 
nation's busiest international airport on such an important issue?
    Answer. TSA has been advised that American Airlines has filed suit 
against TSA on this matter in the U.S. Court of Appeals for the 
District of Columbia Circuit. TSA will respond to the lawsuit through 
appropriate channels.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mike Johanns to 
                          Hon. John S. Pistole
    Question 1. Please provide the information requested during the 
hearing regarding screening procedures for advanced imaging technology 
and pat-downs.
    Answer. During the hearing on November 17, 2010 Senator Johanns 
stated that he had recently traveled by commercial aircraft and had 
been subjected to both Advanced Imaging Technology (AIT) and a pat-down 
and questioned the circumstances under which a passenger who did not 
alarm the AIT would subsequently receive a pat-down as well. While the 
Transportation Security Administration (TSA) cannot determine exactly 
what may have occurred when Senator Johanns was screened, the vast 
majority of passengers do not receive pat-downs. Pat-downs are 
primarily used to resolve anomalies observed during Advanced Imaging 
Technology (AIT) screening or alarms of the Walk Through Metal Detector 
(WTMD). Passengers who elect not to undergo WTMD or AIT screening will 
also receive a pat-down. Rigorous privacy safeguards are in place for 
both screening procedures. TSA's standard operating procedures for AIT 
and pat-downs are Sensitive Security Information and can be provided to 
the Committee in a closed setting.

    Question 2. Regarding Advanced Imaging Technology, the TSA website 
states that, ``This technology is optional to passengers in the U.S. 
Passengers who opt-out of imaging technology screening will go through 
alternative screening, including same-gender pat-downs.''
    Many passengers do not believe these are acceptable alternatives--
either go through a machine that allows a TSO to see a highly invasive 
image of the passenger or have a TSO give a passenger a full pat-down. 
What steps is TSA taking to accommodate passengers who have legitimate 
concerns, including concerns based on religious beliefs, that either 
option is an unreasonable privacy violation?
    Answer. The use of Advanced Imaging Technology (AIT) and the pat-
down are among the layers of security the Transportation Security 
Administration (TSA) deploys to address the current threat to aviation 
security. Last year's Christmas Day plot and the recently thwarted 
plots to conceal and ship explosives on aircraft bound for the U.S. 
require that we use the most effective security measures available to 
protect the safety of the traveling public. We employ rigorous privacy 
safeguards to protect the privacy of the public when using either the 
AIT or conducting a pat-down. DHS's Office for Civil Rights and Civil 
Liberties and TSA's Office of Civil Rights and Liberties meet regularly 
with many religious groups to both hear their concerns and to educate 
them about TSA's screening procedures. Feedback from these dialogues 
are used to inform TSA's screening operations. We welcome such feedback 
and remain committed to do everything we can to make the travel 
experience as expeditious and comfortable as possible while ensuring 
the safety of all passengers. However, all passengers must undergo 
screening in order to ensure that they are not a threat to their fellow 
passengers or to the aircraft. This is in fulfillment of the 
requirements that Congress mandated that TSA implement in order to keep 
the traveling public safe.
                                 ______
                                 
                              Attachment 1
                                                  Jones Day
                                   Washington, DC, October 29, 2009
Kevin J. Janet,
FOIA Officer, TSA-20
Arlington, VA.

Re: Freedom of Information Act Request; In-line Baggage Security System 
            Installation at Terminal 8 of John F. Kennedy International 
            Airport

Dear Mr. Janet:

    Pursuant to the Freedom of Information Act, 5 U.S.C.  552, as 
amended, and on behalf of American Airlines, Inc. (``American''), I 
hereby request that the Transportation Security Administration (TSA) 
provide copies of the following:

        1. All documents related to, memorializing, or reflecting 
        communications between American, TSA, the Office of Management 
        and Budget (OMB), any Member of Congress, and/or the Port 
        Authority of New York & New Jersey (PANYNJ) respecting the 
        installation of and/or funding for the in-line baggage 
        screening system at Terminal 8 of John F. Kennedy International 
        Airport.

        2. All documents related to TSA's reimbursement of airlines, 
        airport managing authorities, or private non-airline entities 
        for costs associated with the acquisition or installation of 
        baggage screening systems, or other improvements designed to 
        meet TSA requirements at airport facilities, including but not 
        limited to: (a) requests for and payment of such reimbursements 
        and all correspondence related thereto; (b) the development of 
        reimbursement guidelines or ratios by TSA; and (c) 
        communications within TSA or between TSA and OMB on the subject 
        of reimbursement to airlines, airport authorities, or private 
        non-airline entities for such projects.

        3. All documents related to development of TSA's airport 
        facility improvement reimbursement prioritization schedule 
        called for by 49 U.S.C.  44923, including but not limited to 
        all internal guidance, communications with OMB, and 
        communications with Congress related to the same.

    For purposes of this request, the term ``documents'' should be 
interpreted as including, but not limited to, all records, 
correspondence, memoranda, reports, briefs, requests for 
clarifications, proposals, e-mails, e-mail attachments, electronic 
records including but not limited to Blackberry and/or other personal 
data assistant records, letters, papers, maps, charts, drawings, 
spreadsheets, scientific or technical data, meeting notes, telephone 
logs, audio recordings, voice-mail records, and notes documenting any 
communications, regardless of physical form or characteristics.
    In responding to this request, TSA should identify and produce 
responsive documents wherever and with whomever found. In addition, TSA 
should specifically search documents currently or formerly maintained 
by the following individuals: David M. Stone, Kip Hawley, Michael 
Golden, John Reed, Rodger Dickey, Richard Hayes, Tom Blank, Jim Blair, 
Elle Han, Charlotte Pead, Jason M. Conley, Mohammad Siddiqui, Connie 
Thornton, James I. Murray III, Libby Waldman Strugatch, David Hobbs, 
Bill Britts, Kimberly Ennet, Marisa Maola, and Chuck Burke.
    In the event TSA withholds any information responsive to this 
request, please provide an index identifying such information with a 
detailed explanation of the specific reason(s) and statutory basis for 
each document withheld. If part of any document or documents responsive 
to this request is claimed to be exempt from disclosure, TSA--through 
redaction or otherwise--should produce all non-exempt portions of such 
document or documents.
    American is willing to pay fees associated with processing this 
request. In the event TSA estimates such fees will exceed $1,000, 
please contact me in advance to discuss.
    In accordance with 5 U.S.C.  552(a)(6) and 43 C.F.R.  2.12, 
please send all responsive documents to my attention within twenty (20) 
days of receipt of this request. Production may be in electronic or 
hard-copy form.
    Thank you in advance, and please feel free to contact me with any 
questions.
            Sincerely,
                                           Grant H. Willis.
                                 ______
                                 
                              Attachment 2
                     Transportation Security Administration
                       U.S. Department of Homeland Security
                                  Washington, DC, November 25, 2009
Mr. Grant H. Willis,
Jones Day,
Washington, DC.

Re: TSA10-0117

Dear Mr. Willis:

    This acknowledges receipt of your October 29, 2009, Freedom of 
Information Act (FOIA) request to the Transportation Security 
Administration (TSA), seeking information on behalf of your client, 
American Airlines, Inc. Your request was received in this office on 
November 23, 2009.
    Due to the increasing number of FOIA requests received by this 
office, we may encounter some delay in processing your request. Per 
Section 5.5(a) of the TSA FOIA regulations, 6 C.F.R. Part 5, the 
Department processes FOIA requests according to their order of receipt. 
Although TSA's goal is to respond within 20 business days of receipt of 
your request, the FOIA does permit a 10-day extension of this time 
period. As your request seeks numerous documents that will necessitate 
a thorough and wide-ranging search, TSA will invoke a 10-day extension 
for your request, as allowed by Title 5 U.S.C.  552(a)(6)(B). If you 
care to narrow the scope of your request, please contact our office. We 
will make every effort to comply with your request in a timely manner.
    Provisions of the Act allow us to recover part of the cost of 
complying with your request. We shall charge you for records in 
accordance with the DHS Interim FOIA regulations as they apply to 
noncommercial requestors. As a non-commercial requestor you will be 
charged 10-cents a page for duplication, although the first 100 pages 
are free, as are the first 2 hours of search time, after which you will 
pay the per quarter-hour rate ($4.00, $7.00, $10.25) of the searcher. 
You stated in your request that you are willing to pay assessable fees 
up to $1,000.00. You will be contacted before any additional fees are 
accrued.
    We have queried the appropriate program offices of TSA for 
responsive records. If any responsive records are located, they will be 
reviewed for determination of releasability. Please be assured that one 
of the processors in our office will respond to your request as 
expeditiously as possible. We appreciate your patience as we proceed 
with your request.
    Your request has been assigned reference number TSA10-0117. Please 
refer to this identifier in any future correspondence. You may contact 
this office at 866.364.2872.
            Sincerely,
                                            Kevin J. Janet,
                                                      FOIA Officer,
                                     Freedom of Information Act Office.
                                 ______
                                 
Eric D. Miller,
Pueblo, CO

Dear Committee Members,

    The following is a copy of the letter sent to Janet Napolitano in 
regards to the poor treatment of a TSA officer against my blind son in 
Colorado Springs, Colorado. I am submitting this letter for the 
Statement of Record of the TSA Oversight meeting on November 17, 2010.

            Sincerely,

                                             Eric D. Miller

Secretary Janet Napolitano
Department of Homeland Security
U.S. Department of Homeland Security
Washington, DC

15 November 2010

Dear Madam Secretary,

    I am writing to let you know of two events I witnessed during my 
brief visit through the TSA screening area in Colorado Springs, 
Colorado last Wednesday, November 10, 2010. My son, Garrett and I were 
traveling to Wilmington, North Carolina to celebrate his 10-years of 
cancer survivorship by participating in the Beach2Battleship Half 
Ironman distance triathlon. Garrett was diagnosed with a 
medulloblastoma (brain tumor) in June of 2000. Garrett was given a 50/
50 chance of living 5-years. He was left blind, mute and paralyzed on a 
ventilator after his surgery. He endured 6-weeks of radiation and 64-
weeks of chemotherapy. He spent 2 years in speech and physical therapy 
re-learning to walk and talk. To say Garrett has been through the 
ringer is a gross understatement. His resiliency has been reported on 
CNN, MSNBC, USA Today, and many other publications. His foundation, the 
Rush-Miller Foundation is responsible for donating over 90 tandem 
bicycles to blind and low vision children in 25 states and 6 countries.
    Garrett's story was chosen to be profiled by the Beach2Battleship 
race and our sponsor. His face greeted all visitors to Wilmington 
arriving in the airport and could be seen all over Wilmington, 
including a front page news story. This trip was a victory for Garrett! 
After understanding Garrett's journey I believe you will be as 
concerned by the story I am about to relate.
    While standing in line at TSA check point in Colorado Springs I 
witnessed one of the TSA employees near the metal detector. She was 
smiling and using a sticker to persuade a toddler to come through the 
detector. I vividly remember thinking to myself, ``If every TSA 
employee was creative and friendly like this woman, they wouldn't have 
as many complaints.'' I really considered her gesture with this child 
above and beyond, a great example of superior customer service. Her 
name I found out later was Natasha.
    Contrast the above story with this experience. As I came through 
the metal detector I was selected for further screening, likely due to 
my very baggy jeans. Garrett had passed through the screening just 
before me and I ask the screener to please have someone escort Garrett 
to a chair because he is blind. I went to the waiting area for my 
screening. I noticed the screener had done nothing to assist Garrett 
and he was becoming confused. I went back to the screener, ``Ma'am, the 
boy right there with the white cane is blind and needs assistance 
finding an area to put his things on and let him know where I am 
please.''
    Again, unbelievably nothing was done. I went back a third time and 
ask, ``MA'AM, the boy there is blind, this is very confusing to him, 
please find him some assistance.'' I then looked around the corner and 
identified a chair and directed Garrett verbally to the chair. I could 
see Garrett sitting in the chair getting very agitated because of all 
of the people and all of a sudden I was nowhere to be found. At this 
point I was getting very irritated! I went back to the screener and 
demanded, ``Ma'am HE IS BLIND. LOOK AT HIM. HE IS CONFUSED. GET HIM 
SOMEONE NOW.'' Finally at this point she ask someone to help Garrett. I 
ask the man behind me in line if my perception of the event was 
accurate and all he could do was shake his head.
    I cooperated with my screening and found a supervisor to let him 
know about the incident. And here is the irony. The person who provided 
the superior example of customer service to the toddler was the very 
same person who also provided some of the most blatantly inconsiderate 
customer service we have ever experienced, Natasha.
    We are not a ``poor us'' disability rights family. We expect 
Garrett to compete against his peers regardless of physical abilities. 
We don't expect TSA or anyone else to bend over backward to help us. 
HOWEVER, my initial request should have been acted on immediately. Once 
his cane came out, there shouldn't have been any questions, but 4 
times? ARE YOU KIDDING ME!
    Garrett's story has resonated around the country. I don't believe 
Natasha was discriminating against Garrett, I don't feel she was rude 
to me. However she was just unbelievably inconsiderate and humiliating. 
Garrett has had enough taken from him, let alone his dignity. Frankly, 
when the cane came out, anyone of the many TSA people in Garrett's line 
should have asked if he needed any assistance. I am not asking for 
Natasha to face any disciplinary action. But this event does open the 
avenue for awareness and training for TSA in identifying people needing 
assistance.
    Here is a link to Garrett's foundation and race. Put a face with 
Garrett's story. I believe an apology letter to Garrett from Natasha 
and her supervisor is not out of the question. If she would like to go 
to Garrett's school and talk to the kids about the TSA and how to go 
through airport security it would be a great learning experience for 
her and the kids, I am sure I can arrange a time at the Colorado School 
for the Deaf and Blind. Let's try to find a positive solution to this 
incident.
    I look forward to your timely reply.
    http://www.ppdi.com/beach2battleship/emiller.htm
    Letters to Garrett may be addressed to:
    Mr. Garrett D. Rush-Miller
    2520 Spruce Street
    Pueblo, CO 81004
    Please feel free to contact me regarding more information 
surrounding this incident. I look forward to hearing from you.

            Sincerely,
                                             Eric D. Miller
                                                      Garrett's Dad
                                 ______
                                 
                                                  November 16, 2010
From: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e7838e868986a781958889938e8295c9898293">[email&#160;protected]</a>
To: Adam Duffy

Dear Honorable Committee Members,

    I want to convey to you how outrageous the current tactics are from 
the TSA. These tactics (the body scanners and the pat-downs and now 
letting them put their hands down your pants) are physically and 
mentally intrusive, degrading, a health risk and safety issue. On top 
of that the TSA agents are rude power mongers. The only thing that I 
see that is coming out of these tactics is to instill fear in the 
American people.
    There have been many documented situations of the body scanner 
pictures being compromised. There has also been many documented times 
the TSA agents have completely gone overboard with their authority. 
When you challenge them in anyway they threaten you that you will not 
be able to get on your flight, being arrested and/or fined. Case in 
point John Tyner of Oceanside as reported by the SignOn San Diego News.
    When I fly I don't want to be handled like a criminal. I want to be 
treated with respect for the American citizen that I am. I have a right 
to be secure in my person and papers.
    It is foreseeable that these tactics will have an effect on the 
airline industry. I don't think that is a desirable outcome Considering 
the state of the economy.
    In addition I am a cancer survivor and have had enough radiation to 
last two life times. I don't need anymore radiation from the body 
scanners and I don't need to be touched inappropriately.
    Even in writing this I am fearful that I will be put on one of 
those do not fly list.
    These tactics need to be halted immediately. In utter disgust.
                                               Diana Sauder
                                                            Durango, CO

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
